<html>
<title> - THE THREAT OF BIOTERRORISM AND THE SPREAD OF INFECTIOUS DISEASES</title>
<body><pre>[Senate Hearing 107-124]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-124

    THE THREAT OF BIOTERRORISM AND THE SPREAD OF INFECTIOUS DISEASES

=======================================================================

                                HEARING


                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS


                             FIRST SESSION


                               __________

                           SEPTEMBER 5, 2001

                               __________




       Printed for the use of the Committee on Foreign Relations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
75-040 DTP                  WASHINGTON : 2001
__________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Cilluffo, Frank J., senior policy analyst, Center for Strategic 
  and International Studies, Washington, DC......................    86
    Prepared statement...........................................    89
Henderson, Donald A., MD, MPH, director, Center for Civilian 
  Biodefense Studies, Johns Hopkins University, Baltimore, MD....    62
    Prepared statement...........................................    65
Heymann, David. L., MD, executive director, Communicable 
  Diseases, World Health Organization, Geneva, Switzerland.......    70
    Prepared statement...........................................    73
Ikle, Dr. Fred C., distinguished scholar, Center for Strategic 
  and International Studies, Washington, DC......................    59
    Prepared statement...........................................    61
Nunn, Hon. Sam, co-chair and chief executive officer, Nuclear 
  Threat Initiative, Washington, DC..............................    13
    Prepared statement...........................................    19
Woolsey, Hon. R. James, former Director of Central Intelligence, 
  and partner, Shea & Gardner, Washington, DC....................    26
    Prepared statement...........................................    30

                                 (iii)

  

 
    THE THREAT OF BIOTERRORISM AND THE SPREAD OF INFECTIOUS DISEASES

                              ----------                              


                      WEDNESDAY, SEPTEMBER 5, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice at 10:00 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., (chairman of the committee) presiding.
    Present: Senators Biden, Boxer, Bill Nelson, Rockefeller, 
Helms and Lugar.
    The Chairman. The hearing will come to order.
    National security, to state the obvious, is the first 
obligation of every government. And the test of how well we 
meet that obligation is whether whatever action we take makes 
us more or less secure in the end.
    There are some very difficult decisions with hard choices 
relating to strategic doctrine, foreign policy, threat 
assessment and economic constraints that every President and 
every government has to face.
    And just as we would all agree that we would provide for 
the health care of all if we had unlimited funds, when there 
are not unlimited funds we have to make difficult choices. We 
have to make the same kinds of decisions in terms of our 
national security.
    One aspect of our sacred responsibility to our fellow 
citizens, to provide for the physical security of our Armed 
Forces and to protect our homeland, is how we go about this 
process.
    This is the first in a series of hearings on what have been 
termed ``Homeland Defense and Protecting U.S. Military 
Forces,'' where we will focus on the threats to our homeland 
and attempt to assess what those threats are and prioritize 
them to be able to make rational recommendations to our 
colleagues.
    These hearings have taken on an added sense of urgency in 
my view for two reasons: The most ominous reason is there 
appears to be an overwhelming focus, I would subjectively 
characterize as a myopic focus, on national missile defense by 
the Bush administration.
    We appear to be about to jettison 50 years of strategic 
doctrine grounded on three basic principles: One, reduce the 
number of nuclear weapons in the world and prevent 
proliferation to other countries; Two, stop all nuclear weapons 
testing, because only with new testing can new weapons of mass 
destruction be developed. And the United States is far ahead of 
the game.
    And, Three, diminish or eliminate the reliance on those 
nuclear weapons which are most vulnerable and therefore the 
least stable because they are most likely to be used on short 
warning. These have been at least three of the basic principles 
of our strategic doctrine for the last five decades.
    But, for example on August 16, Secretary Rumsfeld told the 
``Lehrer News Hour'' that he didn't care if other countries 
responded to a U.S. missile defense by MIRV'ing or re-MIRV'ing 
their ICBMs. He added, ``What really counts is the total number 
of weapons.''
    In doing so, the Secretary threw out decades of rightful 
concern over crisis stability which lead to the landmark 
efforts by the Reagan and Bush administrations to get the 
Soviet Union to give up MIRVed ICBMs. In the interest of 
missile defense, Secretary Rumsfeld reduced our nuclear 
strategy to a simple numbers game.
    Later last month, Under Secretary of State Bolton suggested 
that we might withdraw from the ABM Treaty if President Putin 
does not agree by November to scrap the treaty.
    Russian officials had publicly declared their willingness 
to amend the ABM Treaty. But obviously an amendment does 
nothing.
    The administration and Mr. Bolton then tried to walk back 
his comments. Maybe they realized the United States won't win 
any friends by rejecting Russian proposals when we have none of 
our own, especially on offensive force reductions, which 
President Bush and President Putin agreed were tied to the 
issue of missile defense.
    But I have yet to hear any serious U.S. proposals or any 
rational explanation of why we cannot amend the ABM Treaty to 
permit the testing that the administration wants conducted. And 
just this weekend there was a bit of a flap in the press--a 
number of national press people questioned me, and I'm sure the 
rest of my colleagues, on press reports the administration is 
willing to let China MIRV its ICBMs and let it resume nuclear 
testing in response to a missile defense deployment.
    The Chinese build-up may, in my view, spark a new arms race 
involving India and Pakistan. But our withdrawal from the ABM 
Treaty, the end of the START process and renewed nuclear 
testing seems to be something that the administration may be 
willing to pay in order to be able to move forward with an 
untested, undeclared national missile defense.
    A few months ago, and I don't want to get in the middle of 
this but there is a former famous Senator who may testify today 
who warned against making missile defense an issue of theology. 
Looking at recent administration actions, I'm beginning to 
wonder whether we run into theology or technology.
    The second reason for a sense of urgency of these hearings 
is the state of the budget. We are not where we were 15 months 
ago with a large surplus. The loss of the surplus and the lack 
of funding have created new impairments.
    It was at least theoretically possible 18 months ago to 
meet all our defense needs. But because of the state of the 
economy and arguably some action taken to reduce the surplus, 
that is no longer possible. So we have to now prioritize.
    And we still have no reliable estimates on the full cost of 
national missile defense, but we know that they range from $60 
billion to hundreds of billions of dollars to develop the 
systems contemplated by the Bush administration and the last 
administration.
    Obviously, we don't have enough money to do everything. The 
estimates for the 10-year cost for modernizing our conventional 
forces range from $250 to $650 billion over 10 years. So these 
are the two reasons for the urgency of these hearings.
    Hopefully, when we finish our hearings we'll have a much 
clearer understanding of the needs we face and which we should 
address first.
    Today's hearing will focus on the threat of bioterrorism 
and the holes in our homeland defense policy when it comes to 
combating this threat. We begin with two expert panels on two 
closely linked issues: Bioterrorism and the spread of 
infectious disease.
    Our globalized world, where people and goods constantly 
move across borders, is a perfect breeding ground for the 
spread of disease, whether from natural epidemics or 
bioterrorism. It would seem to me, and I'm sure the testimony 
we will hear today will address this, that any steps we take 
against the threat of biological terrorism could reap benefits 
in medical efforts to slow future infectious disease epidemics 
and vice versa.
    An improved public health system in the United States would 
help address this great national security threat as well. But 
make no mistake, a biological weapon smuggled across a border 
and the spread of infectious disease are very real threats.
    This hearing will give us insight into how well prepared we 
are to engage those threats and what we need to do if we are 
not fully prepared, and hopefully we'll have some estimate of 
the costs of doing all this.
    Our first panel will focus on the truly harrowing 
consequences that a bioterrorist attack would have on our 
people and indeed on our democratic political system. Former 
Senator Sam Nunn and former Director of Central Intelligence 
Jim Woolsey have participated in a chilling simulated exercise 
called ``Dark Winter.''
    I wish we had the time, and maybe we will see parts of the 
CD-ROM they produced from that exercise. As I'm sure both 
Senator Nunn and Mr. Woolsey will emphasize, ``Dark Winter'' 
was a nightmare scenario exposing serious flaws in our public 
health infrastructure's ability to deal with a major disease, 
whether it be a smallpox attack or a flu epidemic.
    I reviewed that scenario last night, and I can tell you 
that it is harrowing. It was frightening not just for the many, 
many people around the world who could be felled by a 
biological weapons attack. Perhaps even more frightening was 
the risk that if we do not prepare rationally for such an awful 
event, we may put our democracy at risk.
    Our witnesses are: Dr. D.A. Henderson, director of Johns 
Hopkins Center for Civilian Biodefense Studies; Dr. David 
Heymann, executive director of Communicable Diseases at the 
World Health Organization; and the Honorable Fred Ikle, former 
Director of the U.S. Arms Control and Disarmament Agency, who 
is now a distinguished scholar at the Center for Strategic and 
International Studies; and Frank Cilluffo, senior policy 
analyst at the Center for Strategic and International Studies.
    Before hearing our first panel, I would like to make part 
of the record two letters to the committee, one by Dr. Joshua 
Lederberg, a Nobel Laureate and noted expert in infectious 
disease, and the other by Dr. John Mekalanos, chairman of the 
Department of Microbiology and Molecular Genetics at Harvard 
University.
    These two scientists are among the most accomplished 
microbiologists and infectious disease experts in the world. 
Dr. Lederberg's letter is actually a primmer on what he calls, 
``a matter of transcendent importance to our security and to 
global human welfare.''
    He warns that biological weapons are ``Probably the most 
perplexing and gravest security challenge we face.'' But he 
approaches that challenge with both clarity and wisdom. Listen 
to his description of the dilemma dealing with a biological 
weapons attack. ``The organization of government to deal with 
mass contingencies is a vexing and still poorly attended 
problem. It entails the coordination of local, state and 
Federal assets and jurisdictions; the intersection of law 
enforcement, national security and public health; and a time of 
crisis is not the best venue for quarrels over responsibility 
and authority, over who will pay for it.
    ``Our main bulwark against direct large-scale attack is a 
combination of civic harmony and firm retaliation against 
egregious transgressors.``
    Dr. Lederberg also discusses the role that primary 
prevention, including strengthening of our intelligence 
capabilities, should play in any response.
    Dr. Mekalanos presents his findings on the emergence of new 
infectious agents in nature and the import of the advances in 
microbiology on the threat posed by bioterrorism.
    If, God forbid, America should ever be attacked by 
biological weapons, it will be the scientists and the public 
health professionals on the front lines, not just our men and 
women in uniform. And it's the scientists and public health 
officials, as well as state and local governments and public 
services, who will have to be fully prepared to engage the 
enemy, whomever it is and whatever it is.
    On the other hand, U.S. military must have the ability to 
detect, survive, and maintain operations during biological 
attack. It must also be prepared to assist at home in ways that 
buttress, rather than undermine, the authority of state and 
local officials.
    I said that God forbid we should ever be attacked in this 
manner. But the truth is that such an attack is more likely 
today than it ever had been in the past, and that the 
comparable natural epidemic is all too possible in the decades 
to come.
    In my view, the threat from anonymously delivered 
biological weapons and from emerging infectious disease simply 
dwarfs the threat that we will be attacked by a Third World 
ICBM with a return address. I'm not suggesting anyone else 
agrees with me on that. That is just my view.
    Whether you agree or disagree with that judgment, however, 
it is clear that bioterrorism and infectious diseases are real 
threats that demand our attention now. Because there are steps 
that we can realistically take now to contain them.
    If we can come to grips today with the implications of that 
reality, then this may be the most important hearing we hold 
this year.
    In ending my statement, let me exercise a point of personal 
privilege, actually, two. When Senator Nunn was the Chairman of 
the Armed Services Committee, he and I put together a little 
piece of legislation on antiterrorism. And I can just remember, 
Sam, the difficulty we had and the inability we had, 
notwithstanding the consensus we thought we had, to deal with 
the little thing called posse comitatus and how we were going 
to deal with weapons of mass destruction, the role of the 
military in dealing with them in a domestic attack that was a 
terrorist attack.
    If I just think of that one debate, that one debate, the 
concerns you have all raised in ``Dark Winter'' make that one 
concern pale by comparison.
    [The letters referred to by Chairman Biden follow:]

   Joshua Lederberg, University Professor-Emeritus,
                                The Rockefeller University,
                     1230 York Ave., New York, NY, August 30, 2001.

Hon. Joseph R. Biden, Jr.
Chairman, Committee on Foreign Relations,
221 Russell Senate Office Building,
Washington, DC.

    Dear Senator Biden:

    I am honored to have the opportunity to address you and your 
committee by means of this letter, on a matter of transcendent 
importance to our security, and to global human welfare. I refer to the 
threat of use and proliferation of (micro)biological weapons, which 
will be almost irresistible temptations to malignant persons and 
states, who would otherwise be intimidated by the U.S. preeminence in 
wealth and military technology.
    To structure your perusal, my outline will be as follows.

  <bullet> definition, historical note, and assessment of scope of the 
        BW threat

  <bullet> Countermeasures: diplomatic

  <bullet> defensive preparations

  <bullet> deterrence and intelligence

  <bullet> primary prevention; our clean hands

  <bullet> inspiring global convergence on health as human aim

<bullet> Definition, historical note, and assessment of scope of the BW 
        threat
    I will define biological warfare as the use of agents of disease 
for hostile purposes. This embraces attacks on human health and 
survival, but extends also to plant and animal crops. Far from vague 
speculation, BW was the focus of billion dollar investments, both by 
the U.S. and the USSR until President Nixon's unilateral abjuration in 
1969. This was followed by the negotiation, ratification and coming 
into force (in 1975) of the Biological Weapons Convention (BWC). This 
is a categorical ban of the development, production or use of BW.
    The cardinal features of BW are outlined in attached Table 1.

Most important are:

      low cost and ease of access

      difficulty of detection, even after use, until disease has 
advanced

      unreliable but open-ended scale of predictable casualties
          per kilogram of weapon the potential lives lost match nuclear
          but would need far less costly and sophisticated technology

      clandestine stockpiles and delivery systems--the proverbial 
suitcase
          perhaps concealed in a bale of marijuana.

    Published citations to intelligence estimates would place up to a 
dozen countries in the camp of BW-developers. Considerable harm could 
be done (on the scale of, say, a thousand casualties) by rank amateurs. 
Terrorist groups, privately or state-sponsored, with funds up to $1 
million, could mount massive attacks of 10 or 100 times that scale. 
Important to keep in mind: if the ultimate casualty roster is 1000, 
there will have been 100,000 or 1,000,000 people at risk in the target 
zone, legitimately demanding prophylactic attention, and in turn a 
draconian triage. Several exercises have given dramatic testimony to 
how difficult would be governmental management of such incidents, and 
the stresses on civil order that would follow from inevitable 
inequities in that management.
    The short bottom line is that, in the current world where major 
states sustain some equilibrium through mutual deterrence, and positive 
shared interests, BW offers opportunity for grave harm on the part of 
lesser actors. Relative to the assets and doctrinal insights available, 
BW is probably the most perplexing and gravest security challenge we 
face.
<bullet> Countermeasures: diplomatic
    President Nixon's abjuration of BW as a U.S. military weapon, in 
1969, set in motion the most important diplomatic and legal steps 
towards the eradication of BW globally, laying the groundwork for the 
BWC treaty. The BWC lacks robust verification machinery, mainly for 
reasons intrinsic to the technology, and as well that certain parties 
to the BWC have no intention of complying with it. But BW verification 
is not the foundation of our own no-BW stance; the U.S. has long since 
abandoned the idea that it need or would respond in kind to BW attack. 
Were it not for the BWC we would have seen a gradually escalating 
technology race, amplifying even further BW's threat to human 
existence. The BWC does set a consensually, or at least rhetorically, 
agreed standard of behavior: namely, it has become institutionalized 
into international law, and infractions open the door to enforcement. 
Further verification provisions would do little to enhance our actual 
knowledge of those infractions: they would nevertheless have important 
symbolic value in reaffirming international attachment to the 
principles of the BWC. At minimum it behooves us to exercise creative 
leadership in developing alternative means of bolstering that 
reaffirmation.
    The real problem with the BWC is less verification than it is 
enforcement. We have all but certain knowledge that Saddam Hussein has 
continued Iraq's (grudgingly admitted) BW development program, the main 
sore point in his squabbles with the UN. (We can hardly be certain that 
his nuclear program has not been revitalized, though that would be more 
difficult, and from his perspective possibly redundant.) We have failed 
to convince our allies, much less the diffident ``neutrals'' and 
potential adversaries, that halting Iraq's BW is worth turning their 
back on his oil contracts. To convince them of what is at stake we may 
have to start with elevating the priority we give to the BW threat 
generally. We must also become more knowledgeable about the local 
political and cultural terrain, and more ingenious in the design of 
punitive and compellent sanctions that will persuade Saddam of his 
errors without undue hardship to the Iraqi population that he also 
victimizes! That would carry us further with the international 
consortia in which we have to invest political capital (and not waste 
it in other tangents) to be sure this major threat is quenched. If 
Saddam does develop and effectively use BW even in a purely regional 
context (the most likely), that will not only be a humanistic 
catastrophe; it is unlikely we will ever restore the principle of 
mutual forbearance in resorting to BW.
    Our public diplomacy is predicated on the stated proposition that 
the use of BW is an offense to civilized mankind. That is a major 
accomplishment of the BWC. It needs to be reaffirmed as well in the 
attention we give to our own defense, as well as to our stern responses 
to significant infractions in any quarter.
<bullet> Defensive preparations
    BW threat mitigation is indispensable, so as not to present 
irresistible temptations to mischief makers, for whom interstate 
deterrence is irrelevant. Unlike the aftermath of a nuclear or high 
explosive bombardment, BW attack is amenable to interventions for some 
hours or days after the event, depending on the agent used. With the 
best popularized BW agent, anthrax, at feasible dose levels the 
administration of appropriate antibiotics can protect the majority of 
those exposed. The other side of the coin is the urgency of recognizing 
the syndrome within hours of the earliest symptoms. Biosensors are 
being developed that can be used to confirm suspicions of anthrax. For 
some decades, we will have to rely on early diagnosis of the first 
human (or animal) cases to have the basis for focussing those sensors. 
As a wide list of diseases are in the picture, this entails nothing 
more nor less than reinvigorating our overall public health 
infrastructure. In contrast to the explosive rise of health care 
expenditures--with universal access to ever more technically 
sophisticated health care--public health has been allowed to languish, 
boosted only very recently by public arousal about emerging infections 
and about bioterrorism. That boost entails people and organizational 
structures, but improvement also comes down to money--new money, as 
well as the relabelling of established programs.
    Besides the diagnostics, we need organizational and operational 
doctrines that can confront unprecedented emergencies, we need trained 
people on call, we need physical assets for logistics, isolation, 
decontamination and care. We also need stockpiles of antibiotics and 
vaccines appropriate to the risk--and before that, more careful 
analysis of what kinds and how much we need. We need research on 
treatment modalities--how we manage the care of inhalational anthrax 
with possibly limited supplies of antibiotics (and which kinds?) is not 
that well understood. And still more fundamental research could give us 
sharper tools for diagnosis, and more usable ranges of antibacterial 
and antiviral remedies.
    The organization of government to deal with mass contingencies is a 
vexing and still poorly attended problem. It entails the coordination 
of local, state, and federal assets and jurisdictions; the intersection 
of law enforcement, national security and public health; and a time of 
crisis is not the best venue for quarrels over responsibility and 
authority, over who will pay for it.
<bullet> Deterrence, intelligence and preemption
    Our main bulwark against direct large scale attack is the 
combination of a civic harmony, and firm retaliation against egregious 
transgressors. It is sometimes said, we should not worry about BW 
attacks, ``we'll just `nuke the perps' '' if they dare. Lacking the 
clear provenience of a missile track to finger the aggressor, that puts 
us at the mercy either of bafflement, or worse of calculated 
disinformation as to the source. Good, I have to say better 
intelligence is the key to retaliation, apprehension, and penal 
containment and sanctions. This is technically unfamiliar territory for 
most of the intelligence community; it has nevertheless taken many 
positive steps, but it still has a long way to go, and once again is 
resource-constrained compared to what goes on in the collection and 
analysis against other more familiar threats.
    A related vein of opportunity is found in the realm of cooperative 
threat reduction. Since BW facilities can be so readily reconstituted, 
it is less important in the long run to destroy production facilities, 
even stockpiles, than it is to get toxic technical knowledge diverted 
to constructive purposes. Former weapons scientists in Russia need 
financial as well as moral encouragement to ply a new trade in vaccine 
development and other constructive pursuits. This could benefit Russia, 
and its circle of less developed countries directly, and thus enhance 
security globally. The alternative is for some few of of the ex-
biowarriors to sell their knowledge, and who knows what range of 
horrific bio-strains, to the highest bidders among the rogues. We do 
have very modest programs in place: they should be expanded, not put at 
risk for flimsy excuses as seems to be happening.
<bullet> Primary prevention; our clean hands
    I have already alluded to public diplomacy (starting with firm 
conviction at home) about the priority needed to be applied to averting 
any successful BW attack. We have to be careful to behave ourselves 
fully consistently with abhorrence at the idea of using disease as a 
weapon. Such attributions will be lodged against the U.S. as part of 
general America-bashing (witness the ongoing rumor campaign in Africa 
that the U.S. government had somehow ``invented AIDS''). They will also 
be excuses for continued simmering of the BW pot in other venues.
    A particular dilemma is how to study the BW threats in detail, how 
to develop vaccines and other countermeasures, without attracting such 
accusations. I believe the executive and legislative branches could 
develop models of entrusted transparency for oversight of such 
necessary studies, both for assurance to global publics, and to be 
certain there are no careless projects oblivious to the reputational or 
physical harm they could inflict on our polity.
<bullet> Inspiring global convergence on health as human aim
    The central premise of the BWC is that infectious disease is the 
common enemy of all humankind; and it is a treasonable act to join with 
that enemy.
    Those motives clearly inspired adherence to the BWC, even on the 
part of (smaller, poorer) countries who might otherwise exploit BW to 
level a playing field as against a superpower. Having set aside BW as 
giving small advantage and numerous migraines for our own military 
power, we should count it fortunate that we share those interests and 
conclusions. They can only be bolstered if we internalize that 
ideology, and participate ever more fully in global campaigns for 
health. The new funds for the scourges of AIDS, malaria, and 
tuberculosis are right on the mark! Their levels to date are just 
tokens--yes compare them to military hardware!--but certainly in the 
right direction, and it's just about time we assumed leadership of that 
vector among the nations cooperating with the WHO to bolster global 
systems of surveillance of disease and coping with outbreaks that 
promise to threaten all of us.
    Besides the global humanitarian, political and economic virtues of 
this newfound direction, there are good selfish motives as well. What 
would it pay for us to invest to reduce the likelihood that another 
AIDS will emerge from a distant continent, and cross the oceans to vex 
us at home. There will be no stopping the birds, nor the frequent 
flyers, from disseminating ever more novel risks needing that global 
surveillance. I do not count West Nile virus as a likely major scourge, 
but it is just one more exemplary warning!

                  Table 1--Germs as Arms: Basic Issues

_______________________________________________________________________
BW vs. CW: living germs vs. chemicals
      might spread; unstable; self-amplify

Underlying science is unalterably dual use
      licit defensive exploration
      targetted against natural disease

Likewise production up to point of weaponization
      vaccines vs. BW agents?

Facilities moderate scale; few external signatures
      easily concealed or masked by licit programs

Weapons: potent, but unfamiliar and unreliable in military context

Tactical defense is easy: physical barriers (masks, suits)

Latent period up to 36 hours. Disease may be treatable
      Hence focus on civil health preparedness

Hardly understood until now, these are strategic weapons.
      . . . At same time, accessible to small powers . . . or groups
      Seen as answer to a Superpower self confident about the 
``revolution in military

    affairs''.

Capabilities can scarcely be denied
      remedial and intelligence focus on intentions
_______________________________________________________________________
                                 ______
                                 

            Statement Submitted by John J. Mekalanos, Ph.D.

    Dear Honorable Committee Members:
    Thank you for inviting me to comment on the related issues of 
biological terrorism and the threat of emerging infectious diseases to 
the security of the United States. I feel qualified to speak on these 
topics because of my scientific background. In brief, I have over 27 
years of experience in infectious disease research and currently serve 
as Professor and Chairman of the Department of Microbiology and 
Molecular Genetics at Harvard Medical School. Our Department consists 
of a group of outstanding investigators dedicated to understanding and 
controlling bacterial and viral diseases.
    Although awareness of the dangers posed by biological warfare (BW) 
has increased significantly in recent years, it is my belief that we 
are still far from prepared to contend with a biological weapons 
attack. There are many reasons for this, and numerous analyses over the 
past few years have examined the issues carefully. This letter is 
intended to provide a brief overview of the scientific aspects of 
biological weapons development, as perceived from the point of view of 
microbiological research. I also want to emphasize that many of my 
comments about BW threats also apply broadly to threats that we face 
from nature. We have seen numerous examples of this recently: a new 
highly lethal strain of flu virus, a mysterious prion, multidrug-
resistant tuberculosis, HIV, and malaria. Obviously, we are and will 
continue to be under constant assault by emerging microbes whose origin 
may be natural but whose spread to the U.S. will take full advantage of 
modern modes of travel, new human activities, and increased population 
density.
    To begin with, biological weapons are comparatively inexpensive and 
simple to manufacture. They are therefore accessible and attractive to 
those that lack sufficient means to pursue costlier weapons programs. 
One estimate suggests that a significant biological arsenal could be 
produced with as little as $10,000 worth of equipment, though other 
studies have questioned the potential lethality of material produced by 
such rudimentary operations. Construction of the most sophisticated BW 
agents would indeed require significant scientific skills and 
equipment. However, the fact remains that the production of biological 
weapons is not as limited by technical expertise as that of other 
weapons. For example, it is fairly easy to introduce new antibiotic 
resistance genes into bacteria. This does not require extensive 
technical training, and the relevant methods and materials are widely 
available from even commercial vendors. Because the medical community 
is already struggling with the appearance of multi-antibiotic 
resistant, clinically important microbes, even a simple genetic 
manipulation such as transferring a single critical antibiotic 
resistance gene into a single pathogen could have extremely serious 
consequences.
    As far as initial acquisition of pathogens by unscrupulous parties 
is concerned, it would not be exceptionally difficult to obtain 
pathogenic strains. Microbial samples are transferred between labs on a 
daily basis in the normal course of biomedical or pharmaceutical 
research. It is fortunately not so simple for unauthorized personnel to 
acquire highly pathogenic strains, as traffic in these is regulated 
carefully, but it is certainly possible for determined individuals to 
acquire less virulent strains by fraudulent means or theft. These 
strains could then be genetically modified to increase their 
pathogenicity, though this would probably require a higher level of 
scientific training as well as a longer period of development. Efforts 
along these lines were vigorously pursued in the former Soviet Union, 
and since its dissolution, their experts have likely been recruited to 
a variety of rogue states that openly threaten the U.S. and its allies.
    Biological research activity is currently growing at a tremendous 
rate, and although the potential contribution to human welfare is 
enormous, it is simultaneously providing additional tools that could be 
used for the construction and delivery of more powerful pathogens. Much 
of the information that is being generated by biological researchers is 
publicly available, either in print or via the Internet. The ease with 
which any individual can access data relevant to the genetic 
engineering of pathogenic organisms can only be expected to increase in 
the future.
    Although the Biological and Toxin Weapons Convention of 1972 was 
ratified by 140 countries, there is no real mechanism for verifying 
compliance. Monitoring is particularly difficult since many of the 
components of a biological weapons program can also be used in fully 
legitimate pursuits. Apparatus employed in the manufacture of food 
products such as yogurt or beer could be used to grow pathogenic 
cultures, and yet it hardly seems practical to apply the same stringent 
restrictions to beer fermenting equipment as to material that is of 
demonstrable military sensitivity (e.g., explosives or nuclear 
technology). It is useful in this situation to recall the much-
discussed bombing of a baby milk factory in Iraq during the 1990-91 
Gulf War. The facility was destroyed because it was suspected of 
producing biological weapons. I personally am not able to judge whether 
this facility made baby formula or biological weapons components at any 
point in time, but this illustrates the potential for confusion.
    The conclusion is that it is certainly possible for small nations 
or terrorist groups secretly to amass sufficient material to present a 
biological threat, although the seriousness of the threat would depend 
on the exact circumstances.
    I think it is important at this time to point out that the results 
of biological manipulation are sometimes difficult to predict, even for 
highly trained professional scientists. Less than a year ago, 
Australian researchers seeking to develop a biological contraceptive to 
combat rodent infestation, inadvertently created a strain of mousepox 
that was more virulent than the original parent strain. Considering 
that this occurred in the context of perfectly well-intentioned 
research that was intended to benefit humans, we would do well to 
remember that the law of unintended consequences also applies to 
malefactors. The chances of unwittingly creating a ``super-pathogen'' 
will only be increased by deliberate attempts to enhance an organism's 
pathogenic potential, and there is no assurance whatsoever that even 
the producers of such an agent would be able to control it.
    Next, I will mention briefly what can be done to combat biological 
warfare. Measures necessary for countering biological attacks can be 
divided into several categories: surveillance and early warning 
systems, treatment, and prevention. In this letter, discussion of 
prevention will deal only with biological considerations such as 
vaccine development and usage, since military concerns do not lie 
within my area of expertise. I will also leave aside consideration of 
pathogens that target agriculture, focusing instead on those that 
affect humans directly.
    Clinical surveillance and early warning measures are critical not 
only because timely treatment of affected individuals often means the 
difference between life and death, but also because infection must be 
prevented from spreading to other individuals and regions. Depending on 
the actual agent employed, the impact of a biological weapon can extend 
far beyond the initial point of attack. This is especially true with 
highly communicable agents (e.g., smallpox), but it applies to all 
infectious agents that demonstrate a delayed onset of symptoms. Victims 
may not know that they are infected and so not seek treatment or take 
precautions against spreading the disease to others. Unfortunately, it 
may be extremely difficult to detect an attack. Unlike nuclear or 
chemical weapons, the delivery of biological agents need not be 
accompanied by telltale explosions and could be quite stealthy. The 
initial symptoms of bioweapons infections are often nonspecific, and 
anthrax and smallpox are so rare in the U.S. that the majority of 
physicians might not recognize even the characteristic symptoms of 
these diseases. In addition, current systems for reporting cases of 
infectious disease would likely not uncover the presence of a covert 
attack before significant damage had occurred.
    Treatment of BW victims typically consists of antibiotic or vaccine 
therapy and supportive care. Obviously, this requires an adequate 
supply of effective drugs and appropriate clinical facilities. In this 
respect also, the U.S. is poorly prepared. Not only are there serious 
logistical questions regarding distribution of drugs and supplies in a 
crisis situation, but studies of U.S. hospital facilities have 
concluded that there is significant pressure with regard to space and 
staff. While this may not result in serious problems under typical 
conditions, hospitals clearly cannot cope with epidemics.
    Of all possible treatment strategies, preventive vaccines often 
offer the most advantages. Since they can be administered in advance of 
infection, and immunity may be long-lived, vaccines can to a great 
extent alleviate the need for rapid diagnosis and administration of 
therapeutic agents. Vaccines have certifiably saved millions of lives 
and account for some of our greatest medical successes. Nevertheless, 
preventive vaccines are not available for all diseases, and those that 
are available may suffer from a variety of problems. For example, the 
current anthrax vaccine must be administered in 6 doses over 18 months, 
with annual boosters for prolonged protection. In this case, 
development of immunity is slow and logistically complex. In addition, 
there are insufficient quantities of existing vaccines. Recent reports 
have described the rapid diminution of U.S. anthrax vaccine stocks, as 
well as the delays and difficulties associated with obtaining more. It 
has been estimated that the worldwide supply of smallpox vaccine is 
only 60 million doses, and there is currently no facility for smallpox 
vaccine production.
    For these reasons, my opinion is that the U.S. medical 
infrastructure is regrettably inadequate for dealing with biological 
warfare.
    Finally, I would like to call attention to the fact that the 
legitimate development of therapies against biological agents is 
extremely time-consuming. With any new medical treatment, exacting 
rules are required to ensure safety and efficacy. This is absolutely 
necessary and desirable, but those who intend to use biological weapons 
offensively are of course not similarly constrained. This is not in any 
way to argue against existing or future regulations regarding research, 
but merely to emphasize the fact that offensive strategies are simpler 
to develop than therapeutic or preventive ones. While exciting new 
therapeutic approaches for treating infection by some of the more 
important BW agents have been recently described, funding for their 
development has been inadequate. This is in part because the usual 
incentives that motivate the pharmaceutical industry are in many cases 
lacking for such products. We have therefore all the more reason to 
press forward on all fronts to provide adequate funding and resources 
for all types of defensive measures against biological warfare and 
infectious disease threats.
    It is always far easier to cause harm than to prevent or treat it. 
This is particularly well illustrated by the issues at hand. Throughout 
human history, some of our finest and most impassioned efforts have 
been devoted to the eradication of infectious disease. We have had many 
brilliant successes, and yet infectious disease still accounts for 
millions of deaths worldwide. Many of these occur in wealthy, 
industrialized nations that possess the most advanced medical 
infrastructures ever developed. Due to multi-drug resistance and the 
emergence of new pathogens, plus the logistics of clinical treatment, 
we are already facing difficult problems whose existence is 
attributable solely to natural processes. How much more frightening is 
it to contemplate the situations that may arise if conscious effort is 
directed towards using infectious agents, which we have spent centuries 
combating, for the dark purposes of mass destruction? Our hard-won 
understanding of pathogens is helping us to meet the challenges of 
infectious disease, but it can easily be overwhelmed under 
circumstances that are alarmingly possible. We must always be vigilant 
regarding all aspects of biological weapons development and the threat 
posed by infectious diseases, or we will certainly be punished by the 
direst of consequences.

    The Chairman. In another point of personal privilege, and 
I'll have more to say at an appropriate time, but I want to say 
a brief word about an announcement made by Senator Helms just 
last month.
    Jesse, I know I speak for the members of this committee and 
all whom have ever worked with you that we know there's another 
15 months fortunately we are going to get to work together, but 
that assuming, and I am speaking only for myself and I'm back 
here, and that's not at all certain whether my constituency 
will decide that that is going to happen, it will be a very 
different place, a less friendly place, and a less 
accommodating place without you being here.
    I have truly enjoyed working with you. I think it's been to 
the surprise and to some chagrin of your supporters and mine 
that we have such a close personal friendship. I remember 
telling the press when I chose to take over the ranking 
position on this committee for the Democratic Party and leaving 
Judiciary in that position, that you and I will get along very 
well.
    And the press, both national and local, were incredulous. 
They thought that was not possible. Not only did we know it was 
possible, we had done it for 26 years prior to that. And I'm 
happy of one thing, Jesse, and that is all those who follow 
politics can see that we can disagree in this place without 
being disagreeable. You have been one of my close friends. You 
continue to be.
    And I'm truly going to miss, assuming that I am back, I'm 
truly going to miss having you as a colleague.
    Senator Helms. Mr. Chairman, thank you. And I feel the same 
way about you. And I just take a note there are three members 
of the Class of 1972 here today: You and Sam Nunn and I. We are 
glad to see you, Sam.
    Well, anybody who might draw the foolish conclusion that 
this is a routine hearing maybe got a wake-up call with an item 
hidden on page umpteen of the paper the other day about Russia 
developing a new anthrax virus for possible delivery to other 
nations.
    Mr. Chairman, I'm grateful, therefore, for your having 
scheduled this hearing this morning. It's very important; 
because the threat of bioterrorism is very real, and it is 
growing as is evident by the things we have seen almost every 
day.
    This threat is driven by the increasing capabilities and 
the violent intentions of rogue states and terrorist groups 
seeking to harm the United States or to make themselves able to 
do so.
    Now, the sooner this very real peril is recognized, the 
sooner we can begin to deal with it in a more direct and 
deliberate way. These issues are of enormous importance.
    How the United States prepares to deal with the 
consequences of an attack employing deadly viruses and toxins 
would impact countless thousands and possibly millions of 
lives. And planning for such catastrophe is obviously an 
essential government responsibility.
    However, I would much prefer to prevent and defend against 
the threat in the first place rather than to have to deal with 
the chaos and the death and destruction after the fact. And I 
know that is a common feeling among all of us.
    A bioterrorism attack can be prevented, but it requires 
strong export control and nonproliferation regimes. Both are 
essential to ensure that terrorist groups and rogue states 
cannot acquire the technology and the know-how to build and 
deliver these horrible weapons so dangerous to the United 
States.
    For that reason I am disappointed that the Senate is now 
considering the Export Administration Act, legislation designed 
to liberalize our national security export controls. That will 
obviously do great harm to our national security by assisting 
countries like Communist China to modernize their military, 
improve their strategic capabilities, and facilitate the 
dangerous proliferation of ballistic missile and other weapons 
of mass destruction technologies to rogue nations be it Iraq, 
Iran, North Korea or whomever.
    It is important that we never lose sight of the fact that 
the United States and our allies can prevent a bioterrorism 
attack with a robust missile defense system. I may be a voice 
crying in the political wilderness about this, but I firmly 
believe it.
    A missile defense system can provide three benefits. No. 1, 
it can deter rogue nations from building ballistic missiles 
capable of delivering weapons of mass destruction; No. 2, it 
can prevent rogue nations from threatening the United States 
and/or our allies; and, No. 3, it can shoot down these missiles 
if they are ever used against the United States or our allies.
    Iran, Iraq and North Korea are among many others that are 
building long-range missiles. A report this past January by the 
National Intelligence Council indicated that these same nations 
are also actively pursuing biological warfare capabilities.
    Some have already weaponized these deadly pathogens and 
placed them in missile warheads. They are doing all of this to 
threaten and to blackmail and to intimidate the United States 
and our allies by exploiting our greatest vulnerability--which 
is our lack of ballistic missile defense.
    Now, Mr. Chairman and members of the committee and those 
listening elsewhere, we must avoid the false choices that are 
so often presented to policymakers, for example that some of 
these threats are more likely than others and therefore that 
they demand the lion's share of resources. I disagree with 
that.
    When it comes to America's security, we must be prepared to 
deal with all threats. We must not continue to spend nearly $10 
billion a year to combat terrorism and defend against weapons 
of mass destruction while we are spending far less annually on 
a national missile defense.
    To this end I'm convinced that the Bush administration's 
decision to spend more on missile defense is the right decision 
and that Congress should unhesitatingly support this decision. 
The American people I think expect no less and would surely ask 
embarrassing questions in the aftermath of an attack, if the 
people were to discover that their government had had the means 
in the first place to defend them but did not choose to do so.
    I'm grateful to our witnesses for being here today. And I 
look forward to their testimony. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. What we'll do is we'll 
start off. Hopefully we'll be able to have more than one quick 
round but with 7-minute rounds see if we can get through 
everyone first and ask questions. Because everyone is anxious 
to hear what you have to say.
    Senator Nunn, the floor is yours, and welcome back.

   STATEMENT OF HON. SAM NUNN, CO-CHAIR AND CHIEF EXECUTIVE 
       OFFICER, NUCLEAR THREAT INITIATIVE, WASHINGTON, DC

    Senator Nunn. Thank you very much, Mr. Chairman. Senator 
Helms, let me join Senator Biden in thanking you for your 
service to the United States Senate and to our country. It was 
a great pleasure for me to be elected at the same time as you 
and Senator Biden were, and when I look around the committee 
and I see relative newcomers, like Senator Dick Lugar, it 
reminds me of the Class of 1972.
    In a matter of interest, Jim Woolsey, my companion here at 
the table was the General Counsel of the Armed Services 
Committee when I arrived. So really we have four of us here 
that were there at that stage. Of course it's a great pleasure 
for me to be before this committee and come back to an 
institution that I truly love and have spent a great deal of my 
life in.
    So to you and Senator Biden and Senator Lugar and Senator 
Hagel and Senator Boxer, thank you for having us and thank you 
for focusing on this very important subject.
    The Chairman. I don't understand why you didn't thank 
Senator Rockefeller. He's in a different county down there.
    Senator Nunn. I see him. He's down at the end. A man with 
that much wisdom I thought would be closer to the front of the 
table.
    But Senator Helms, I know how hard it is to decide to leave 
voluntarily. I'm sure that you have been through a lot of your 
thinking. But my very best to you and your whole family.
    Senator Helms. Thank you, Senator.
    Senator Nunn. Biological terrorism, Mr. Chairman, is one of 
our greatest national security threats--one that cannot be 
addressed by the Department of Defense standard operating 
procedures. The specter of a biological weapons attack and the 
parallel peacetime threat of a naturally occurring infectious 
disease outbreak--I want to emphasize that these two go 
together.
    The things we need to do to protect against bioterrorism 
are also things we need to do with our public health system, 
even if we never have a bioterrorist attack.
    These are unique challenges and they deserve the time and 
focus you are devoting to them today.
    Mr. Chairman, Senator Helms, members of the committee, as 
you may know this past June at Andrews Air Force Base I was a 
participant in the exercise ``Dark Winter'' which simulated a 
biological weapons attack on the United States. It's a lucky 
thing for the United States that this was just a test and not a 
real emergency.
    Mr. Chairman, members of the committee, our lack of 
preparation is a real emergency from my perspective. I think my 
colleague Jim Woolsey will agree with that.
    ``Dark Winter'' simulated a series of national security 
meetings dealing with a terrorist attack involving the covert 
release of smallpox in three American cities. The exercise was 
conducted by the Center for Strategic and International 
Studies, the Johns Hopkins Center for Civilian Biodefense 
Studies, and the ANSER Institute for Homeland Defense, under 
the leadership of John Hamre, Tara O'Toole and Randy Larsen, 
respectively.
    Many of the participants in ``Dark Winter'' had served 
previous Presidents in cabinet or sub-cabinet positions. And 
most knew how the NSC, the National Security Council, worked. 
They were all individuals with considerable experience and 
perspective in either the security field, law enforcement field 
or the health field or the emergency field.
    I will not take the committee's time with charts. I planned 
to do that at one time but then I started looking at the time 
and I know we want the time to discuss the conclusions. I 
decided to just try to briefly summarize this but the charts 
and CD-ROM are available. And I'll just cover the highlights 
this morning.
    In the opening minutes of ``Dark Winter,'' we learned from 
the Secretary of Health and Human Services that cases of 
smallpox had been diagnosed by the Center for Disease Control. 
Given the infectious nature of the disease, we were facing the 
start of a smallpox epidemic, an event with devastating, if not 
catastrophic potential.
    Like all of you, I received a smallpox vaccination when I 
was a child. But I had forgotten the horror of the disease. In 
the 20th century, more than 300 million people died from 
smallpox; more than those killed in all the wars of the century 
combined, which is an astounding figure.
    Thanks to a massive and highly collaborative international 
health campaign, smallpox as a naturally occurring disease was 
eradicated. But once eradicated, the consequences of an 
outbreak of smallpox today are more dangerous because each 
passing year brings generations of unvaccinated citizens and 
also citizens who have been vaccinated whose vaccinations have 
worn off, which would probably include all of us. So the 
potency of the previous vaccinations have diminished with time.
    Unfortunately, we know that smallpox was made into a weapon 
by the Soviet Union. What we don't know is whether other 
nations or groups either derived some smallpox from the Soviet 
Union or whether they have pursued a similar goal with success. 
And this should be a matter of keen intelligence focused by 
this committee as well as other committees.
    Over a 24-hour period at Andrews Air Force Base, our 
National Security Council ``war gamers'' dealt with 3 weeks of 
simulated shock, stress and horror. I was given the role of 
President of the United States, and I wouldn't describe it in 
this case as being an honor.
    Jim Woolsey was my Director of Central Intelligence. I'm 
sure he was frustrated too. I said to Jim several times that 
what I got from him in that 18-hour period was an awful lot of 
opinion and not one damn bit of intelligence. Nevertheless, he 
did the best he could with the circumstances we had.
    We learned that on December 9, 2002, some dozen patients 
reported to the Oklahoma City Hospital with a strange illness 
confirmed quickly by the CDC to be smallpox. While we only knew 
about the Oklahoma cases the first day, we later learned the 
scope of the initial infections and the sites of three 
simultaneous attacks in shopping centers in Oklahoma, Georgia, 
as well as Pennsylvania.
    The initial infection quickly spread to five states and 
three thousand victims, although most infected individuals had 
not displayed symptoms or gone to the hospital in the first few 
days. And we did not know at that time how many had been 
infected.
    We didn't know how many. We didn't know how, how many there 
were. We didn't know where they were. We didn't know who they 
were. We did know that probably many people had been infected.
    We quickly learned we had only two tools available to deal 
with a smallpox attack: vaccination and isolation. And we had 
only enough vaccine for 1 out of every 23 Americans, which is 
the state today.
    At the very beginning of the National Security Council 
meeting, I denied the Secretary of Defense's adamant demand 
that all 2.3 million U.S. military personnel be immediately 
vaccinated wherever they were in the world.
    Instead, we administered the vaccine to U.S. military, 
including the National Guard and security and medical personnel 
who were on the front lines locally, and who also were in areas 
of the world where a smallpox attack was most likely to occur.
    We could not allow all the vaccine to go to the military 
right off the bat, or at least 2.3 million which would be 
probably one fourth, one third of the total supply, because the 
front line shifted. It wasn't the battlefield. It was back 
home.
    The troops that were engaged were most of all medical 
personnel whether they were local or whether they were military 
or whether they were shipped in on emergency from around the 
country or the world.
    Our initial decision was to use our limited supply of 
vaccine to protect health care workers, local police and fire 
officials, National Guard on the scene and local, state and 
federal officials who were in the line of fire.
    We also devised a strategy to try and put a firewall around 
the infections that were being reported. But that strategy was 
largely ineffective because of the rapid spread of the disease. 
Because we didn't know where it had spread, where they were, 
and because we had a very limited supply of vaccine. If you had 
enough vaccine, you could put fire breaks around every 
suspicious area.
    The Chairman. Senator, would you for the record indicate if 
you can how the disease is spread?
    Senator Nunn. It's spread from person to person.
    The Chairman. Physical contact?
    Senator Nunn. The health experts tell me that you 
basically--through breathing. Doesn't have to be direct 
contact, in close proximity. And the health officials tell me 
that until you actually show some signs, you can't really 
spread the disease. But showing signs, a lot of people confuse 
it with other things so they don't know they have got it to 
begin with.
    The Chairman. Thank you.
    Senator Nunn. On the first night of decisionmaking, Mr. 
Chairman, we designed a vaccination strategy. And we ordered 
accelerated production of new stock. We ordered it on an 
emergency basis.
    We asked the Secretary of State to call his counterparts 
around the globe and try to find supplies in other countries 
and began to feel other countries out about whether they would 
engage with us in trying to stop the disease before it spread 
all over the world.
    I will skip the agonizing details now and get on to the 
conclusions. On day 6 of the crisis, we had very little vaccine 
left. We quickly faced the only alternative, forced isolation, 
with large numbers of exposed citizens whose locations and 
identities remained guesswork. We were down to really tough 
questions.
    Do we force whole communities and cities to stay in their 
homes? How? With force? How much force? Does it include lethal 
force? Do we physically prevent citizens in high risk areas 
from fleeing their communities with their children even though 
they themselves may already be infected?
    Who provides food and care for those in forced isolation, 
particularly when we can no longer provide vaccine to the 
essential providers? Who's going to make the health care people 
show up when you don't have any vaccine for them and for their 
families?
    On day 12 when our war game ended and my brief tenure as 
President concluded, we were beginning the next stage of the 
epidemic, those who caught smallpox from the original 3,000 
people who were infected in the initial terrorist attack. Our 
health experts told us that every 2 to 3 weeks the number of 
cases would increase ten-fold.
    To give you a glimpse of how the exercise ended, here are a 
few highlights from a simulated CNN broadcast quoting that.

          On day 12 of the worst public health crisis in 
        America's history, demonstrations for more vaccine in 
        hard-hit communities disintegrated into riots and 
        looting around the nation. Interstate commerce has 
        stopped in several regions of the nation. A suspension 
        of trading on America's stock exchanges takes effect 
        tomorrow. International commerce with the United States 
        has virtually ceased. The Centers for Disease Control 
        reports that efforts to stem the smallpox epidemic have 
        depleted America's inventory of smallpox vaccine. While 
        the CDC may be out of vaccine, at least 45 Internet Web 
        sites are offering what they claim are safe, effective 
        vaccines from previously forgotten stocks. These claims 
        have not, repeat not, been independently verified, and 
        authorities urge serious caution.
          At least 25 more states and 10 foreign countries are 
        reporting smallpox infections. At the United Nations, 
        China has sponsored a resolution to censure the United 
        States, blaming America for reintroducing smallpox to 
        the world. It is demanding that the United States 
        supply the world with vaccine.

    I could go on and on, Mr. Chairman, but that I think 
captures the essence of what we were faced with. In summary, I 
determined from that experience that public health has become a 
national security issue and that we are unprepared.
    We were out of vaccine. We were discussing martial law. 
Interstate commerce was eroding rapidly. The members of our 
simulated NSC, as well as state and local officials, were 
desperate.
    We came to realize too late that our country had not 
produced sufficient vaccine; had not prepared top officials to 
cope with this new type of security crisis; had not invested 
adequately in the planning and exercises absolutely necessary 
for coordinated response; had not ensured that the public 
health infrastructure was adequate, with built-in surge 
capacity; had not educated the American people on developed 
strategies to constructively engage the media in educating the 
public about what was happening and what they could do to 
protect their families; had not practiced what few plans there 
were in place; had not ranked biological terrorism or 
infectious diseases as high national priorities.
    Before I detail the lessons learned in this particular 
exercise, we should keep in mind that the results of biological 
effect would vary greatly according to the specific agent used. 
Technology and training for early recognition of the type of 
pathogen, that kind of training and technology is absolutely 
essential and must be a high priority.
    This exercise gave us valuable lessons about a possible 
smallpox attack. The circumstances would be very different in 
the case of an anthrax attack. In the event of an attack using 
anthrax, vaccination and isolation would not be the tools, but 
antibiotics would need to be administered on the scene and in 
large quantities immediately.
    For the participants, the ``Dark Winter'' exercise 
instilled in all of us that there is much work to be done and 
needs to be done quickly.
    Number 1, clearly measures that will deter or prevent 
bioterrorism are the most cost-effective means to counter 
threats to public health and social order. We need to prevent 
the proliferation of biological weapons in part by 
strengthening intelligence-gathering against such threats, but 
also by providing peaceful research options to scientists in 
the former Soviet Union who know how to make these pathogens 
and who have had plenty of experience making these pathogens 
but don't know how they are going to feed their children today 
with legitimate enterprises.
    Two, we need to focus more attention, concern and resources 
on the specific threat of bioterrorism, understanding that it 
is different from the other threats we face. Biological weapons 
must be countered with new protocols for securing dangerous 
pathogens with increased vigilance and surveillance, as well as 
with increased supplies of medicines and vaccines and 
significantly increased training.
    Three, we need to recognize the central role of public 
health and medicine in this effort and engage those 
professionals fully as partners on the national security team. 
We must act on the understanding that public health is an 
important pillar in our national security framework.
    Four, we need to identify and put into practice the 
mechanisms by which all levels of government will interact and 
work together. It is critical that we understand our differing 
roles, responsibilities, capabilities and authorities, and plan 
on how we will work together before an act of terrorism occurs. 
I must add that Governor Frank Keating of Oklahoma was part of 
this exercise. I think he will strongly echo that from a state 
government and a local government point of view. He made a very 
valuable contribution.
    Five, we need to reexamine and modernize the legal 
framework for epidemic control measures and the appropriate 
balance with civil liberties. Mr. Chairman, your reminder on 
posse comitatus is right down that line because there would be 
all sorts of questions this society has not faced, at least in 
modern times.
    Six, there should be a clear plan for providing the news 
media with timely and accurate information to help save lives 
and prevent panic.
    Seven, we need to increase the core capabilities of our 
public health system to detect, track and contain epidemics by 
providing resources for effective surveillance systems, 
diagnostic laboratory facilities, and communication links to 
other elements of the response effort here and abroad.
    Eight, the national pharmaceutical stockpile must be built 
to capacity, including extra production capability for drugs 
and vaccines, with heightened security at various dispersal 
sites. We must not fall victim to a twin attack that releases a 
bioagent and simultaneously destroys our key drugs and vaccine 
supplies.
    Nine, we need to develop plans for a surge of patients in 
the nation's hospitals to make the best use of existing 
resources in the event of an emergency.
    Ten, we need to increase funding for biomedical research to 
develop new vaccines, new therapeutic drugs and new rapid 
diagnostic tests for bioweapon agents.
    Eleven, we need to encourage the scientific community to 
confront the sinister potential of modern biological research, 
and help them devise systems and practices that ensure the 
safe, secure storage of and access to dangerous pathogens.
    Twelve, officials at highest levels of the Federal, state, 
and local government need to participate in exercises like this 
one to understand the importance of advanced not only planning 
but preparation. Plans must be exercised, evaluated and 
understood by decisionmakers if they are to prove useful in a 
time of crisis.
    Mr. Chairman, finally, I have a new role now that relates 
to what we call the Nuclear Threat Initiative (NTI). It's a new 
foundation funded by Ted Turner very generously and headed by a 
board of experienced people including Senator Lugar among 
others.
    We are trying to encourage and help our government to 
deter, prevent and defend against biological terrorism. That's 
a central part of our mission as well as the nuclear side of it 
and the chemical side of it.
    We are dedicated to reducing the global threat from 
biological, nuclear, and chemical weapons by increasing public 
awareness, encouraging dialogue, catalyzing action, promoting 
new thinking about these dangers in this country and around the 
globe.
    We fully recognize that only our government can provide the 
leadership and resources to achieve our security and health 
priorities. But within that context, NTI is seeking ways to 
reduce the threat from biological weapons and their 
consequences; exploring ways to increase education, awareness 
and communication among public health experts, medical 
professions, and scientists, as well as among policymakers and 
elected officials.
    We are considering ways to improve infectious disease 
surveillance around the globe, including rapid and effective 
detection, investigation, and response.
    This is a fundamental defense against any infectious 
disease threat, whether it occurs naturally or is released 
deliberately, stimulating and supporting the scientific 
community in its efforts to limit inappropriate access to 
dangerous pathogens and to establish standards that will help 
prevent the development and spread of biological agents as 
weapons.
    NTI is searching for ways to help our Government and the 
Russian Government to facilitate the conversion of Russian 
bioweapons facilities and know-how to peaceful purposes, and to 
improve security of dangerous pathogens worldwide. And I know 
that my colleague and partner Senator Lugar can well identify 
with that because he has been right out in front in that 
effort.
    Finally, Mr. Chairman, in concluding, enemies don't 
normally attack us where we are strong; they target us where we 
are weak. Enemies of the United States are not eager to engage 
us militarily. They saw what happened in Desert Storm and other 
conflicts in recent years, and they know the awesome 
capabilities we have.
    They will, however, attack us where they believe we are 
vulnerable. Today, we are vulnerable to biological terrorism. 
Those who perpetuate such an act are not likely to be quickly 
identified or leave a return address. I emphasize that. That 
makes a huge difference in terms of the incentives of the game.
    It is critical that we prepare with all possible speed; 
because if an attack occurs and succeeds, there will be others. 
Preparing is deterring. Our first priority, as Senator Helms 
mentioned, must be prevention.
    Whether the enemy achieves its objectives in an attack that 
may take place depends to a large extent on how the American 
people respond. Panic in our citizens would be just as great a 
danger as the disease itself.
    Some citizens will respond like saints, doing whatever they 
can to meet the needs of their family as well as consider the 
community. Others will respond with panic, perhaps even using 
violence to obtain vaccines and drugs or try to protect 
themselves or their loved ones at the expense of others.
    How most of our citizens will respond will depend largely 
on what they hear from the President and their elected leaders, 
and how they see our Government respond. This means we must be 
prepared.
    Thank you.
    [The prepared statement of Senator Nunn follows:]

                  Prepared Statement of Hon. Sam Nunn

    Chairman Biden and members of the committee, it is a privilege and 
honor for me to come back to the United States Senate where I spent so 
much of my life. I thank you for dedicating the first of these hearings 
to the threats of bioterrorism and the spread of infectious diseases. 
Biological terrorism is one of our greatest national security threats, 
and one that cannot be addressed by Department of Defense standard 
operating procedures. The specter of a biological weapons attack--and 
the parallel peacetime threat of a naturally occurring infectious 
disease outbreak--are unique, and they deserve the time and focus you 
are devoting to them today.
    Mr. Chairman and members of the committee, as you may know, this 
past June at Andrews Air Force Base, I was a participant in the 
exercise Dark Winter--which simulated a biological weapons attack on 
the United States. It's a lucky thing for the United States that this 
was just a test and not a real emergency. But, Mr. Chairman and members 
of the committee, our lack of preparation is a real emergency.
    During my 24 years on the Senate Armed Services Committee, I saw 
scenarios and satellite photos and Pentagon plans for most any category 
of threat you can imagine. But a biological weapons attack on the 
United States fits no existing category of security threats. 
Psychologist Abraham Maslow once wrote: ``When all you have is a 
hammer, everything starts to look like a nail.'' This is not a nail; 
it's different from other security threats; and to fight it, we need a 
different set of tools than the ones we've been using.
    Our exercise involved an intentional release of smallpox. Experts 
today believe that a single case of smallpox anywhere in the world 
would constitute a global medical emergency. As Members of this 
committee know, a wave of smallpox was touched off in Yugoslavia in 
1972 by a single infected individual. The epidemic was stopped in its 
fourth wave by quarantines, aggressive police and military measures, 
and 18 million emergency vaccinations to protect a population of 21 
million that was already highly vaccinated.
    Mr. Chairman, we have effectively only 12 million doses of vaccine 
in America to protect a highly vulnerable population of 275 million 
that is essentially not vaccinated. The Yugoslavia crisis mushroomed 
from one case; our Dark Winter exercise began with 20 confirmed cases 
in Oklahoma City, 30 suspected cases spread out in Oklahoma, Georgia, 
and Pennsylvania, and countless more cases of individuals who were 
infected but didn't know it. We did not know the time, place or size of 
the release, so we had no way of judging the magnitude of the crisis. 
All we knew was that we had a big problem and a small range of 
responses. One certainty was that it would get worse before it would 
get better. Our medical experts told us that we had only two strategies 
for effective smallpox containment: (1) isolating those who are sick, 
and (2) vaccinating those who have been exposed. Isolation is difficult 
when you're not sure who has it; vaccination cannot stop the spread if 
you don't have enough of it.
                          dark winter overview
    Dark Winter simulated a series of National Security Council (NSC) 
meetings dealing with a terrorist attack involving the covert release 
of smallpox in three American cities. The exercise was conducted by the 
Center for Strategic and International Studies, the Johns Hopkins 
Center for Civilian Biodefense Studies, and the ANSER Institute for 
Homeland Defense, under the leadership of John Hamre, Tara O'Toole and 
Randy Larsen, respectively. Many of the participants in Dark Winter had 
served previous Presidents in cabinet or sub-cabinet positions. Most 
knew how the NSC worked, and they were all individuals with 
considerable expertise and perspective in the security, law enforcement 
and health fields.
    I will not take the committee's time with a complete replay of the 
events, but will share with you the highlights.
    In the opening minutes of Dark Winter, we learned from the 
Secretary of Health and Human Services that cases of smallpox had just 
been diagnosed by the Centers for Disease Control. Given the infectious 
nature of the disease, we were facing the start of a smallpox 
epidemic--an event with devastating, if not catastrophic, potential.
    Like all of you, I received a smallpox vaccination when I was a 
child, but I had forgotten the honor of the disease. In the 20th 
century, more than 300 million people died from smallpox--more than 
those killed in all wars of the century combined. Thanks to a massive 
and highly collaborative international campaign, smallpox as a 
naturally occurring disease was eradicated. But once eradicated, the 
consequences of a smallpox outbreak has become more dangerous with each 
passing year as new generations of unvaccinated citizens are born and 
the potency of the previous vaccinations diminishes with time. 
Unfortunately, we know that smallpox was made into a weapon by the 
Soviet Union; we do not know if any other nations or groups have 
successfully pursued a similar goal, and this should be a matter of 
keen intelligence forces.
    Over a 24-hour period at Andrews Air Force Base, our NSC ``war 
gamers'' dealt with three weeks of simulated shock, stress and horror. 
I was given the role of President of the United States, and Jim Woolsey 
was the Director of the Central Intelligence Agency.
    We learned that on December 9, 2002, some dozen patients reported 
to the Oklahoma City Hospital with a strange illness confirmed quickly 
by the CDC to be smallpox. While we only knew about the Oklahoma cases 
the first day, we later learned the scope of the initial infections and 
the sites of three simultaneous attacks in shopping centers in 
Oklahoma, Georgia and Pennsylvania. The initial infection quickly 
spread to five states and 3,000 victims although most infected 
individuals had not displayed symptoms or gone to the hospital in the 
first few days so we did not know who they were or where they were.
    We quickly learned that we had only two tools available to deal 
with a smallpox attack--vaccination and isolation, and we had only 
enough vaccine for one out of every 23 Americans.
    I denied the Secretary of Defense's demand that all 2.3 million of 
U.S. military personnel be immediately vaccinated wherever they were in 
the world. Instead, we administered vaccine to U.S. military, including 
the National Guard, and security and medical service personnel who were 
on the front lines locally and also those who were in areas of the 
world where a smallpox attack was more likely to occur. Our initial 
decision was to use our limited vaccine supply to protect health care 
workers, local police and fire officials, National Guard on the scene 
and local, state and federal officials in the line of fire. We also 
devised a strategy to try and put a firewall around the infections that 
were being reported, but that strategy was largely ineffective because 
of the rapid spread of the disease and our limited supply of vaccine.
    So, on the first night of decision-making, we designed a 
vaccination strategy, and we ordered accelerated production of new 
stock. We asked the Secretary of State to try to find surplus stock 
from other countries. I will skip the agonizing details and get to the 
conclusions.
    On Day Six of the crisis, we had very little vaccine left. We 
quickly faced the only alternative--forced isolation with large numbers 
of exposed citizens whose locations and identities remained guesswork. 
We were down to the really tough questions. Do we force whole 
communities and cities to stay in their homes? How? With force? Do we 
physically prevent citizens in high-risk areas from fleeing their 
communities when they themselves may already be infected? Who provides 
food and care for those in forced isolation, particularly when we can 
no longer provide vaccine to essential providers?
    On Day Twelve, when our war game ended and my brief tenure as 
President concluded, we were beginning the next stage of the epidemic--
those who caught smallpox from the original 3,000 people who were 
infected in the initial terrorist attack. Our health experts told us 
that every two to three weeks the number of cases would increase ten-
fold. To give you a glimpse of how the exercise ended, here are a few 
highlights from a simulated CNN broadcast:

          On Day Twelve of the worst public health crisis in America's 
        history, demonstrations for more vaccine in hard-hit 
        communities disintegrated into riots and looting around the 
        nation. Interstate commerce has stopped in several regions of 
        the nation. A suspension of trading on America's stock 
        exchanges takes effect tomorrow. International commerce with 
        the U.S. has virtually ceased.
          The Centers for Disease Control reports that efforts to stem 
        the smallpox epidemic have depleted America's inventory of 
        smallpox vaccine. While the CDC may be out of vaccine, at least 
        45 Internet websites are offering what they claim are safe, 
        effective vaccines from previously forgotten stocks. These 
        claims have not--repeat not--been independently verified, and 
        authorities urge caution.
          At least 25 more states and 10 foreign countries are 
        reporting smallpox infections. At the United Nations, China has 
        sponsored a resolution to censure the U.S., blaming America for 
        reintroducing smallpox to the world. It is demanding that the 
        U.S. supply the world with vaccine.

    In summary, Mr. Chairman, I determined from our war game that 
public health has become a national security issue, but that we are 
unprepared. We were out of vaccine. We were discussing martial law. 
Interstate commerce was eroding rapidly. The members of our simulated 
NSC, as well as state and local officials, were desperate. We came to 
realize too late that our country:

  <bullet> Had not produced sufficient vaccine.
  <bullet> Had not prepared top officials to cope with this new type of 
        security crisis.
  <bullet> Had not invested adequately in the planning and exercises 
        absolutely necessary for coordinated response.
  <bullet> Had not ensured that the public health infrastructure was 
        adequate, with built in surge capacity.
  <bullet> Had not educated the American people, or developed 
        strategies to constructively engage the media in educating the 
        public, about what was happening and what to do.
  <bullet> Had not practiced what few plans there were in place.
  <bullet> Had not ranked biological terrorism or infectious diseases 
        as high national priorities.
                         dilemmas and insights
    Most participants in our exercise would have been much more in 
their element if we had been dealing with a terrorist bombing. The 
effects of a bomb are bounded in time and place. After the explosion, 
the nation's leadership knows the geography and the extent of the 
damage. You know where to start, and how much it will take to respond 
and rebuild. Smallpox, on the other hand, is a silent, ongoing, 
invisible attack. It is highly contagious, and spreads in a flash--each 
smallpox victim can infect ten to twenty others. It incubates for two 
weeks before physically appearing--it comes in waves.
    The most insidious effect of a biological weapons attack is that it 
can turn Americans against Americans. Once smallpox is released, it is 
not the terrorists anymore who are the threat; our neighbors and family 
members can become the threat. If they've been exposed, they can kill 
you by talking to you. The scene could match the horror of the Biblical 
description in Zechariah (8:10): ``Neither was there any peace to him 
that went out or came in . . . for I set all men every one against his 
neighbour.''
    A biological weapons attack cuts across categories and mocks old 
strategies. For more than two thousand years the most important rule of 
war has been to know your enemy.
    In military language, this means that when you face a battlefield 
scenario, you draw up an order of battle--you estimate the number of 
enemy tanks and planes and troops, their intelligence and logistics 
capabilities, and other resources. A biological weapon, however, is an 
invisible killer. An attack may go unrecognized for days, only becoming 
evident after large numbers of people become sick. In the case of a 
contagious disease, our own people would become the enemy's weapons as 
they transmit the disease to others, creating ever-widening circles of 
exposure.
    Even after you know there has been an attack, there still are few 
reliable numbers--because you don't know who initially released it, how 
much more they have, or where they are. And the usual responses to an 
attack are impossible: ``Engage the enemy; open fire; stop their 
advance; bring out the wounded.'' You can hardly know who is wounded.
    For the participants, this exercise was filled with many such 
horrible dilemmas and unpleasant insights.
    Number one: We have a fragmented and under-funded public health 
system--at the local, state, and federal levels--that does not allow us 
to effectively detect and track disease outbreaks in real time.
    Two: Lab facilities needed to diagnose the disease are inadequately 
supported and laboring with outdated technology.
    Three: There is insufficient partnership and communication across 
federal agencies and among local, state, and federal governments.
    Four: The only way to deal with smallpox is with isolation and 
vaccination, but we don't have enough vaccines, and we don't have 
enough dedicated facilities, resources, or information for effective 
isolation.
    Five: A biological weapons attack will be a local event with 
national implications, and that guarantees tension between local, state 
and national interests. In our exercise, Governor Keating of Oklahoma 
asked for vaccine for every one of his citizens--as he had to in the 
interests of his state. The President said no, as he had to in the 
interests of the nation. Naturally, this demands a high degree of 
advanced planning and coordination, because of the diverging interests, 
and because key players and partners are answerable to different 
leaders.
    Six: Most hospitals run at or near full capacity all the time: a 
surge in patients from smallpox, combined with the inevitable 
infections of hospital personnel, and the flight of some fearful health 
care professionals, would create a catastrophic overload.
    Seven: There will be a dearth of information on this kind of event. 
My staff and cabinet could not tell me ten percent of what I wanted to 
know: ``How many cases are there right now? How many more cases can we 
expect? Will there be more attacks? When and where did the first 
infections take place? Who released it? What's the worst-case scenario? 
Is our vaccine supply secure and safe for use? Will other countries 
loan us emergency vaccine to keep the disease from spreading all over 
the world?
    There are many tradeoffs. One of the biggest: We have 12 million 
vaccines; that's enough for one out of every 23 Americans. How do we 
decide whom to vaccinate?
    Do we take power from the Governors and federalize the National 
Guard? Do we seize hotels and convert them into hospitals? Do we close 
borders and block all travel? What level of force do we use to keep 
someone sick with smallpox in isolation? Do we keep people known or 
thought to be exposed quarantined in their homes? Do we guarantee 2.3 
million doses of vaccine to the military; or do we first cover all 
health care providers? Do we take strong measures that protect health, 
but could undermine public support or destroy the economy?
    Finally: How do you talk to the public in a way that is candid, yet 
prevents panic--knowing that panic itself can be a weapon of mass 
destruction? My staff had two responses: ``We don't know'' and ``You're 
late for your press conference.''
    I told people in the exercise: ``I would never go before the press 
with this little information,'' and Governor Keating--who knows about 
dealing with disaster, said: ``You have no choice.'' And I went, even 
though I did not have answers for the public's most urgent questions: 
``How do you plan to protect our families?'' ``How rapidly and how far 
will it spread?'' And ``Why isn't there enough vaccine?''
    Naturally, there are some skeptics anytime you describe a dire 
threat to the United States. I want to tell the committee: I am 
convinced the threat of a biological weapons attack on the United 
States is as urgent as it is real. As Secretary Rumsfeld said in his 
confirmation hearings: ``I would rank bioterrorism quite high in terms 
of threats . . . It does not take a genius to create agents that are 
enormously powerful, and they can be done in mobile facilities, in 
small facilities.'' An experiment some years ago showed that a 
scientist whose specialty was in another field was able to weaponize 
anthrax on his first attempt for less than $250,000.
    Hundreds of labs and repositories around the world sell biological 
agents for legitimate research--and the same substances used in 
legitimate research can be turned into weapons research. In addition, 
the massive biological weapons program of the former Soviet Union 
remains a threat, at least to the extent that materials and know-how 
could flow to hostile forces. At its peak, the program employed 70,000 
scientists and technicians and made twenty tons of smallpox. One 
Russian official was quoted some years ago in The New Yorker saying: 
``There were plenty of opportunities for staff members to walk away 
with an ampule.'' There still are.
    According to a very prominent press report, former Soviet 
biological weapons scientists have been aggressively--and in some eases 
successfully--recruited by Iran. And Ambassador Rolf Ekeus, who headed 
the United Nations special commission that investigated Iraq's arsenal 
after the Gulf War, and who we are lucky to have on the Board of 
Directors of NTI, had testified before Congress that in 1991 Iraq had 
300 biological bombs.
    So the ability of people to acquire or create biological weapons 
should be clear beyond any doubt. And no one should doubt how lethal 
biological weapons could be. In 1979, a small amount of anthrax escaped 
from a Soviet biological weapons lab in Sverdlovsk. Seventy-seven cases 
of human anthrax occurred in the city surrounding the lab. Sixty-six 
died, and new cases were appearing as late as 47 days after the leak. 
All this resulted from only a tiny amount of anthrax being released--on 
the order of ounces. It doesn't take much imagination to envision the 
catastrophe that would result if someone deliberately released a much 
larger quantity.
    It is important not to overstate this threat. But it is not an 
overstatement to say it is real, it is dangerous, and if it occurred 
today, it would catch us unprepared.
    Michael Osterholm and John Schwartz, in their book Living Terrors, 
told about the experience of one doctor who knew his state was one of 
the best-trained areas of the country for a biological weapons attack. 
One day he conducted some unscientific research. He discovered that the 
total city stockpile for dealing with an anthrax attack would not cover 
even 600 patients. He found that a doctor trained in biological weapons 
failed to diagnose anthrax when the classic symptoms were described; a 
doctor in the radiology department failed to recognize inhalation 
anthrax when shown an X-ray; and a voice mail message describing a 
bioterrorism concern went unreturned by the state health department for 
three days.
                               next steps
    In fairness, we are making progress. The Clinton administration 
deserves credit for recognizing that a biological weapons attack is 
different from warfare or other terrorist threats and for targeting 
funds to address it. That initiative includes strengthening the public 
health infrastructure, creating a pharmaceutical stockpile for civilian 
use, a contract to develop and produce a new smallpox vaccine, research 
to develop new and improved diagnostics, drugs and vaccines, programs 
to train first responders (police and fire departments as well as 
public health and medical professionals) across the United States, and 
investments in new technologies to help detect biological agents.
    Under the Bush administration, these efforts are continuing and in 
some eases, funding is increasing. It is also heartening that Secretary 
Thompson has named a senior advisor on bioterrorism who previously 
directed the program on bioterrorism at the Centers for Disease Control 
and Prevention. These are positive steps. Still, we have to do more--
and quickly.
    Before detailing the issues that I believe deserve the greatest 
attention, we should keep in mind that the results of biological 
attacks would vary according to the specific agent used. Technology and 
training for early recognition of the type of pathogen are essential. 
This exercise gave us valuable lessons about a possible smallpox 
attack. The circumstances would be very different in the case of an 
anthrax attack, for example. In the event of an attack using anthrax, 
vaccination and isolation would be irrelevant, but antibiotics would 
need to be administered on the scene immediately.
    For the participants, the Dark Winter exercise instilled in all of 
us that there is much work to be done:
    Number one: Clearly, measures that will deter or prevent 
bioterrorism are the most cost effective means to counter threats to 
public health and social order. We need to prevent the proliferation of 
biological weapons, in part by strengthening intelligence gathering 
against such threats, but also by providing peaceful research options 
to scientists in the former Soviet Union. Efforts to fight 
proliferation require a global approach, including finding a way to 
strengthen and enforce the Biological Weapons Convention.
    Two: We need to focus more attention, concern and resources on the 
specific threat of bioterrorism--understanding that it is different 
from other threats we face. Biological weapons must be countered with 
new protocols for securing dangerous pathogens, with increased 
vigilance and surveillance, as well as with increased supplies of 
medicines and vaccines and significantly increased training.
    Three: We need to recognize the central role of public health and 
medicine in this effort and engage these professionals fully as 
partners on the national security team. We must act on the 
understanding that public health is an important pillar in our national 
security framework. In the event of a biological weapons attack--
millions of lives will depend on how quickly doctors diagnose the 
illness, communicate their findings, and bring forth a fast and 
effective response at the local and federal level. This means, clearly, 
that public health and medical professionals must be part of the 
national security team. Planning for an event like this is not the 
exclusive purview of the Department of Defense, the National Security 
Council, the CIA and the Department of Energy. The Department of Health 
and Human Services (CDC, FDA, NIH, etc.) must also be included.
    This may seem obvious enough. But several years ago, when 
administration officials were meeting to discuss supplemental funding 
legislation for defense against biological weapons--the presiding 
official from the Office of Management and Budget greeted the officials 
from the NSC, and FBI and CIA and DOD, then saw the Assistant Secretary 
from Health and Human Services at the table, did a double-take and 
said: ``What are you doing here?'' Health officials should not need to 
be given directions to the White House Situation Room in an emergency.
    Four: We need to identify and put into practice the mechanisms by 
which all levels of government will interact and work together. It is 
critical that we understand our differing roles, responsibilities, 
capabilities, and authorities, and plan on how we will work together 
before an act of terrorism occurs.
    Five: We need to reexamine and modernize the legal framework for 
epidemic control measures and the appropriate balance with civil 
liberties--the laws that would apply if we were to find ourselves 
managing the crisis that would come with a biological weapons attack. 
These laws vary from state to state and many are antiquated. We need to 
make sure that they are up-to-date, consistent with our current social 
values and priorities, and we need to reacquaint high-level officials 
in all areas of response with the specific authorities these laws 
provide, and how they can implement them.
    Six: There should be a clear plan for providing the news media with 
timely and accurate information to help save lives and prevent panic.
    Seven: We need to increase the core capacities of our public health 
system to detect, track and contain epidemics, by providing resources 
for effective surveillance systems, diagnostic laboratory facilities, 
and communication links to other elements of the response effort.
    Eight: The national pharmaceutical stockpile should be built to 
capacity, including extra production capability for drugs and vaccines, 
with heightened security at the various dispersal sites. We must not 
fall victim to a twin attack that releases a bio-agent and 
simultaneously destroys our drugs and vaccines.
    Nine: We need to develop plans for a surge of patients in the 
nation's hospitals to make the best use of existing resources in the 
event of an emergency. This will require careful advance planning, 
including how to utilize ancillary facilities such as gymnasiums or 
armories, since most hospitals are operating at or near capacity right 
now.
    Ten: We need to increase funding for biomedical research to develop 
new vaccines, new therapeutic drugs, and new rapid diagnostic tests for 
bioweapon agents.
    Eleven: We need to encourage the scientific community to confront 
the sinister potential of modern biological research, and help them 
devise systems and practices that ensure the safe, secure storage of, 
and access to, dangerous pathogens.
    Twelve: Officials at the highest levels of the federal, state, and 
local government need to participate in exercises like Dark Winter to 
understand the importance of advance preparation. Plans must be 
exercised, evaluated, and understood by decision-makers if they are to 
prove useful in a time of crisis.
    I know how difficult it is to find funding for new initiatives, and 
public health is often left behind. We need to think about supporting 
public health activities in the same way we think about our national 
defense. Congress and the public should understand that expanding 
disease surveillance, creating additional lab capacity and enhancing 
vaccine production capabilities will benefit the United States not only 
in responding to a biological weapons attack, but also by improving our 
responses to natural disease outbreaks. We have a chance to defend the 
nation against its adversaries and improve the public health system 
with the same steps.
            the nuclear threat initiative--a new foundation
    Mr. Chairman and members of the Committee, encouraging and helping 
our government to deter, prevent, and defend against biological 
terrorism is a central part of our mission at the Nuclear Threat 
Initiative (NTI)--the organization founded by Ted Turner and guided by 
an experienced board that Ted and I co-chair. We are dedicated to 
reducing the global threat from biological, nuclear, and chemical 
weapons by increasing public awareness, encouraging dialogue, 
catalyzing action, and promoting new thinking about these dangers in 
this country and abroad.
    We fully recognize that only our government can provide the 
leadership and resources to achieve our security and health priorities. 
But within that context, NTI is:

  <bullet> Seeking ways to reduce the threat from biological weapons 
        and their consequences.
  <bullet> Exploring ways to increase education, awareness and 
        communication among public health experts, medical 
        professionals, and scientists, as well as among policy makers 
        and elected officials--to make sure more and more people 
        understand the nature and scope of the biological weapons 
        threat.
  <bullet> Considering ways to improve infectious disease surveillance 
        around the globe--including rapid and effective detection, 
        investigation, and response. This is a fundamental defense 
        against any infectious disease threat, whether it occurs 
        naturally or is released deliberately.
  <bullet> Stimulating and supporting the scientific community in its 
        efforts to limit inappropriate access to dangerous pathogens 
        and to establish standards that will help prevent the 
        development and spread of biological agents as weapons.
  <bullet> And finally, NTI is searching for ways to help our 
        government and the Russian government to facilitate the 
        conversion of Russian bioweapons facilities and know-how to 
        peaceful purposes, to secure biomaterials for legitimate use or 
        destruction, and to improve security of dangerous pathogens 
        worldwide.
                           concluding remarks
    Mr. Chairman, enemies don't normally attack us where we are strong; 
they target us where we are weak. Enemies of the United States are not 
eager to engage us militarily; they saw what happened in Desert Storm. 
They will attack us where they believe we are vulnerable. Today, we are 
vulnerable to biological terrorism and those who perpetuate such an act 
are not likely to be quickly identified or leave a return address. It 
is critical that we prepare with all possible speed, because if an 
attack occurs, and succeeds, there will be others. Preparing is 
deterring.
    Our first priority must be prevention. Whether the enemy achieves 
its objectives in an attack depends, to a large extent, on how the 
American people respond. Panic is as great a danger as disease. Some 
will respond like saints--doing whatever they can, exhibiting brave and 
selfless patriotism--to meet the needs of family and community. Others 
will respond with panic, perhaps even using violence to obtain vaccines 
or drugs, or try to protect themselves or their loved ones from 
exposure. The distance between these two is broad. How most of our 
citizens will respond will depend largely on what they hear from the 
President and their elected leaders, and how they see our government 
respond. This means we must be prepared.
    When America faced possible financial panic in March of 1933, 
President Roosevelt did three things immediately upon taking office: he 
ordered the banks to close temporarily, he proposed emergency banking 
legislation, and he explained his plan to the public in the first of 
his regular national radio broadcasts.
    If he had not talked reassuringly to the American people, his plan 
might not have worked. But if he had talked, and had no plan, his talk 
would not have been reassuring. In the event of a biological weapons 
attack, no President, no matter how great his natural gifts, will be 
able to reassure the public and prevent panic unless we are better 
prepared than we are right now.
    If we are well prepared--with the ability to detect the disease 
quickly, report it swiftly, and implement the appropriate infection 
control measures, including the provision of necessary drugs or 
vaccines for all those who came in contact with it--then the President 
of the United States will address the American people with knowledge, 
with courage, and with confidence, and the people will respond in kind. 
Whether this or a future President will exert this essential leadership 
will depend in large part on how we all address this issue now.
    I commend the Committee for tackling such a difficult but important 
matter. Our country's protection and safety depend on your leadership. 
Thank you.

    The Chairman. Thank you very much, Senator.
    Mr. Woolsey.

STATEMENT OF HON. R. JAMES WOOLSEY, FORMER DIRECTOR OF CENTRAL 
   INTELLIGENCE, AND PARTNER, SHEA & GARDNER, WASHINGTON, DC

    Mr. Woolsey. Thank you, Mr. Chairman. I have a three-and-a-
half-page statement with some attachments. If it's all right, I 
will just submit it for the record.
    The Chairman. Without objection. That will be placed in the 
record.
    Mr. Woolsey. I will just use it as notes to give a briefer 
summary. I will not attempt to duplicate Senator Nunn's 
testimony regarding our ``Dark Winter'' exercise. I have three 
broad points to make with respect to trying to avoid a disaster 
of the sort that we faced in this game.
    First, 5 years ago the CIA and the Energy Department via 
Lawrence Livermore Laboratory asked me to co-chair a review of 
the country's capacity to deal with terrorism using weapons of 
mass destruction.
    Most of that review is classified, but Joe Nye, my co-
chairman, and I did write an op-ed, which I've attached, in 
which we stress that we believe that it is the case that 
terrorism using weapons of mass destruction--and we thought at 
the time and I think still biological is the most difficult of 
these--ought to be the very highest priority in U.S. National 
Security Policy.
    Biological weapons in terms of number of people killed 
could match a nuclear attack. And in terms of simplicity, 
unfortunately, it is far simpler to work with biological agents 
than even chemicals in many cases, particularly as far as scope 
and volume of equipment is concerned.
    Often you don't need to smuggle anything. Anthrax grows in 
many cow pastures of the world, and much of the equipment that 
one would need to weaponize it is transportable. Some of it is 
little more complex than that for, say, a microbrewery attached 
to a restaurant, which in fact the equipment rather resembles 
in some ways.
    Happily, there are some very difficult parts of this 
process which led Aum Shinrikyo to forsake biological weapons 
and move to chemical weapons for their attack in Tokyo. But 
there are good reasons to believe that one of the reasons, for 
example, Iraq has been able to hide almost all of its 
biological weapons, even when UNSCOM was in the country 
operating somewhat effectively, was because it was moving both 
biological agents and the equipment around, perhaps with the 
Special Republican Guard that protects Saddam. This should give 
you some idea of the mobility and size of this type of 
equipment.
    Second, I served on a National Terrorism Commission chaired 
by Ambassador Jerry Bremmer that reported to the Congress of 
last summer. And we said in that report that although 
consequence management is of course vitally important, and 
that's much of what we dealt with in ``Dark Winter,'' 
intelligence really is not only the first line of defense but 
the best weapon against many aspects of terrorism. Because the 
consequences are so horrible trying to contain them once an 
attack has occurred, as we showed in ``Dark Winter,'' is 
extraordinarily difficult.
    Now, one reason for example is that vaccines and 
antibiotics may be made ineffective by genetic modification of 
the biological agents. We know that the Russians were involved 
in doing this with anthrax. We learned about it in 1997. And 
for 4 years we have been asking the Russian Government for 
samples of their genetically modified anthrax. So far we have 
not received any. This may have spawned some of the work late 
in the Clinton administration that has been reported in the 
press recently to try to figure out how to deal with a 
genetically modified biological agent used in a terrorist 
attack.
    Back in the cold war, we could keep pretty good track of 
some of the major threats to our country, Soviet ICBMs and the 
like, submarines, with satellite reconnaissance. That tends not 
to be the case with something like biological agents, whether 
used by governments or by terrorists or by some combination.
    As Senator Nunn pointed out, biological agents lend 
themselves to deception. I would say if a terrorist attack 
using biological agents against the United States occurred and 
it seemed at first as if the Government of Iran or Shiite 
groups might be behind it, we should look very closely at Iraq 
because it might be a false flag operation.
    And conversely, if it seemed initially as if it might have 
come from Iraq, we should perhaps look to Iran.
    With respect to difficulties and problems with collecting 
intelligence, I want to highlight two that we stressed in our 
terrorism Commission report last summer.
    First of all, the CIA has in effect certain guidelines 
issued in late 1995, I hasten to say after I stepped down from 
the job in the Agency, in response to a highly publicized case 
in Guatemala. Those guidelines make it considerably more 
difficult than it needs to be to recruit agents inside 
terrorist organizations because rather cumbersome procedures 
apply to the recruitment of any spy who may have a violent 
background or any history of human rights violations.
    Mr. Chairman, these rules may be defensible when one is 
recruiting spies inside governments. There are a lot of good 
people trapped inside bad governments who have over the years 
volunteered to work for the CIA or other parts of Western 
intelligence.
    But in my judgment and in the unanimous judgment of our 
Commission, these rules make absolutely no sense with respect 
to terrorist groups, because the only people that are in 
terrorist groups are people who want to be terrorists. And that 
means they have a background in violence and human rights 
violations.
    If you make it difficult for a CIA case officer in, say, 
Beirut to recruit spies with this sort of background, he'll be 
able to do a dandy job of telling you what's going on inside, 
for example, the churches and the Chamber of Commerce in 
Beirut. But we don't really care what's going on there. He'll 
have no idea, however, what's going on inside Hezbollah.
    The CIA today says that they have turned down no 
recruitments because of these guidelines. But with all due 
respect, that's not the problem. The problem, as we were told 
on the Commission by a number of current and former 
intelligence officers, is the number of approaches that are not 
made to recruit people inside terrorist organizations because 
of the cumbersome nature of these guidelines.
    The Commission also looked at the FBI guidelines for 
domestic work. I use the word work because the FBI strictly 
speaking does not conduct domestic intelligence operations. 
It's not an intelligence agency. It's a law enforcement agency. 
It investigates individual crimes.
    Here I want to stress that we are dealing with the civil 
rights of Americans, and I think we should all agree that 
special care is needed in making any changes. But let me state 
the following hypothetical.
    A conscience-stricken member of a militia group affiliated 
with Christian Identity, as these groups call themselves--many 
people just call them Identity groups, but they call themselves 
Christian Identity--comes to an FBI office somewhere in the 
United States. He says that at last night's meeting of the 
group they were discussing the importance of preparing for 
Armageddon between the Children of Adam, Aryans, in this 
group's belief, and the Children of the Devil, everybody else.
    One member reportedly stood up and shouted, ``Anthrax for 
Armageddon'' and everybody began to take up the same chant. The 
conscience-stricken member was worried that some of the group 
might act on its enthusiasm.
    I believe it would be surprising to most people to realize 
that in this hypothetical case the FBI would not be permitted 
under current guidelines to open a full investigation or to 
apply to a Federal court for warrants to conduct electronic 
surveillance or wiretaps, nor would it be permitted to recruit 
new informants beyond the conscience-stricken individual. It 
could only follow the matter as best it could without using 
these tools.
    And finally, Mr. Chairman, on this intelligence point, a 
particular bete noire of mine, often CIA case officers and FBI 
Special Agents who work in the terrorism area in these 
litigious times are forced to buy personal liability insurance 
for fear of being sued individually for steps taken pursuant to 
their authorized duties when combating terrorism.
    Under a recent statute, Federal agencies need reimburse 
only one half of cost of this insurance. The rest of the 
premium is paid by the Special Agents or case officers out of 
their pockets.
    It would seem the very least we could do is pay the full 
cost for premiums of liability insurance that FBI and CIA 
employees in the front ranks of the war against terrorism have 
to take out in order to have the privilege of protecting us 
without risking bankruptcy.
    Third and final point, Mr. Chairman, I know this is not a 
hearing on ballistic missile defense, about which I testified 
before this committee in late July, and I fully agree that this 
country's more likely to be subjected to attack using 
biological agents via terrorism, state-sponsored or otherwise, 
than via ballistic missiles.
    But in my view that in no way diminishes the importance of 
planning for and deploying ballistic missile defense, including 
particularly those that would deal effectively with missiles 
carrying biological weapons.
    Dr. Richard Garwin, among others, has pointed out that a 
missile carrying sub-munition packages filled with biological 
agents could defeat defensive missiles that intercept in mid-
course because the sub-munitions could be released early, 
immediately after the missile's boost phase and prior to 
interception. There would be too many of them to be intercepted 
by mid-course defenses. This is one of the reasons I've been 
particularly attracted to boost-phase intercept as an approach 
toward missile defense since it would intercept attacking 
missiles before the deployment of decoys or such sub-munitions.
    Of the five states with biological weapons programs, in 
addition to Russia and China, that were listed in last 
January's National Intelligence Council assessment of the 
biological warfare threat, three, North Korea, Libya and Syria, 
are susceptible to having any missile launched from their 
territory intercepted by sea-based boost-phase intercept.
    One, Iraq, would probably be susceptible to such a defense, 
although one might need a site in eastern Turkey; and only one, 
Iran, would require a substantially innovative approach such as 
boost-phase interceptors based in Russia or in space.
    I think there are two reasons, Mr. Chairman, why this 
threat of ballistic missiles armed with biological weapons 
should concern us. One is blackmail. The threat that we would 
be deterred or that our potential allies would be deterred from 
protecting the Kuwaits and the South Koreas in the future if we 
or our allies were vulnerable to attack from a rogue state such 
as Iraq or North Korea with ballistic missiles carrying 
biological weapons.
    The second is a risk that, as he lost in a crisis and faced 
removal from office or worse, a rogue state's leader might opt 
for a Gotterdammerung rather than graceful degradation. We know 
from Russian memoirs that this was the mind-set of both Fidel 
Castro and Che Guevara in 1962 when they urged Mikoyan to 
demand a nuclear attack on the United States at the height of 
the Cuban Missile Crisis.
    And we know from many accounts of the incredibly 
destructive orders that Hitler gave, that happily were not 
carried out, in May of 1945.
    We know of accounts of drug use by national leaders such as 
Mao and Hitler, of reliance on soothsayers such as by Saddam 
today, and on astrology by the former Chief of the Soviet 
Strategic Rocket Forces.
    These types of accounts are simply too numerous through 
history for us to be confident that as the number of countries 
with ballistic missiles and biological weapons continues to 
grow, we will always be blessed with rational and reasonable 
adversaries.
    We should not have been forced to decide in 1940 between 
having effective local police and having a navy. England should 
not have been forced to decide in 1587 between protecting 
itself against civil insurrection and an Armada from Spain. And 
we should not be forced, today, to choose between defending 
against terrorists and against ballistic missiles. Both types 
of defenses in my view are badly needed. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Woolsey follows:]

              Prepared Statement of Hon. R. James Woolsey

    Mr. Chairman, members of the Committee, it is an honor to be here 
today to testify before you on the important subject of biological 
weapons and terrorism.
    I will not duplicate Senator Nunn's testimony regarding Dark 
Winter, wherein I served as President Nunn's Director of Central 
Intelligence. Let me address just three additional points about the 
threat of biological weapons.
                           i. livermore study
    Five years ago the CIA and DOE, via Lawrence Livermore National 
Laboratory, asked me to co-chair a review of U.S. preparations to deal 
with terrorism using weapons of mass destruction. My co-chairman was 
Joseph Nye, the Dean of the Kennedy School at Harvard, who had served 
as the Chairman of the National Intelligence Council when I was DCI in 
1993-95. Our report was classified, but we published an op-ed 
(attached) that reflected the main points of our review. We put 
terrorism using weapons of mass destruction as the highest priority in 
U.S. national security policy.
    Generally we determined in the Livermore study that the biological 
weapons threat was the most serious because destructiveness, at least 
in terms of people killed, could match that of nuclear weapons but the 
technological and industrial challenges to a terrorist were 
considerably less daunting. Happily, there are some real difficulties 
in some parts of the weaponization process for biological agents, but 
compared to fissionable material many biological agents are far more 
readily available--anthrax, e.g., grows in many cow pastures in the 
world. Further, the equipment for much of the process of producing 
biological weapons is transportable, as are the biological agents 
themselves, and indeed the equipment is little more complex than that 
for a microbrewery, which it rather resembles. There is good reason to 
believe, for example, that one of the reasons Iraq was able to hide 
almost all of its biological weapons work from UNSCOM was that it was 
moving equipment and biological agents around, quite possibly under the 
control of the Special Republican Guard that protects Saddam.
                  ii. national commission on terrorism
    Second, I served on the National Commission on Terrorism (Chaired 
by Amb. L. Paul Bremmer) that reported to the Congress last summer. 
Although consequence management is a terribly important part of the 
national response to terrorism, as we pointed out in that report good 
intelligence is not only the first line of defense against terrorism, 
but the best weapon against it--because it is the best way to prevent a 
terrorist act from occurring. I have attached six pages from our report 
that make several points I believe relevant to your deliberations 
today.
    There are serious flaws, we found, in both the CIA guidelines for 
penetrating terrotist groups abroad and in the FBI's guidelines for 
dealing with terrorist groups in this country.
CIA 1995 Guidelines
    As far as the CIA is concerned, new guidelines issued in late 1995 
in response to a highly publicized case in Guatemala make it 
considerably more difficult than it needs to be to recruit agents 
inside terrorist organizations because special cumbersome procedures 
apply to the recruitment of any spy who may have a violent background 
or any history of human rights violations.
    Mr. Chairman, these rules may be defensible when one is recruiting 
spies inside governments--there are a lot of good people trapped inside 
bad governments who volunteer to work for the CIA. But they make 
absolutely no sense at all with respect to terrorist groups. The only 
people in terrorist groups are people who want to be terrorists--hence 
they will virtually all have a history of violence and human rights 
violations. If you make it difficult for a CIA case officer in, say, 
Beirut, to recruit spies with this sort of background, he will be able 
to do a dandy job of telling you what's going on inside, e.g., the 
churches and the Chamber of Commerce there, as if we cared, but he will 
have no idea what Hezbollah is planning.
    The CIA today says that they have turned down no recruitment 
because of these guidelines, but with all due respect that is not the 
problem. The problem, as we heard from a number of current and former 
case officers who communicated with the Commission, is the number of 
approaches that are not made to potentially useful agents inside 
terrorist organizations because of these guidelines. Our Commission 
recommended unanimously that these guidelines ``no longer apply to 
recruiting terrorist informants.''
FBI Guidelines
    The FBI guidelines, our Commission found, are lengthy, complex, and 
difficult for FBI Agents in the field to understand (they were also 
difficult for Commission members to understand). They too have been 
heavily influenced by past controversies, such as some of the 
lamentable excesses of the COINTELPRO program of many years ago. Here 
we are dealing with the civil rights of Americans and I think we would 
all agree that special care is needed. Still, take the following 
hypothetical case:

          A conscience-stricken member of a militia group affiliated 
        with Christian Identity (as they call themselves) comes to an 
        FBI office somewhere in the U.S. He says that at last night's 
        meeting of the group they were discussing the importance of 
        preparing for Armageddon between the Children of Adam (Aryans, 
        in the group's belief) and the Children of the Devil (everyone 
        else). One member reportedly stood up and shouted ``Anthrax for 
        Armageddon,'' at which point all began the same chant. The 
        conscience-stricken member was worried that some of the group 
        might act on its enthusiasm.

    It would be surprising to many, I believe, to realize that in this 
hypothetical case the FBI would not be permitted, under current 
guidelines, to open a full investigation and apply to a federal court 
for warrants to conduct electronic surveillance or wiretaps. Nor would 
it be permitted to recruit new informants beyond the conscience-
stricken individual. It could only follow the matter as best it could 
without using these tools.
Full Cost of Liability Insurance
    One further small but illustrative point about the way we conduct 
the war against terrorism: FBI Special Agents and CIA Case Officers in 
the field are, in these litigious times, often forced to buy personal 
liability insurance for fear of being sued individually for steps taken 
pursuant to their authorized duties when they are combating terrorism. 
Under a recent statute federal agencies need reimburse only one-half of 
the cost of this insurance. The rest of the premium is paid by the 
Special Agents and Case Officers out of their pockets. It would seem 
that the very least we could do is pay the full cost of the premiums 
for the liability insurance that FBI and CIA employees in the front 
ranks of the war against terrorism have to take out in order, without 
risking bankruptcy, to have the privilege of protecting us.
                               priorities
    Mr. Chairman, I know that this is not a hearing on ballistic 
missile defense, about which I testified before this Committee in late 
July. But just a word about priorities, if I might. I fully agree that 
we are more likely to be subjected, in this country, to an attack using 
biological agents via terrorists--state sponsored or otherwise--than by 
ballistic missile. But in my view that in no way diminishes the 
importance of planning for and deploying ballistic missile defenses, 
including particularly those that would deal effectively with missiles 
carrying biological weapons.
    Dr. Richard Garwin, among others, has pointed out that a missile 
carrying sub-munition packages filled with biological agents could 
defeat defensive missiles that intercept in midcourse because these 
sub-munitions could be released early, immediately after the missile's 
boost phase, and prior to interception. There would be too many of them 
for the mid-course defensive system to deal with. This is one of the 
reasons I have been particularly attracted to the boost-phase intercept 
approach toward missile defense, since it would intercept attacking 
missiles before the deployment of decoys or such sub-munitions. Of the 
five states with biological weapons programs (in addition to Russia and 
China) listed in the National Intelligence Council's assessment in 
January of this year, ``The Biological Warfare Threat,'' three (North 
Korea, Libya, and Syria) are susceptible to having any missile launched 
from their territory intercepted by sea-based boost-phase intercept. 
One (Iraq) could be susceptible to such a defense if the intercepting 
missile were fast enough, although augmentation from a land-based site 
in Eastern Turkey might be necessary. Only one (Iran) would require a 
substantially innovative approach, such as boost-phase interceptors 
based in Russia, or in space, to defend against attacks from its 
territory.
    I think there are two reasons, Mr. Chairman, why this threat of 
ballistic missiles armed with biological weapons should concern us.
    One is blackmail--the threat that we would be deterred, or 
potential allies would be, from protecting the Kuwaits and South Koreas 
in the future if we or our allies were vulnerable to attack from a 
rogue state such as Iraq or North Korea with ballistic missiles 
carrying biological weapons.
    The second is the risk that, as he lost in a crisis and faced 
removal from office or worse, a rogue state's leader might opt for 
Gotterdammerung rather than graceful degradation. We know from Russian 
memoirs that this was the mind-set of both Fidel Castro and Che Guevera 
in 1962, when they urged Mikoyan to demand a nuclear attack on the U.S. 
at the height of the Cuban Missile Crisis, and from many accounts of 
the incredibly destructive orders that Hitler gave in May 1945. And the 
accounts of drug use (Mao and Hitler), of reliance on soothsayers 
(Saddam) and astrology (former Chief of the Soviet Strategic Rocket 
Forces) are simply too numerous throughout history for us to be 
confident that--as the numbers of countries with ballistic missiles and 
biological weapons continues to grow--we will always be blessed with 
rational and reasonable adversaries.
    We should not have been forced to decide, in 1940, between having 
effective local police and having a Navy; England should not have been 
forced to decide, in 1587, between protecting itself against civil 
insurrection and an Armada from Spain. And we should not be forced, 
today, to choose between defending against terrorists and against 
ballistic missiles. Both types of defenses, in my view, are needed 
badly.

                                 ______
                                 

                      [From the Los Angeles Times]

                        perspective on terrorism

                    Defend Against the Shadow Enemy

              (By Joseph S. Nye, Jr. and R. James Woolsey)

    The destruction of the federal building in Oklahoma City and the 
bombing of the World Trade Center in New York shocked Americans. But 
those tragedies would have been far worse if nuclear, biological or 
chemical materials had been involved. After co-chairing a year-long 
study for the government, we believe it is increasingly likely they 
will be.
    For 40 years Americans lived under the fear of Soviet nuclear 
attack. The end of the cold war reduced the prospect of a nuclear 
holocaust, but ironically, prospects of a nuclear explosion inside the 
United States probably have increased. And it is not just the nuclear 
threat. Terrorists worldwide have better access to anthrax or sarin 
than to nuclear materials. So far, we have been lucky. But we should 
not wait for another Pearl Harbor to awaken us to the fact that there 
is no greater threat to our security than terrorism involving weapons 
of mass destruction.
    Skeptics may call us alarmists. Nuclear technology has been around 
for 50 years and chemical and biological agents for nearly a century, 
yet terrorists have rarely turned to them. Conventional high explosives 
are easier to obtain. Moreover, terrorists seeking to promote a cause 
run the risk of a moral and political backlash if the destruction they 
wreak is disproportionate to their cause.
    But recent years have seen the rise of a new type of terrorist less 
interested in promoting a political cause and more focused on 
retribution or eradication of what they define as evil. Their motives 
are often a distorted form of religion and their imagined rewards are 
in the next world. For them, weapons of mass destruction, if available, 
are a more efficient means to their ends.
    Such devices are becoming more available. The breakup of the Soviet 
Union and the rise of the mafias in Russia have increased the smuggling 
of nuclear materials. Chemicals and biological agents can be produced 
by graduate students or lab technicians. General recipes are readily 
available on the Internet.
    Our overriding recommendation is to give the threat of terrorism 
with weapons of mass destruction the highest priority in U.S. national 
security policy. Of the threats that could inflict major damage to the 
U.S., such terrorism is the threat for which we are least prepared.
    The nation needs a national response program, directed by the White 
House. The program must be coordinated and integrated across the entire 
federal bureaucracy. And end-to-end systematic strategy to encounter 
this threat must address all phases of a potential terrorist attack, 
from detection and prevention to response. Such a strategy must include 
and coordinate program initiatives by all involved departments and 
agencies.
    To this end, we recommend that:

  <bullet> Policy direction be clarified at the White House level by a 
        committee chaired by the Vice President.

  <bullet> Interagency and interdepartmental coordination and 
        integration be handled by deputies of the involved 
        organization.

  <bullet> The program be supported by a long-term funding strategy.

  <bullet> The program be managed by a single director and supported by 
        a technical and systems planning staff.

  <bullet> An independent advisory board of outside experts be 
        appointed by the President to monitor and advise the program.

  <bullet> A joint legislative oversight committee be appointed.

    The very nature of U.S. society makes it difficult to prepare for 
this security problem. Within recent memory, we have not had to battle 
a foreign invading force on U.S. soil. Because of our ``Pearl Harbor'' 
mind-set, we are unlikely to mount an adequate defense until we suffer 
an attack. Because the threat of terrorism with weapons of mass 
destruction is amorphous (rogue states, transnational groups, ad hoc 
groups or individuals) and constantly changing, it is difficult to make 
predictions and preparations. However, given the current geopolitical 
state of the world, there is every indication that terrorism will be 
the most likely physical threat to the U.S. homeland for at least the 
next decade.
    Only if we go beyond business as usual and respond in a broader and 
more systematic manner do we stand a chance of dealing with this 
problem before the horror of another Pearl Harbor.

    Joseph S. Nye, Jr., was Assistant Secretary of Defense and R. James 
Woosley was the CIA Director in the first Clinton administration.

                                 ______
                                 

  Good Intelligence is the Best Weapon Against International Terrorism

    Obtaining information about the identity, goals, plans, and 
vulnerabilities of terrorists is extremly difficult. Yet, no other 
single policy effort is more important for preventing, preempting, and 
responding to attacks.
    The Commission has identified significant obstacles to the 
collection and distribution of reliable information on terrorism to 
analysts and policymakers. These obstacles must be removed.
    In addition, this information, often collected at great risk to 
agents and officers in the field, must be safeguarded. Leaks of 
intelligence and law enforcement information reduce its value, endanger 
sources, alienate friendly nations and inhibit their cooperation, and 
jeopardize the U.S. Government's ability to obtain further information.

    ``Nothing should be as favorably regarded as intelligence; nothing 
should be as generously rewarded as intelligence; nothing should be as 
confidential as the work of intelligence.'' Sun Tzu
     eliminate barriers to aggressive collection of information on 
                               terrorists
    Complex bureaucratic procedures now in place send an unmistakable 
message to Central Intelligence Agency (CIA) officers in the field that 
recruiting clandestine sources of terrorist information is encouraged 
in theory but discouraged in practice.
    Inside information is the key to preventing attacks by terrorists. 
The CIA must aggressively recruit informants with unique access to 
terrorists plans. That sometimes requires recruiting those who have 
committed terrorist acts or related crimes, just as domestic law 
enforcement agencies routinely recruit criminal informants in order to 
pursue major criminal figures.
    CIA has always had a process for assessing a potential informant's 
reliability, access, and value. However, the CIA issued new guidelines 
in 1995 in response to concern about alleged serious acts of violence 
by Agency sources. The guidelines set up complex procedures for seeking 
approval to recruit informants who may have been involved in human 
rights violations. In practice, these procedures have deterred and 
delayed vigorous efforts to recruit potentially useful informants. The 
CIA has created a climate that is overly risk averse. This has 
inhibited the recruitment of essential, if sometimes unsavory, 
terrorist informants and forced the United States to rely too heavily 
on foreign intelligence services. The adaption of the guidelines 
contributed to a marked decline in Agency morale unparalleled since the 
1970s, and a significant number of case officers retired early or 
resigned.
    Recruiting informants is not tantamount to condoning their prior 
crimes, nor does it imply support for crimes they may yet commit. The 
long-standing process in place before 1995 provided managers with 
adequate guidance to judge the risks of going forward with any 
particular recruitment.
Recommendations:
  <bullet> The Director of Central Intelligence should make it clear to 
        the Central Intelligence Agency that the aggressive recruitment 
        of human intelligence sources on terrorism is one of the 
        intelligence community's highest priorities.

  <bullet> The Director of Central Intelligence should issue a 
        directive that the 1995 guidelines will no longer apply to 
        recruiting terrorist informants. That directive should notify 
        officers in the field that the preexisting process of assessing 
        such informants will apply.

The Federal Bureau of Investigation (FBI), which is responsible for 
        investigating terrorism in the United States, also suffers from 
        bureaucratic and cultural obstacles to obtaining terrorism 
        information.

    The World Trade Center bombers and the foreign nationals arrested 
before the millennium sought to inflict mass casualties on the American 
people. These incidents highlight the importance of ensuring that the 
FBI's investigations of international terrorism are as vigorous as the 
Constitution allows.

    ``The FBI has a right, indeed a duty, to keep itself informed with 
respect to the possible commission of crimes; it is not obliged to wear 
blinders until it may be too late for prevention.''

    The FBI's terrorism investgations are governed by two sets of 
Attorney General guidelines. The guidelines for Foreign Intelligence 
Collection and Foreign Counterintelligence Investigations (FI 
guidelines), which are classified, cover the FBI's investigations of 
international terrorism, defined as terrorism occurring outside the 
United States or transcending national boundaries. Domestic terrorism 
governed by the Attorney General guidelines on General Crimes, 
Racketeering Enterprise and Domestic Security/Terrorism Investigations 
(domestic guidelines). The domestic guidelines would apply, for 
example, to an investigation of a foreign terrorist group's activities 
in the United States if the FBI does not yet have information to make 
the international connection required for the FI guidelines.
    Both guidelines set forth the standards that must be met before the 
FBI can open a preliminary inquiry or full investigation. The domestic 
guidelines authorize a preliminary inquiry where there is information 
or an allegation indicating possible criminal activity. A full 
investigation may be opened where there is a reasonable indication of a 
criminal violation, which is described as a standard ``substantially 
lower than probable cause.''
    The domestic and FI guidelines provide the FBI with sufficient 
legal authority to conduct its investigations. In many situations, 
however, agents are unsure as to whether the circumstances of a 
particular case allow the authority to be invoked. This lack of clarity 
contributes to a risk-averse culture that causes some agents to refrain 
from taking prompt action against suspected terrorists.
    In 1995, largely in response to the Oklahoma City bombing and 
indications that confusion was inhibiting investigations, the 
Department of Justice (DoJ) issued a memorandum to the FBI field 
offices attempting to clarify the circumstances that would merit 
opening a preliminary inquiry and full investigation under the domestic 
guidelines. Nonetheless, there is still considerable confusion among 
the FBI field agents about the application of the guidelines. Neither 
the DoJ nor the FBI has attempted to clarify the FI guidelines for 
international terrorism investigations.
Recommendation:
  <bullet> The Attorney General and the Director of the Federal Bureau 
        of Investigation should develop guidance to clarify the 
        application of both sets of guidelines. This guidance should 
        specify what facts and circumstances merit the opening of a 
        preliminary inquiry or full investigation and should direct 
        agents in the field to investigate terrorist activity 
        vigorously, using the full extent of their authority.

The Department of Justice applies the statute governing electronic 
        surveillance and physical searches of international terrorists 
        in a cumbersome and overly cautious manner.\1\
---------------------------------------------------------------------------
    \1\ Commissioner Kayyem did not concur with the content of this 
section.

    Pursuant to the Foreign Intelligence Surveillance Act (FISA), the 
FBI can obtain a court order for electronic surveillance and physical 
searches of foreign powers, including groups engaged in international 
terrorism, and agents of foreign powers.
    Applications from the FBI for FISA orders are first approved by the 
Office of Intelligence Policy and Review (OIPR) in the Department of 
Justice before being presented to a judge of the FISA Court for 
approval. OIPR has not traditionally viewed its role as assisting the 
FBI to meet the standards for FISA applications in the same way that 
the Criminal Division of DoJ assists the FBI investigator to meet the 
standards for a wiretap. For instance, the Criminal Division works with 
the investigating agents to identify and develop ways to obtain the 
type of information needed to satisfy statutory requirements. OIPR has 
traditionally not been that proactive.
    The Commission heard testimony that, under ordinary circumstances, 
the FISA process can be slow and burdensome, requiring information 
beyond the minimum required by the statute. For example, to obtain a 
FISA order, the statute requires only probable cause to believe that 
someone who is not a citizen or legal permanent resident of the United 
States is a member of an international terrorist organization. In 
practice, however, OIPR requires evidence of wrongdoing or specific 
knowledge of the group's terrorist intentions in addition to the 
person's membership in the organization before forwarding the 
application to the FISA Court. Also, OIPR does not generally consider 
the past activities of the surveillance target relevant in determining 
whether the FISA probable cause test is met.
    During the period leading up to the millennium, the FISA 
application process was streamlined. Without lowering the FISA 
standards, applications were submitted to the FISA Court by DoJ 
promptly and with enough information to establish probable cause.
Recommendations:
  <bullet> The Attorney General should direct that the Office of 
        Intelligence Policy and Review not require information in 
        excess of that actually mandated by the probable cause standard 
        in the Foreign Intelligence Surveillance Act statute.

  <bullet> To ensure timely review of the Foreign Intelligence 
        Surveillance Act applications, the Attorney General should 
        substantially expand the Office of Intelligence Policy and 
        Review staff and direct it to cooperate with the Federal Bureau 
        of Investigation.

The risk of personal liability arising from actions taken in an 
        official capacity discourages low enforcement and intelligence 
        personnel from taking bold actions to combat terrorism.

    FBI special agents and CIA officers in the field should be 
encouraged to take reasonable risks to combat terrorism without fear of 
being sued individually for officially authorized activities, however, 
government representation is not always available to such agents and 
officers when they are sued. As a result, FBI special agents and CIA 
officers are buying personal liability insurance, which provides for 
private representation in such suits.
    By recent statute, federal agencies must reimburse up to one half 
of the cost of personal liability insurance to law enforcement officers 
and managers or supervisors.
Recommendation:
  <bullet> Congress should amend the statute to mandate full 
        reimbursement if the costs of personal liability insurance for 
        Federal Bureau of Investigation special agents and Central 
        Intelligence Agency officers in the field who are combating 
        terrorism.

    The Chairman. Thank you. Let me begin quickly by saying I 
was in a couple of these conferences and groups with the former 
CIA Director. I agreed with him in that I had the same 
attraction to, as he knows, boost phase interceptors. And the 
reason is all the countries you have named, to the extent they 
may gain the capacity to launch an intercontinental ballistic 
missile against the United States, the likelihood of them doing 
it with a nuclear weapon is much lower because of the throw 
weight required than it is for the biological weapon.
    And I don't know how--parenthetically, I don't want to get 
in this debate, I want to get off it--but I don't know how a 
test bed in Alaska has a damn thing to do with any of this, 
which I think is foolhardy. But at any rate, that's a different 
question. Let me go straight to the issue of what was learned 
from your exercise, gentlemen.
    In terms of prioritizing, it seems to me that what we are 
going to have to do to do this intelligently, were we to run 
another exercise, were we to say to the same group that you 
assembled, and that wouldn't be a bad thing by the way, from my 
perspective, were we to assemble the same group, and say 
there's a different exercise; the exercise is we have x amount 
of dollars and we have the following threats.
    We want you all to prioritize for us how we should spend 
those dollars. What is the most urgent threat? How much of the 
threat, Sam, in real terms, I don't know how you characterize 
it, but in real terms, is this threat of biological weapons 
attack or use of pathogens?
    I mean, where does it rank in your mind as requiring our 
attention in relative terms? Leave missile defense out for a 
minute--I don't want to get into the middle of that. But give 
us a sense of how big a deal this is. How much do we have to 
worry about this?
    My dad, God help him, he's 86 years old. And at the time I 
was a kid, I can remember him saying, ``Joey, if everything is 
equally important to you, nothing is important to you. If 
everything is equally important, nothing is important.''
    Everything can't be equally important. Tell me about it. 
Talk to me about it. Talk to us about it. How important is 
dealing with your recommendations on this issue relative to, 
you know, moneys we are going to have to spend for a joint 
strike fighter; those kinds of practical decisions that you had 
to make when you sat here.
    Senator Nunn. That's the toughest of all questions. And 
that's the reason we likewise lead us to sort out these 
priorities. But I would say that there needs to be a process by 
which this is done. And I think the process starts with the 
intelligence assessment.
    I believe the intelligence community has to be charged with 
some sense of priority in terms of various threats, in terms of 
both likelihood and consequence. Because something is not 
likely to happen and yet the consequences are just so 
horrendous you can't even contemplate them has to be given some 
weight against something that is much more likely to happen but 
with less consequence.
    There needs to be a process. This may be a time, Jim 
Woolsey and I have both lived through several B teams, may be 
the time for an intelligence assessment with a B team of 
outsiders that basically would parallel it or follow it.
    Missile defense would be part of this, and not just missile 
defense but also what parts of missile defense. Are we going to 
try to guard against the troops in the field? That's to me the 
highest priorities, the troops in the field. That's the most 
likely kind of attack with a ballistic missile.
    That's a different counter system probably, although it 
could lead to a system with National Missile Defense. If terms 
of biological, as Jim Woolsey said, I think he said it well, 
the access of so many people, so many would-be perpetrators of 
this kind of horrible act to the materials is much higher.
    The access is much higher because so many of them are in 
the mails. They are in laboratories all over. They are used for 
legitimate purposes. You can basically borrow these kinds of 
materials because of the commercial side of it. The information 
that is now on the Internet on how to both secure materials as 
well as make weapons, not just biological but also nuclear, 
that has gone way up.
    The futility of many of our adversaries to believe they 
could really harm the United States in a conventional war has 
gone way up. And that frustration and futility has gone up. The 
knowledge that for instance I think we have to put this in the 
equation, the knowledge that if they did fire a missile at the 
United States, we know where it came from and they would be 
committing suicide. That has to be put into the equation 
whether it's a biological missile or whether it's a nuclear 
missile--versus the knowledge that they have a reasonable 
chance of getting away with it if they spray aerosol in three 
shopping centers with a smallpox vaccine. That's 2 or 3 weeks 
before we even know it happened.
    If you are a perpetrator and you are not suicidal, what's 
your most likely course of action. For all those reasons, I put 
biological near the top of the list. I'm not sure whether it 
ought to be at the top of the list, but it's very close, if 
it's not.
    The consequences are so horrendous, not just in terms of 
loss of life but loss of confidence, loss of confidence that an 
American people in that of their own government.
    One of the most frustrating things, and Jim will attest to 
this, we had some of our most esteemed and wise members of the 
news media sat in on these exercises. And we were later having 
a news conference. Talk about unfairness, they sat in on the 
NSC meeting. And then I went out and faced them and they knew 
everything that we did. They knew as much as I did.
    But the most frustrating thing I had to deal with this as 
President was the fact that I knew that I had to retain the 
credibility of the Federal Government. What we said had to be 
proven later. You ruin your credibility in this sort of 
horrible situation, you really would cause chaos. And yet I did 
not have any answers.
    I couldn't tell how much material was out there. I couldn't 
tell where it came from. I couldn't tell from law enforcement 
whether we had a reasonable chance of apprehending the 
culprits. I couldn't tell whether they were launching other 
attacks simultaneously.
    I had no way of knowing where the victims were. I had no 
way of isolating them. I had no way of basically telling people 
frankly that we were going to have enough vaccine. All of a 
sudden, one of the things that played in here, Russia offered 
us a huge dose of vaccine to help about the second week of the 
attack.
    Immediately on one hand we were saying wonderful. That's 
wonderful. On the other hand, we were saying is it safe. Can we 
test it? Do we have time to test it? Can we afford to go out 
there and put out this kind of vaccine in millions of people 
knowing not whether it might itself kill them.
    All those things led me to the conclusion that I could not 
accurately describe with honesty to the American people what 
was happening. So I feared the loss of the credibility of the 
United States Government; not me as President, but of the whole 
Government. And that was the most frustrating part of this.
    The Chairman. I have some very detailed questions for the 
scientists who will be coming up after you, and I am sure my 
colleagues are going to cover some of the areas that I would 
like to get into. But let me conclude by saying that our 
present intelligence director, CIA Director, indicates on a 
classified basis that this is a very, very high concern, that 
this is more probable, this kind of occurrence is more probable 
than most any other.
    But I will get into that later. And I'm sure others will 
want to speak to some of these issues. I yield to my friend.
    Senator Helms. Thank you, Mr. Chairman. Let me make a 
proposition to you. You be Sam Jones sitting there having made 
the testimony you just made. And you are Sam Nunn, Senator, 
still in the Senate. What would you do as a result? What would 
you recommend to the Senate that we do specifically? What kind 
of legislation would you draw?
    I have an idea, Senator, that a lot of people are 
frightened, and justly so. And I appreciate you doing it by 
what you have just said.
    Senator Nunn. Chairman Helms, I think I would start with an 
inventory of what's being done. I don't have a good sense, I 
know we are spending more money than we were, and if you read 
some people are saying we are spending a higher rate on 
biological; it's growing faster than others; but it's from such 
a low baseline. I would try to see how we are spending the 
money now.
    Because a lot of this is not being spent in my view in the 
most high priority areas. And the second thing is I think that 
the public health service has to be part of the national 
security team. And I think you may not do that by legislation. 
Maybe you do that by getting the head of HHS up here with the 
head of Department of Defense, with the head of the CIA and 
have a poll on people that show across the board. It's going to 
take a whole team.
    You have to ask the public health service out there, what 
is it that would prevent you from dealing with this situation? 
Do you have enough surge capability in the medical system?
    We are trying to get more efficient in the medical system. 
The more efficient we get, the less surge capability we are 
capable of handling. And the third thing I would look for every 
overlap between infectious disease and biological terrorism. 
Because we've got to make this a global issue. It can't just be 
the United States.
    We have got to involve the World Health Organization. We've 
got to work with people around the globe. We've got to work 
with the Russians. They have the biological scientists that 
could make this. We've got to find a way to get those people 
employed. All of those things relate to money more than they do 
specific law.
    On the legal side, and particularly legislative changes, I 
think you have to contemplate emergencies and how you would 
isolate people. And look at your laws and see right now whether 
we can anticipate those kind of steps or whether we would be 
trampling all over everyone's civil liberties and have a huge 
cry while we are doing it.
    Can we anticipate this and deal with it? As Joe Biden said, 
we had a huge problem on the posse comitatus contact to allow 
military to come in, in a nuclear emergency or biological and 
chemical emergency and deal with this. They do have that 
limited authority.
    So there are certain safeguards you could put in place. 
Otherwise, when this happens people aren't going to be 
concerned about civil liberties that much. They are going to 
say whatever it takes, do it. And I think we'll lose a lot of 
control in that perspective.
    That would be my higher priority, take an inventory of what 
we are doing now, look at the resources, see if they are being 
defended, and call some public health witnesses up here, some 
people who really are experts.
    I know we have some on the panel coming. This is not 
something the Pentagon is accustomed to thinking about. One of 
the things that Jim will recall in the middle of our exercise, 
two or three people who served in the Department of Defense 
said, ``I don't know how to think about this. We've never 
thought about this.''
    Senator Helms. That's the point. We could just talk about 
it and we could scare the hell out of each other with 
testimony. And you have. And I thank you for doing it.
    But Mr. Chairman, let's suggest a bipartisan approach, you 
and I, on behalf of the committee with the committee's approval 
as to how to proceed on this. Because I think that every day we 
delay we are running a bad risk in this country. Thank you, 
Senator.
    Senator Nunn. Early detection is one of the early things, 
and to have the technology that would tell us what is this 
pathogen that's been released. Because if you don't know that, 
you don't have a chance of dealing with it; and training of 
doctors and nurses so they recognize it.
    That right now is a new technique, not new, but it's called 
a symptom survey. So instead of waiting until a doctor comes to 
CDC and says I've got smallpox, you have got the pharmacists 
around the country alerted.
    You have computer systems so that when they start seeing 
people come in for certain problems, whether it's a series of 
chronic headaches or whatever, that they don't recognize, that 
there's some reporting system, some early alert system about 
symptoms.
    Senator Helms. Maybe some of the pharmaceutical companies 
can make some recommendations about how to deal with some of 
these things.
    Mr. Woolsey, let me ask you something. The January 2001 
National Intelligence Council report on biological warfare 
threats said that there are 25 missile warheads with biological 
agents in Iraq alone, and they are unaccounted for.
    Now, do we have any idea about the possible targets of 
these missiles, and is it possible for Iraq to develop similar 
warheads for longer range missiles?
    Mr. Woolsey. I believe it is possible for them to develop 
warheads for longer range missiles, Mr. Chairman. It is both, 
in terms of weight and in terms of technology, rather simpler 
as the Chairman suggested than for nuclear weapons. I don't 
believe we know or have any samples of the biological agents 
that Saddam had produced----
    Senator Helms. That would be my next question.
    Mr. Woolsey [continuing]. Or of any of the warheads. The 
Iraqis simply said these have been unilaterally destroyed, and 
UNSCOM was not able to get hold of any of these. So we are 
really rather crippled by the absence of UNSCOM, I think, from 
knowing a great deal more about the Iraqi program than we do 
today.
    And of course one great fear is that if Russian scientists 
were working with the Iraqis, some of these biological agents 
that are in the hands of Iraq, and could conceivably through 
Iraq be given to bin Laden or other terrorist groups, may be 
genetically modified so that standard vaccines and antibiotics 
would not operate against them.
    I mentioned earlier we know that the Russians genetically 
modified anthrax. And so if that were used and we don't know 
exactly how it was genetically modified, we conceivably could 
have lots of vaccinated servicemen and women in the Mideast or 
vaccinated people in the United States who would be no better 
off if they were subjected to an attack from that type of 
genetically modified anthrax.
    Senator Helms. Thank you, Mr. Chairman.
    The Chairman. Gentlemen, for the record, we will be 
spending $182 million on bioterrorism preparedness, a $1 
million increase. So we all have a number, it's $77 million for 
state and local preparedness; $52 million for a national 
pharmaceutical stockpile; $22 million for an upgrade capacity 
at CDC; and $18 million for continued evaluation of the anthrax 
vaccine.
    We are going to spend $94 million with the World Health 
Organization; $344 million for DOD and $8.3 billion for 
additional moneys for national missile defense.
    According to the Hart-Rudman Commission, biological weapons 
are the most likely choice of means for disaffected states or 
groups in the 21st century. That may or may not be right but 
this is what the assessment in the allocations is so far in 
dollars.
    Senator Helms.  May I say, is that enough?
    Senator Nunn. Well, I don't think it's anywhere near 
enough. I'm not sure how we pay for all of it but somebody's 
got to increase the hospital capacity. Somebody's got to train 
the doctors and nurses to recognize this.
    Somebody's got to do the research and development. Problem 
is the government is the only one on how you recognize these 
pathogens very quickly. Someone has to try to figure out a way 
to hire the Russians who might otherwise end up in Iraq making 
these weapons. There's a lot to be done. I don't think this is 
enough.
    The Chairman. Thank you.
    The Senator from California.
    Senator Boxer. Thank you so much, Mr. Chairman, for holding 
this hearing. I fully agree with Senator Helms that this has 
been a wake-up call. I want to thank both of our wonderful 
panelists for their contribution.
    I want to say that, Senator Nunn, I thought your testimony 
is so clear. I particularly feel on page 3 where you just come 
right down to it as you tried to deal with this in this mock 
exercise you found out certain things: One, we had not produced 
sufficient vaccine; we had not prepared top officials to cope 
with this new type of security threat; we had not invested 
adequately in the planning and exercises necessary for 
coordinated response.
    We had not ensured the public health infrastructure was 
adequate, and so on. We had not educated the American people to 
it. We had not practiced what few plans were in place. We had 
not ranked bioterrorism or infectious diseases as high national 
priorities, which is of course is what Senator Biden's message 
is to us.
    So I think that you lay out here for us a road map to the 
deficiencies that need to be fixed. And I support the call for 
a bipartisan approach to this, Mr. Chairman, and our ranking 
member.
    In my remaining couple of minutes, I wanted to talk about 
infectious diseases because I can't stay because of a conflict 
for the next panel. Because whether you get the disease through 
an act of terrorism or it happens because it's just naturally 
occurring, it confronts both. And that's why I'm glad you do 
have the second panel.
    But I wanted to take this opportunity to talk about a 
particular threat that Senator Gordon Smith and I have been 
working on in a bipartisan way. MDR TB which is the multidrug 
resistant tuberculosis, far more difficult and hundreds of 
times more expensive to treat than the standard TB and even in 
the United States kills half of its victims.
    It cost New York City a billion dollars to quell an 
epidemic of this multidrug resistant TB in the early 1990s, Mr. 
Chairman. TB is invisible. It's transmitted through the air. If 
untreated, it disables and then kills a person.
    Someone with active MDR TB in a developing country is 
estimated to infect ten to fifteen others in a year. TB rates 
have skyrocketed in regions with high AIDS burdens such as sub-
Sahara in Africa.
    In regions like Russia where the incidence of MDR TB is so 
high, as HIV rates also increase, their risk of an 
uncontrollable global epidemic is very real.
    So what I wanted to take advantage, if you will, in close 
of this opportunity, Mr. Chairman, to call to the committee's 
attention that because of your help and Senator Helms' help 
last year Senator Smith and I worked and we got triple the 
funding for TB programs. We got that funding up to $60 million.
    It is still if I might say, too small a sum. And this year 
we are looking at an increase up to $200 million. And I mention 
that because this is a situation where the best way to treat 
this, if you will, is called D-O-T-S, DOTS, directly observed 
treatment short course.
    So that is expensive and has to be done. And I wanted to 
tell my friends on this committee on both sides of the aisle 
that Gordon Smith and I will be talking to you about this 
because we are very concerned.
    Two questions, have you looked at this problem with TB in 
what you did and also, Senator Nunn, when you say the most 
important thing for us to do is to have a review, which I think 
we should do, would you then say that we should then move to go 
to your points where you just say we were not prepared, we did 
not do this, to change the reality.
    Because even though the funds might be there, as the 
chairman pointed out we are expending dollars, it seems to me 
on my sense out there we have a lot to do.
    Senator Nunn. Senator Boxer, we did not get into any other 
diseases other than this hypothetical with smallpox. But each 
one would be different. I would only make the point again that 
whatever we do to improve the public health system to deal with 
any kind of infectious disease, we also help ourselves with 
biological terrorism and vice versa and particularly surge 
capability, early recognition, training of medical personnel; 
and in the case of bioweapons certainly vaccine and new methods 
of treatment.
    Senator Boxer. And what about that second question? In 
other words, after the review would you be willing to put 
yourself out there a little further? If the review shows that 
we are spending an adequate fund or maybe we need to spend a 
little more but getting to your--you are dealing with an 
exercise where you are coming in pretty strongly and saying we 
were just not ready. So it seems to me even if we have the 
money there's not a mindset there.
    Senator Nunn. That's right. There's a thin line here. You 
have to think real seriously as Senator Helms alluded to, do 
you cause people to panic? Do you cause despair? Or do you 
basically point out problems?
    I don't know any other way to deal in a democracy like ours 
where thousands and thousands of people have to make decisions, 
particularly in public health, to be able to bring these things 
to their attention without getting vivid about it and talking 
in realistic terms. This is a democracy and that's the way we 
act. But what you don't want to do is cause despair.
    Senator Boxer. Right. Thank you.
    The Chairman. Thank you very much.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I want to 
join your comments and those of Senator Nunn about our 
colleague Senator Helms. I appreciate the friendship you 
expressed and the way in which this committee has been able to 
move with the two of you as chairmen during this Congress.
    Let me just say I despair with the fact that Sam Nunn is 
not here as a Senator because I miss him as a partner. But 
fortunately he is active around the world and with the Nuclear 
Threat Initiative.
    Ten years ago a bipartisan group of Senators met for 
breakfast, Ash Carter, who had come from Harvard, and Bill 
Perry from Stanford, began to help us fashion what became the 
Nunn-Lugar bill and the Cooperative Threat Reduction program. 
We've been working on this effort for 10 years, haltingly at 
first because the people did not really see how we could be 
effective with Russia.
    But in due course we have seen increasingly effective. And 
at this point 5,600 nuclear warheads have been separated from 
missiles. There are still many left, and there is still much 
work to do.
    Chemical weapons, the second part has not moved as quickly. 
And we still have work to do with our colleagues in the House 
Representatives this year to destroy really the first pound of 
the 40,000 metric tons of chemical weapons they have stored in 
seven depots in Russia.
    But there has been progress, and we should get a program 
going. The Russian Duma now has also appropriated funds for 
this purpose. So we must get started.
    In the biological arena, it was not until November 1998 
that Sam Nunn and Carl Levin and I were invited to meet with 
thirteen Biopreparat laboratory directors who had been working 
on the former Soviet biological weapons program, under the 
auspices of the International Science Technology Center (ISTC).
    At this meeting these directors revealed a lot to us. And 
later Sam and I were able to go in November 1998 to Obelinsk 
which to my knowledge is the first time Members of Congress 
entered one of these former biological weapons facilities.
    We visited an eight-story building at the Obelinsk complex. 
The third story held the facility's strain library, and it had 
anthrax in it. The laboratory director told me they had many 
different strains of anthrax. I viewed anthrax under a 
microscope. And I wouldn't know what I was looking at but 
nevertheless that's as close as I want to get to that dangerous 
pathogen.
    Now, that visit was the first step in the process of 
opening the facility to the outside world. Obelinsk today is 
having seminars for scientists around the world. They have 
brochures of the peaceful work they are working on and the 
guests they have invited into this place. But at the time that 
we visited, the security had a little bit of barbed wire and 
one guard. The first hour of our discussion was on how the 
United States could secure the facility and safeguard the 
deadly pathogens.
    In the last couple of years it has been my privilege to 
also visit Pokrov and just a week ago Kazan. Now these are so-
called agricultural facilities. And ostensibly the purpose of 
these are dual use.
    They work on vaccines that can help protect livestock 
herds, and that was the reported Russian's purpose as they gave 
it to us. But you could turn the facilities around and use them 
to develop weapons to eliminate somebody else's herds.
    They had gone as far as Africa for exotic pathogens. And 
when I asked why, they assumed that we had done that and were 
prepared to poison their cattle or to go after them.
    These facilities have large stocks of pathogens. They store 
it in iceboxes that they have shown to us. Now, the reason we 
got into the iceboxes or into Pokrov or Kazan was essentially 
because of the Nunn-Lugar program. We have inserted ourselves 
into these facilities. And it's been to the extent of it that 
Russian military and civilian people thought they needed help 
that they got us in there.
    The problem is that ISTC has identified tens of thousands 
of Russian scientists who may have been involved in these 
weapons programs. The United States provides maybe 50 or 60 
percent of the money. There is also an international component.
    These scientists trade e-mail with laboratories in the 
United States as well as elsewhere around the world. It's sort 
of a hearts and minds project in many ways. But there are 
prospects they will expand their work with us.
    Now, why, because the dangers for Russians are profound 
from all of this. In Pokrov there is a bunker. It's a bunker 
because they feared, according to their authorities, nuclear 
attack. Whatever was happening there they felt was significant 
enough that they would be targeted by the United States of 
America. And there are stores there of whatever they produced 
there.
    The desperation of the situation is seen all around, 
disheveled buildings that are falling down. Electricity is 
sometimes questionable, as well as the sanctity of the 
infrastructure of these facilities. And yet, at Polrov, the 
facility's right on top of the bunker occupied by a commercial 
firm called Green Mama Shampoo where shampoo is being produced 
in the same vehicles that could be used for the anthrax or for 
the other purpose.
    Because they are desperate for the money. They are renting 
it out to all comers. This is a situation which cries out for 
activity.
    The Nunn-Lugar program has been most successful in 
establishing some ties with these people.
    Now, Nunn-Lugar is not the solution to our whole problem. 
But if you look at it in terms of addressing these threats at 
their source whether it's nuclear, chemical, biological, the 
best avenue is still a relationship with Russians who have 
similar views as our own. And I would just say at the highest 
levels they do.
    Now, there's a dispute in Russia. We did not get it in this 
trip I just described into one place that I thought that I'd 
been promised by a Russian general because some of the military 
people still are resistant to seeing Americans entering these 
facilities. And there are some laboratories still receiving 
orders to keep producing more while the scientists are 
producing less and looking for peaceful jobs and looking out 
for their own financial security.
    But it's a fertile ground to at least try to understand who 
has done what and where it is.
    Now, all of the work that Nunn-Lugar has been doing is only 
a $17 million project. This doesn't denigrate any of these 
efforts, and I am a strong proponent of the Nunn-Lugar program 
as most of you are. I also believe the Nunn-Lugar-Domenici 
program, which has helped 120 cities in America understand what 
might hit them if something does and assisting first responders 
with training and table top exercises with policemen and 
sheriffs, hospital staff. So if our cities are attacked with 
biological weapons we can respond effectively.
    These efforts are tremendously important to avert panic and 
have credibility. But I just plead for a continued bipartisan 
quest on this. It is not going to work if these issues are 
politicized. But we all need to try to think through this by 
utilizing our country's best minds to determine what needs to 
be done and how we can enlist Russians.
    I just conclude by saying I suggested to Vice President 
Gore, when they had the Gore-Chernomyrdin meetings, that we 
seriously consider having some of our pharmaceutical companies 
or chemical companies purchase these laboratories, actually 
incorporate them with the scientists and all of the techniques 
and whatever else they have in the vaults.
    This is not a farfetched suggestion. But one reason it has 
not been appealing to the companies that I've talked to is just 
simply the general business conditions in Russia. The fact that 
they, really their legal system cannot support the contracts 
that would be required, property rights, the rest of it.
    So in a way we are hung up by the facts of real life in 
terms of commerce even while we are talking about the 
deadliness of these threats. But it's to be seen what we can do 
down the trail.
    It could very well be that we will come together in a 
commercial sense long before we come together in a security one 
because of the desires of these scientists, the assets they 
have.
    So I appreciate this hearing very much, Mr. Chairman. It's 
a profound subject upon which we can visit for days, because we 
are just scratching the surface of something that's terribly 
important. I think that responsible people can make a 
difference and are doing so really in this area, and I 
congratulate both Sam and Jim for wonderful testimony.
    Senator Nunn. Thank you very much. Mr. Chairman, if I could 
just throw out a gratuitous thought here in response to Senator 
Lugar's comments which I agree with and subscribe to 100 
percent. Front page story of New York Times yesterday and 
Washington Post in the last 2 or 3 days about the United States 
taking defensive steps to be able to guard against an attack by 
creating some offensive possibly what may be interpreted as 
offensive weapons.
    First of all, it's a tricky field the line between offense 
and defense. It's extremely difficult. And I do think we need 
to do some defensive things. So you have to know what you are 
going to be possibly hit by.
    But radical thoughts, some might call creative, some might 
call radical. We know we can't deal with biological threat. 
Those of us who have been to Russia know you can't deal with it 
without the cooperation of Russia.
    They have got the scientists. They have got the know-how. 
They probably know more about it than we do. They've developed 
the weapons.
    We also know that these scientists are in demand. We also 
know they don't have jobs. And we also know it's going to be 
hard to do it commercially, although we need to try.
    If we are going to do this kind of biological defensive 
work that some might suspect is offensive in other parts of the 
world, I think erroneously so, but nevertheless they might, and 
if they were doing it, we might, why not engage the Russians? 
Why not have President Bush say to President Putin, let's put 
some of our biological teams together and let's determine what 
you know and what we know. And let's work together to develop 
defenses. And let's employ your scientists while we are doing 
it.
    And then if that works, we could add allies and we could 
possibly even add China at some point. We've got to understand 
this is international and we are not going to solve it 
ourselves. And we've got to engage the Russians. And they know 
more about it than we do.
    Some of the very experiments we are trying to conduct I 
suspect, although I have not been briefed on this and I have 
not been provided except what I've read in the news reports--
some of these pathogens we are trying to develop the Russians 
probably already have.
    So radical thought but I would hope that your bipartisan-
type approach you might pose this and think about it. Because 
there to me is a real need here that we could turn it into a 
real opportunity.
    The Chairman. Senator, let me say and be just transparent 
about this, one of the reasons why I wanted to do this series 
of hearings after consulting with my colleagues on both sides 
of the aisle was that absent an awareness of the extent of the 
danger, there is the ability to continue to indulge ourselves 
on both sides of the aisle in our ideological folly and remain 
unwilling to cooperate, unwilling to deal with the Russians or 
deciding that we are going to focus only on one thing.
    The second thing is that I hope what will flow from this, 
and we have five of these hearings scheduled, and I want to 
thank you for your advice. In the interest of full disclosure, 
I had asked you, front end, unrelated to this hearing, how, if 
you were doing this, would you approach this whole series of 
hearings. There's a need for transparency here.
    One of the things that worries me the most, and I realize 
I'm a broken record on it--I apologize to my colleagues for 
this intervention--is that the unintended message that we are 
arguably sending to the rest of the world about our leadership 
in containing the spread of weapons of mass destruction is at 
best right now mixed.
    You can make very strong arguments against the ABM Treaty. 
You can make very strong arguments against the Biological 
Weapons Treaty. You can make very strong arguments against the 
Chemical Weapons Treaty. And they are all legitimate arguments.
    But the culmination and the accumulated effect worldwide of 
us focusing only on that part of the equation which we have 
been of late, I think, is frightening. Because I think what it 
does is send messages to other countries that say now our only 
alternative is to move in the direction that's counter 
intuitive and against our interest and their interest.
    I think one of the reasons for this series of hearings is 
hopefully people like both of you and others will come up with 
some far reaching ideas and notions and maybe even some of us 
that we can begin to change the atmospherics here. But they 
have got to be changed rapidly.
    The idea that we are only spending several million dollars 
or tens of millions of dollars on the Nunn-Lugar initiatives to 
me is mindless, absolutely mindless. And initially there was a 
cut in what we were going to spend in this area. A cut.
    Hopefully this will generate enough interest, take it out 
of the totally political realm. The fact that the chairman is 
suggesting that we do this in a bipartisan way we may be able 
to get some traction here. At least that's the hope. But 
anyway, no more editorial comment. I yield to my friend from 
Florida.
    Senator Nelson. I'm going to defer to my colleague from 
West Virginia, but let me just say, your radical suggestion, 
Senator Nunn, is common sense. This is why we are here. I yield 
to the gentleman.
    The Chairman. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. I thought 
that, Senator Nunn, your statement that they don't go after 
where they think you are strong but they go after where they 
think you are weak is a point. And in fact I think that it's 
nonclassified material from the intelligence organization sees 
at this point that there is a likelihood of chemical and 
biological attacks by the year 2015 some think 2010.
    I don't think it's in other words in the realm of we can't 
talk about it, which leads me to my second point which you also 
have made. And that is in a democracy you can have your 
leadership, you can have your Senate Foreign Relations 
Committee, Intelligence Committee, whatever, you can have them 
working on this. You can have people trying to come up with 
public policy.
    But until you have engaged the American people in as you 
call it the thin line between what is a reality of what we are 
facing as opposed to the problems of panic, I would tend to 
come down on the side of the former, that in a democracy where 
you fail to inform people of something which is likely to 
happen within a relatively short period of time is an enormous 
failure of leadership in and of itself.
    Which leads me to a couple of thoughts, and then your 
responses from both of you. There's been a lot of talk about 
Russia, and for good reason. But it was also true that when Aum 
Shinrikyo did their number back in 1995, 1996, whichever it 
was, they ended up using sarin. But it was not because they 
wanted to. They wanted to do biological, but they couldn't do 
it.
    That was 6 years ago. I don't know whether they could 
today. You know the Japanese Government went in and took out 
some of their stuff and they couldn't blow sarin from high and 
all that they wanted to do. But what they really wanted to do 
was biological.
    Japan is the most ordered society in the world. That's the 
opposite of everything we've been saying about Russia. 
Everything what we haven't been saying about what goes on when 
you have people that feel that they have nothing to lose in 
life, that the prospects of their future don't exist. They 
become desperate. The whole sort of little cells, the massive 
need for intelligence gathering that boggles the mind in and of 
itself, probably human intelligence.
    How do you possibly do that? But that you could have that 
in the most ordered society in the entire world and have them 
fail to do it, what they really wanted to do. What they did was 
bad enough but what they wanted to do they couldn't do. But 
that was a long time ago.
    So what would happen? The question I would pose to you, and 
I also can't stay for the second panel which grieves me because 
public health and the way we train doctors is an area of great 
interest of mine--the way we don't train doctors is an area of 
great interest of mine.
    We don't do geriatrics in half of our medical schools. We 
don't do compassionate care the last 6 months in half of our 
medical schools. You talk about preparing people to do this. I 
mean, you are really talking about a medical revolution in 
terms of their syllabus, one which I'm not sure they are 
prepared to take at this point; one, because they don't know 
that this is out there.
    I mean those who testified will, but that gets into the 
whole sort of leadership of it, and at this point or other 
elitist leadership; relatively small group. Seems to me the 
problem or the challenge is to get it out there to make it an 
attractive enough this lugubrious approach but to make it 
attractive enough so that it becomes either the subject of 
sitcoms or the subject of specials.
    It becomes the subject of speeches by all of us as a matter 
of public duty. When our constituents look at us and say what 
in heavens name are you talking about. When we are trying to 
get card of H-bill through the West Virginia eastern mountains 
to Washington, DC when you are talking about this stuff. Well, 
it may be that we not only have to do that but you also have to 
set up what you did on a 50 state basis.
    So there are 50 presidents. So they find out how they are 
not prepared. Now they are all strapped for cash. In my state 
all the cash that exists is going to flooding, and flooding in 
comparison to the consequences of all this in West Virginia 
would seem to me to be relatively small.
    I think that my people have, as do yours, the people have 
perfectly good sense to understand that if presented with this 
potential, and it's more than that, probability of this 
happening.
    The concept of somehow engaging the American process, the 
public health process, the medical association of American 
medical schools, the state governments in the same kind of 
scenario that you went through so that local press as well as 
the national press--which is loathe to cover things other than 
scandals--seems to me to be a terribly important part.
    We really don't have the time. One of the questions I want 
to ask you is how do you motivate people to create vaccines for 
needs which don't yet exist but will? Some you have said let's 
work with the Russians, and I agree with all of that.
    But it seems to me that gauging the American people in the 
probability of this happening and what it means to them and 
what has to happen all the way from public health to rural 
health clinics to National Guard and all the rest of it really 
strikes me as the most important thing we can do at this time. 
I would be interested in both your comments.
    Senator Nunn. I believe that public information is 
absolutely essential, and I think that we have to engage the 
health community. I agree with you completely. I think it has 
to be done by state by state and local community by local 
community.
    CSIS is thinking of ways now; John Hamre is not here today, 
but he was one of the real leaders in this, and I'm sure Tara 
O'Toole and the others are willing to work on this to take this 
war game on the road with some modifications and let others at 
the state level play this war game. Because it does bring home 
not only the need for planning but the need for coordination in 
advance.
    There's no question about that. On Aum Shinrikyo, when I 
was chairman of the Department of Investigations, we did 2 
years of work on that and sent people to Japan. One of the 
things that is still a challenge is that we have great 
relationship with the Japanese military and with the foreign 
policy team in Japan, but we don't have very much communication 
with their police force.
    The police force knew about Aum Shinrikyo. Their 
intelligence and military people, if they knew, didn't tell us.
    Here you have a huge organization, something like a billion 
dollars in assets, having conducted experiments against sheep 
in Australia, on land in Australia, having sent people to 
Africa to try to pick up the Ebola virus so they could use it; 
they had helicopters in compounds; they had already carried out 
chemical attacks in other parts of Tokyo; they had an office in 
New York City trying to get U.S. technology.
    All of that was going on. We had I don't know how many 
thousand members of the Russian--and it had never, ever come to 
the attention of our CIA or our FBI. You would think that would 
be almost impossible, but it happened. And in a country as you 
observed that would be the least likely for it to have 
happened.
    So we really got to focus on these things more. I think we 
are in a new security environment but we haven't gotten rid of 
some of the old security environment. We can't get rid of them. 
Some of the challenges are still there. So we are straddling in 
between.
    But we really have to focus more on these items. And it's a 
different kind of definition of security now than it was when I 
came to the United States Senate.
    Mr. Woolsey. I agree with Sam Nunn's answer substantially, 
Senator Rockefeller. I think that your comparison between 
Russia and Japan makes the main point. If something like Aum 
could happen in Japan, it's so much more likely that you are 
going to have leakage from these Russian laboratories to, let's 
say, Mideast terrorist groups or to Government of Iraq than 
would have occurred in this very ordered Japanese society.
    That states the essence of the problem. I certainly also 
agree that trying to get the Russians involved in offensive and 
defensive cooperative work to my mind is an excellent 
suggestion; and it illustrates a difference, if I may say so, 
between this biological threat and a lot of other areas that we 
are used to dealing with.
    Just as a lot of the things that people do wrong in their 
lives are not necessarily susceptible to legislation, not 
everything that goes wrong in international affairs is 
susceptible to verifiable arms control agreements.
    I've been an advisor, delegate or ambassador and chief 
negotiator five times in negotiations with the Soviet Union and 
other countries on arms control during the cold war. But I've 
got to say I think this biological weapons issue and the 
verification of it is an extraordinarily difficult matter.
    It may make more sense to focus our effort on things like 
what Senator Nunn suggested in working with the Russians than 
on trying to split the hairs of how we could have some type of 
effective verification for something that can be carried around 
in trucks by Saddam's guards. So I very much agree with the 
thrust of your comments and also Senator Nunn's answer.
    The Chairman. Thank you.
    Senator Nelson. Mr. Chairman, I'm ready to go to work. I'm 
sufficiently in the crisis mode as a result of what's been said 
here, and I guess this was brought home to me a couple weeks 
ago when I got on the airplane to go to Johannesburg and all of 
a sudden the flight attendants were walking up and down the 
aisle with spray cans.
    That hasn't happened to me in a long time on a closed 
airplane. It brought home some of the things that you have 
suggested. So let's start with something that we could try to 
do right now about this.
    The administration has requested $182 million for 
bioterrorism preparedness and another $94 million for the 
contribution of our country to the World Health Organization.
    What would you all recommend that that be boosted to? And 
then, Mr. Chairman, let's talk about how we go about getting 
that into the appropriations bill.
    Mr. Woolsey. Senator Nelson, I am not real up to speed on 
exactly what the funds are being used for, but I want to stress 
one thing; there are some very important things to do that 
don't take much money. Changing the CIA guidelines that I 
described would help us be able to penetrate the terrorist 
groups better; having a hard look at the FBI guidelines; 
passing a statute which bans possession, not only transmittal 
of some of these biological agents; establishing relationships 
with industry in this country and overseas, so that you learn 
whenever someone orders a fermentor of a particular type or 
something is ordered to go to a destination that is new and 
different. What you really want to do is enlist the marketing 
and sales people of companies that deal in some of these types 
of equipment as friendly colleagues of the United States 
Government, so when they get a strange order they call up and 
say, ``you know, this one just doesn't seem quite right to 
me.'' And then someone can look into it.
    There are a number of steps like that that need to be taken 
that don't cost a lot. Some of them cost a bit, added people, 
but if you are looking at major programs and increases for 
major programs, I can't think of any area that's more important 
than the area that Senator Nunn and Senator Lugar pioneered and 
which came out of this colloquy earlier about dealing with 
Russian science.
    Russia is a democracy. It's a troubled democracy; but, so 
far at least, it's on this side of the line. It has an elected 
Duma; it has an elected President, and it has the mother of all 
cold war arsenals for weapons of mass destruction.
    Everything in one way or another has been generated in its 
laboratories. Of course people like the North Koreans pick it 
up and pass it on, and the Chinese, and so on. But Russia is 
the font of most of the technology that we are worried about.
    One needs, as was said in a different context some years 
ago, to go to the source. One needs to start working as closely 
as possible with President Putin and the Russian Government and 
spend the money to do it in a lot of these areas of 
cooperation--keeping the Russian scientists and Russian 
technology out of the channels which they might otherwise tend 
toward, be it via organized crime or otherwise, to supply to 
Iraq, to North Korea, to Iran and the like.
    To my mind that ought to be the focus of where the new 
money goes. But that's off the top of my head. I have not made 
a thorough study of this.
    Senator Nunn. I would agree with Jim Woolsey on that, 
Senator Nelson. I would also add that I think the next panel 
will probably have thought more about budgetary aspects than 
this panel.
    But I do believe that one thing that's probably not a 
Federal Government budget but I think government could 
encourage it. When we had Three Mile Island in this country, 
the nuclear industry came together and formed a group to do 
peer reviews on nothing but safety.
    They themselves took the initiative, not government money. 
When Chernoble happened, they formed a similar organization in 
Moscow that is worldwide on the nuclear side, peer review 
safety.
    To my knowledge there's no such thing in the pharmaceutical 
community around the globe. Now I'm sure that the initial 
reaction would be to the pharmaceutical industry probably we 
don't want it, don't need it, so forth, so on. But I'm talking 
about a voluntary association.
    The first time we have a biological attack, people are 
going to be demanding that government solve it. It would seem 
to me that our friends in the pharmaceutical industry would be 
wise to have their own organization now that deals with safety 
and peer review and standards and best practices to deal with 
these pathogens. Because there's not that now.
    It's hit and miss. So that's one area that doesn't 
necessarily require government money. On the government money 
side, I think public health. I think infectious disease problem 
is here.
    My experts tell me that for 20 years infectious disease 
rates went down in the United States. The last 15 years they 
have gone up 2, 3, 4 percent a year. I'm not sure of the 
statistics.
    We've got this problem even beyond biological terrorism. I 
think surge capability in hospitals, as we move toward more 
efficiency in hospitals without any excess beds where we can 
avoid it, and that makes sense economically, somebody has got 
to step in and say we need surge capability.
    The government's probably going to have to pay for it to 
deal with this kind of emergency or other kinds of emergencies. 
That's another probably big budget item.
    We already are doing research on vaccines. We certainly 
need to accelerate in every way possible the vaccine supply, 
the smallpox vaccine supply as well as others. We need to make 
sure we have the kind of stockpile that would allow us to deal 
with emergency. And only the government can do that.
    There are a whole list of things here that I think only the 
government can do. We need much better training, public health 
and doctors and nurses and people in drugstores so that when 
they see symptoms recurring, they report them. We need a 
communication capability in this country to begin with so that 
we have somebody who collects this data, knows when something 
goes wrong. Then we need to plug it into the World Health 
Organization to make sure WHO is doing their job around the 
globe and helping with resources where they are not.
    We need to get other countries involved. All of those 
things to me are on the must list.
    Mr. Woolsey. Senator, also could I mention one more point 
that I think is quite relevant here. A relatively low cost but 
very important thing to do is to get clear all of the legal 
authorities that the Federal, state and local governments have 
so this is readily accessible to people.
    Who can close airports? Who can do what with respect to 
quarantines and the like? Because the problem here is when 
things get out of hand--and they did in ``Dark Winter,'' you 
had this feeling that the country was panicking.
    In spite of everything President Nunn could do with his 
ineffective advisors such as the Director of Central 
Intelligence, nonetheless----
    Senator Nunn. Let's face it. We were failures.
    Mr. Woolsey [continuing]. We were in bad shape. When people 
panic they do really bad things. My favorite illustration of 
this is what was probably the principal action by the Federal 
Government in the 20th century that in retrospect was the 
greatest infringement on civil liberties of Americans--the 
incarceration of the Nissei, the Japanese Americans, in 1942.
    Three people who were very heavily responsible for that 
were Franklin Delano Roosevelt, Earl Warren, then Attorney 
General of California running for Governor, and Hugo Black, who 
wrote the decision that upheld it. Those were probably the 
three greatest names in supporting civil liberties in the 20th 
century in America.
    Even people who are strong supporters of civil liberties, 
when they get scared, can do some really bad things. If in 
advance we can get clear what the legal authorities are, who 
can act, when they can act, what added authority they need, the 
Constitution is flexible enough to permit people, the President 
and others, to have extraordinary powers in extraordinary 
circumstances.
    But it needs to be thought through ahead of time. If you 
let it get to the point where people panic, even good people 
can do some really terrible things.
    Senator Nelson. Mr. Chairman, following up to Senator 
Nunn's comments about the pharmaceutical companies, I was quite 
intrigued to hear Senator Lugar talk about the possibility of 
developing some kind of incentive program for American 
pharmaceutical companies and working with our counterparts in 
Russia.
    As we continue to deliberate on this, I would like to pick 
up on Senator Lugar's comments. And let's examine that as well.
    The Chairman. Thank you. Gentlemen, we have a thousand 
questions for you. Let me just ask you a generic point, ask for 
your help. I'd like to be able to--we'd like to be able to seek 
advice from you as to who on the team that did ``Dark Winter'' 
can give us some really nuts and bolts recommendations, for 
example, or outlining in detail the problems for example on 
legal authority.
    You know, if you can tell us who we can talk to, we can 
avoid dropping all this on each of you. I am going to seek to 
have the administration come and testify on this issue and 
others at the culmination of these hearings. Because quite 
frankly all that we talked about, there needs to be leadership 
from the top here. I'm not laying this on the administration. 
I'm not making that case.
    But somewhere along the line, the Secretary of Defense, the 
Secretary of State, the National Security Advisor, the 
President of the United States have to get a sense of and state 
the sense of there's a lot of urgency that exists here, and 
what they think should be done.
    We, Senator Lugar and I, I think they expected it from me 
and they were shocked at Senator Lugar--how exercised he 
became--when administration witnesses were here and we looked 
at the Nunn-Lugar figures in the budget. They didn't pay much 
attention to me but they paid very close attention to Senator 
Lugar very quickly.
    But there are numbers that we can put in here, without a 
whole lot of additional thought, that cost a lot of money but 
that we know from past experience are needed now.
    We also know that there are needed changes as you say, Jim, 
on guidelines. For example I introduced a bill last year, I 
don't want to turn this into who did what, but just to give you 
an idea like posse comitatus debates, we found people we never 
thought were going to be our major, you know, opposition.
    We have a black helicopter crowd suddenly emerge. Well, I 
introduced a bill, I'm not joking. That was literally true. I 
introduced a bill last year on pathogen control. And right now, 
I mean, I thought it was a slam dunk.
    I've been the chairman of the Judiciary Committee for 
years. I introduced it, thought I'd get a hearing. Why wouldn't 
I get a hearing? I've been here 28 years. I know this stuff 
pretty well.
    Every major criminal justice piece of legislation I've 
either authored or co-authored for the last 15 years. Didn't 
get a hearing. The only law on the books deals with the 
development of possession of toxin agents for, quote, use as 
weapons, end quote. That's all.
    So, I just had a little bill to amend the Federal Criminal 
Code to make it unlawful to possess these biological agents, 
toxins or delivery systems, handling such items in a manner 
that would grossly deviate from accepted norms and knowing that 
communicating false information, trying to get for example 
these various companies to say, hey, look, we've got these 
funny calls, these salesmen saying I've got twelve calls from 
someplace in the middle of wherever and all of sudden, nothing 
happened.
    It's a little bit like that, I mean, all it did was create 
a maximum penalty of 10 years. It wasn't like this was rocket 
science, no pun intended. So I think, and that's why I came 
around to this whole thing. I just warn everybody in the press 
and everybody in the Congress, this committee is going to spend 
a lot of time talking about this and similar issues. Because it 
seems there's nowhere else to raise the profile of good 
citizens and experts like all of you who are out there doing 
these exercises and trying to get public awareness. It seems to 
me we've got to get awareness here.
    We've got to get awareness downtown. We've got to get 
awareness up here. Democrats and Republicans, by the way. This 
has nothing to do with partisanship.
    And so I'm going to be spending a lot of time because I can 
learn a lot, I'm not being solicitous, from Senator Lugar as to 
what it is that we should be trying to put in to the 
appropriation bills that deal with what we know.
    What we know right now are big holes that don't require new 
thinking, just require funding. And we are going to be having, 
God willing, the creek not rising, the administration willing 
to come up here and have the Secretary of Defense, I realize, 
Sam, you can't have the Secretary Defenses come before the 
Foreign Relations Committee, but he's going to come. We are 
going to ask him to come. There's going to be an embarrassing 
situation if he dosen't come.
    Senator Nunn. It wouldn't bother him as much now as it 
might have years ago.
    The Chairman. And I'm willing to do these jointly with the 
Armed Service Committee. But the bottom line is you have 
continued to perform a great public service, both of you. And I 
will, from time to time, more than you might want, be 
contacting you fellows. And I'm sure, and we are going to try 
to do this jointly, so we don't make repetitive requests of you 
as to figure out how to just get this up on the agenda.
    Everybody knows it's there. It's like everything else in 
public life. Until there's a crisis, until something terrible 
happens--I don't know whether it's conscious avoidance or 
subconscious avoidance--but we just don't focus on it. And I 
think we are sending a message to the rest of the world that 
all of a sudden this nation that has been the leader for three 
decades, Democrat and Republican Presidents, in dealing with 
nonproliferation, dealing with all these issues; we seem to, I 
think unintendedly, I think it's unintended, we seem to have 
walked away.
    I mean the perception, I don't know about you, Senator 
Lugar, and you guys travel all over the world. I'm going to 
tell you, every place I go from my recent trip to the Far East 
to Europe, first question that I get from my counterparts, 
allies and adversaries alike is, ``What's going on?'' What's 
going on.
    And I think the perception matters. Because it amazes me as 
you both know how every other nation in the world thinks we 
don't do anything by accident. They think everything we do is 
calculated and thought out. They think we are capable of things 
we don't think we are capable of.
    And they ascribe motivations to what we are doing that I 
think exceed what is intended, but they become self-fulfilling. 
So anyway. Do you have any comments?
    Senator Lugar. Just a short comment of support, Mr. 
Chairman. I appreciate your having this hearing and the ones 
you are going to have. In defense partially of the 
administration, my impression again and again is that they are 
still engaged in planning.
    The quadrennial review or large strategic planning and 
therefore have not been prepared to visit with us and answer 
our questions. But I would certainly work with you to encourage 
them to do that. Because I found this anecdotally, and I 
mention this because the Russians have much the same problem.
    I was invited by Secretary Rumsfeld, and I appreciated 
this, to the luncheon for the Russian group discussing missile 
defense, led by General Baluyevsky. We laid out the national 
missile defense architecture and our view of the world and 
threats facing our country.
    And the Russians took this in. And they took this in again 
when Secretary Rumsfeld and Mr. Bolton visited Moscow. This was 
the third round consultations. And they are prepared to do 
more.
    But at the same time when I saw General Baluyevsky in 
Moscow and I saw General Dvorkin, who's retired but is well-
known to all of you, they said they are waiting to know how 
many nuclear warheads we are prepared to destroy. And this is 
an interesting issue at least for them, because they want to 
reduce their nuclear weapons very substantially.
    It means a lot more Nunn-Lugar activities and expenses, 
because the cost of going from 6,000 warheads to 1,500 is huge. 
And it's not just pushing pencils over paper and strategic 
thinking. This gets to the nitty-gritty efforts to physically 
remove warheads from missiles, disassembling the missiles, 
storing the material, keeping it safe from whomever, and all 
the rest of this.
    But the Russians are prepared to talk about that. Now, our 
country is not prepared for these discussions at this point. 
Our Department of Defense will report on this issue later this 
year.
    So I would just say that in due course during this fall we 
will be debating these issues, and this will be of immense 
interest to the Senate as well as to the Russians. And I would 
just say finally, General Dvorkin in a moment of candor after a 
long dinner was even prepared to analyze the ABM Treaty and how 
you do boost phased intercepts within the ABM Treaty.
    Now this is a much more extensive proposal than I have 
heard in the past. I don't know if it's possible. But the fact 
that General Dvorkin who is advising Marshall Sergeyev who is 
advising Putin, despite the fact that Marshall Sergeyev is no 
longer head of defense, he's at the ear of the leader about 
this whole business.
    It is interesting that Russia has done this degree of 
analysis, a good bit more than we have in this committee or 
maybe even in our Department of Defense has been doing. So I 
find this to be encouraging that there are people to talk to 
here and there.
    I appreciate an opportunity for one more interlude with 
this, Mr. Chairman. Your leadership in calling this together is 
much appreciated.
    The Chairman. Well, as Director Woolsey may remember, I 
appeared before a group of which he's a member and indicated 
that I had been the contact with the Russians and I thought 
they were interested in boost phase and they would actually 
entertain it if we were serious. And the irony is here we are 
now beginning the negotiation that is contingent upon, agreed 
it is, contingent upon reduction of offensive forces as well as 
eliminating or amending the ABM and we don't have a number yet.
    And we are now saying, unless they come up with an 
agreement quickly, we are going to maybe have to act 
unilaterally. I just caution a little patience here, a little 
patience.
    The Senator is correct. The review is on the way. I have 
not been publicly critical of this administration, because I 
think it's overwhelmingly difficult for them to try to assess 
where they are and what they should do and what need be done.
    What I am critical of is assertions made with such 
definitiveness about what they are going to do before they have 
done their assessment. And so I just caution a little patience 
here, a little patience.
    We shouldn't be discarding or amending a doctrine that's 
worked relatively well for us unless we know a little bit about 
what we are going to put in its place. So we should just tone 
this down just a little bit. But anyway, you guys didn't need 
to hear that editorial comment, and I hope you'll continue to 
not only editorialize but recommend to us what you think we 
should be doing.
    We need help. We need help. And I think it's the time for 
calm, cool, collected surveillance of what's out there and a 
decision on how to approach it and the bipartisan attempt to 
deal with it. And I can think of no two better guys. And, Sam, 
thanks for your overall help on this. I warn you I'll be back 
on this. I need a lot more. Thank you both.
    Mr. Woolsey. Thank you.
    Senator Nunn. Thank you, Mr. Chairman, Senator Lugar, for 
your continued excellent leadership on behalf of our Nation and 
the world. Both of you have been stalwarts for a long, long 
time. Mr. Lugar is a relative newcomer but he has been here a 
few years.
    Mr. Woolsey. I completely second all that except the 
business about the newcomer.
    The Chairman. Well, thank you both.
    We now have the distinguished expert panel. A second panel 
will discuss the strengthening of the domestic and 
international capability to prevent and defend against 
intentional and natural disease outbreaks.
    Our group of witnesses today include some of the foremost 
experts in bioterrorism, the threat of infectious disease and 
homeland defense.
    Dr. D.A. Henderson, director of the Center for Civilian 
Biodefense Studies at Johns Hopkins University, led the World 
Health Organization campaign in the 1970s to achieve the 
virtual eradication of naturally occurring smallpox.
    For that, Dr. Henderson deserves the heartfelt thanks of 
the entire world for stopping one of humanity's greatest 
scourges. Today he is focusing his energies on the growing 
threat of bioterrorism and what we as a Nation can do to 
respond to that threat.
    Dr. Fred Ikle, a distinguished scholar at the Center for 
Strategic and International Studies, is a former Under 
Secretary of Defense for Policy under President Reagan. He has 
also served as Director of the Arms Control and Disarmament 
Agency.
    Dr. Ikle can and will discuss with the committee the 
challenge of the homeland defense as they relate to tackling 
the threat of biological terrorism.
    Dr. David L. Heymann is the Executive Director for 
Communicable Diseases in the World Health Organization and can 
share with the committee comments on how the international 
community can better mobilize the prevention and containment of 
natural epidemics and infectious diseases. I'm sure Dr. Heymann 
will note that the strategies that work against naturally 
occurring outbreaks can also work against manmade epidemics.
    And our final witness will be Dr. Frank Cilluffo, a senior 
policy analyst with the Center for Strategic and International 
Studies, who authored a very impressive report last year on 
combating nuclear and chemical and biological terrorism. The 
quality of our witnesses today should ensure a lively 
discussion on what steps the United States should take in 
concert with the international community to combat the threat 
of bioterrorism and the natural spread of infectious diseases.
    Before we begin, allow me to make part of the hearing 
record the statement of the Pan American Health Organization on 
the threat posed right here in our own hemisphere by emerging 
infectious diseases, including cholera and the bubonic plague. 
This statement also lays out the strategies needed for greater 
hemispheric cooperation.
    [The statement referred to follows:]

       Prepared Statement of the Pan American Health Organization

    The Pan American Health Organization (PAHO) would like to thank the 
members of the United States Senate for allowing the Organization to 
submit a statement today on emerging and reemerging infectious diseases 
surveillance and control.
    The Pan American Health Organization is the oldest continuously 
operating health agency in the world. It was founded in Washington, 
D.C. in 1902. It has 35 Member States from the Americas, three 
Participating Governments, and one Associate Member Government. The 
United States is an original founder. PAHO cooperates with Member 
States, individually and collectively, in designing and implementing 
measures to improve the health of their populations.
    We would like to provide you with information about the present 
capacity of countries in this Region to prevent and control disease 
outbreaks and of strategies and activities in place for improvement.
    The ability to detect risks and diseases, and access and respond to 
data is an essential public health function for establishing a line of 
defense and response to infectious diseases. An effective public health 
infrastructure is required. For health systems in the Region, 
especially in developing countries, with difficulties in implementing 
routine and sentinel disease surveillance, the challenge of detecting 
and responding to the emergence of new organisms, disease outbreaks, 
and anti-microbial resistance is substantial.
    The tremendous advance in communications technology is playing an 
increasingly important role. Many more people are aware of disease 
outbreaks occurring all around the world. The variety of sources of 
information increases the potential for distortion of the situation and 
the misunderstanding of risks.
    The globalization of infectious diseases is not a new phenomenon. 
However, increased population movements, whether through tourism or 
migration, or as a result of disasters, growth in international trade 
of food and biologicals, social and environmental changes linked with 
urbanization, deforestation and alterations in climate, and changes in 
methods of food processing, distribution and consumer habits have made 
infectious disease events in one country a potential concern for the 
entire world.
    In the Americas, an adult pulmonary distress syndrome and its 
etiological agent, the Sin nombre virus, later recognized as a 
hantavirus, provoked an outbreak in the State of New Mexico, United 
States, which attracted great media attention. Other hantaviruses 
causing disease and death have been identified in the Southern Cone. 
These events are widely known to the public. However, other such 
threats remain ignored. Since 1993, mass media outlets have provided 
the public all over the world with information on new and old threats 
of disease: Ebola virus in Africa and plague in India have dominated 
the news for several weeks. By comparison, a cholera epidemic in the 
Americas during that same year--some three years after cholera was 
introduced to the Americas following an absence of a century--received 
little attention. Likewise, the press reported little on outbreaks of 
bubonic plague that have affected Peru since 1992. In fact, the latter 
epidemic remained ignored by the media as late as 1995, by which time 
there were already 2,000 cases with 90 deaths. In the 1980s, Aedes 
aegypti, the mosquito vector of dengue, returned with a vengeance and 
was responsible for an epidemic in Cuba that caused thousands of cases 
of dengue and hundreds of deaths from dengue hemorrhagic fever. Since 
then, over 2 million cases of dengue have been reported in the region, 
with countries such as El Salvador and Ecuador in 2000 and Venezuela in 
2001 declaring national states of emergency.
    Other significant emerging and reemerging conditions include Lyme 
disease, diarrhea caused by cryptosporidia, and illness caused by 
Escherichia coli O157:H7 in the United States; yellow fever in Brazil; 
drug-resistant Plasmodium falciparum malaria in areas of the Amazon, 
and wide-spread antibiotic resistance in several species of bacteria.
    Epidemics become urgent events of national and international public 
health importance as the result of a combination of factors, including 
insufficient national capacity to recognize disease events in a timely 
manner, to deploy trained personnel to investigate and confirm 
suspected reports, to identify the causal pathogen in the laboratory, 
and to contain the spread of the disease. Hence, the absence of correct 
information, misinformation and inconsistency in the information 
available to the public and other national governments result in 
overreaction to media coverage and subsequent internal pressure on 
governments to respond. Moreover, fear of costly repercussions if 
disease events are notified has hindered the opportunity for 
collaboration in addressing emergency situations efficiently.
    Health sector reform and the political and administrative 
decentralization that accompanies it are under way in most countries of 
the Americas and is affecting the response capacity of countries. This 
process profoundly alters the management, organization, provision and 
financing of the health services, redefining the functions of the 
central, regional and local governments for both individual and 
collective health care. This transition has exposed capacity weaknesses 
in regulatory and policy issues, and the quality control of services. 
It has also revealed management deficiencies at central and provincial 
levels and resulted in the non-replacement of aging physical 
infrastructure, including laboratories and information/communication 
systems.
    Countries have recognized the need for creating early warning and 
rapid response systems for acute communicable diseases of high epidemic 
potential. However, multiple factors of political, technical, and 
financial nature have resulted in limited progress in countries' 
capacity to detect, investigate, diagnose, and control those diseases. 
The repeated occurrence of outbreaks or epidemics caused by a 
multiplicity of agents poses new challenges to the health services in 
the majority of the countries.
    A core of technical competencies is needed for epidemic alert and 
response at country level, which in turn strengthen regional and global 
surveillance mechanisms. The Pan American Health Organization is 
promoting a three-pronged approach to deal with the health threats of 
emerging infectious diseases: emerging disease/syndrome surveillance; 
outbreak detection and response; and antimicrobial resistance 
surveillance and prevention. Strengthening of public health laboratory 
infrastructure will provide support to this approach.
    The strategies adopted foster horizontal cooperation and 
coordination, especially among countries in the same subregion. Three 
subregional networks for surveillance of emerging and reemerging 
infectious diseases have been established, one in the Amazon region, 
one in the Southern Cone and another in Central America (including the 
Dominican Republic and Haiti). These are subregional initiatives, which 
have been sponsored by the Organization in collaboration with the 
United States Centers for Disease Control and Prevention (CDC). A 
fourth network specifically for the surveillance of anti-microbial 
resistance is also operational.
    At country level PAHO has proposed a strategy geared to 
strengthening national, provincial and local institutions responsible 
for infectious diseases surveillance, and response policy and practice. 
Fulfillment of this essential public health function requires in-
country coordination among various services and health institutions 
responsible for epidemiology, laboratory, medical care, quality control 
of water, food safety, disaster preparedness, human resources training, 
health information and social communication.
    Countries are being stimulated and supported by PAHO and partner 
agencies to assess the current capacity of their public health services 
for surveillance and response to epidemic situations and to prepare and 
implement national plans of action to improve the performance of 
national public health systems to detect, investigate, confirm, 
intervene and disseminate information.
    The above mentioned assessments will serve as review of each 
country's vulnerability to the occurrence of epidemics caused by the 
emerging and reemerging diseases, identifying areas and populations at 
risk and determining the strengths and weaknesses for surveillance, 
prevention and control. This will lead to plans that address these 
identified deficiencies in the infrastructure of the clinical, 
epidemiological and laboratory services in terms of: a) norms and 
procedures (regulations and guidelines); b) administrative management; 
c) coordination and communication; d) training; and e) technology 
(information, diagnostic equipment and supplies).
    As part of our work, the International Health Regulations (IHR), 
the legal framework for global surveillance and response, is being 
revised and updated, in accordance with the World Health Assembly (WHA) 
resolution of 1995, so it will be more applicable to the epidemiology 
of communicable diseases and the scale of international traffic and 
trade in the 21st century, and go further to prevent the international 
concern and uncertainty which has occurred during the epidemics of 
cholera, yellow fever, plague, dengue hemorrhagic fever and avian flu. 
The new IHR will contain functional and effective templates for 
national surveillance as well as response processes for international 
disease threats and the harmonization of control measures. The IHR 
builds on the inexorable link between national and global surveillance 
for diseases. The WHA was fully aware that the strengthening of 
epidemiological and laboratory surveillance and of disease control 
activities at national level (i.e., where diseases occur) is the main 
defense against the international spread of communicable disease.
    In confronting infectious diseases we must not fail to recognize 
that diseases formerly under control are reemerging because of 
complacency--dengue is one example--and a revival of others has been 
triggered by the collapse of public health systems because of economic 
and social crises. When we add the potential for disease occurrence 
from such factors as ecological change, climate events such as the El 
Nino Southern Oscillation, natural disasters such as Hurricanes Mitch 
and Georges, and the increased flow of refugees and displaced persons, 
the resurgence and emergence of infectious diseases is indeed a threat 
to us all. Only with a concerted, serious regional and global effort 
can we continue to build the structures we need to identify, prevent 
and control these threats and work together to build a safer world in 
the 21st century.

    The Chairman. Now in the order of protocol, and because 
he's probably testified before this committee more than anyone 
on the panel, the order should be Dr. Ikle, Dr. Henderson, Dr. 
Heymann and then Mr. Cilluffo.
    Dr. Ikle.

 STATEMENT OF DR. FRED C. IKLE, DISTINGUISHED SCHOLAR, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Ikle. Thank you. Mr. Chairman, I can be very brief for 
two reasons. It's late in the hour but more importantly the 
previous testimony has made all the points I agree with. I 
think there's so much value in there that I can totally support 
what has been said by Senator Nunn and Jim Woolsey. So I will 
mention just a few selected points from my short opening 
statement which has been submitted for the record.
    One point, the difference between biological weapons and 
nuclear weapons in this context. First, we know much more about 
the nuclear weapons effects than we know about the effects of 
biological weapons. Some of us remember the thick handbooks on 
nuclear weapons effects that were put out by the U.S. 
Government. Scientifically these effects are easier to predict. 
It's more precise. And there were many, many tests on nuclear 
weapon effects in the 1950s.
    And also, second, once a nuclear detonation has started, 
there's nothing you can do to escape the deadly energy that 
escapes from a detonation unless you are far away or deep 
underground. By contrast, as we discussed in the previous 
testimony, after the biological attack has started, there's a 
great deal you can do, if you are prepared for it, to mitigate 
the disaster.
    Moreover--another distinction--it is easier to detect 
nuclear weapons than biological ones, both in the manufacturing 
process and development, and importantly if they should be 
smuggled. We have good equipment, not enough of it but good 
equipment, to detect smuggled nuclear weapons. It's almost 
impossible to do that for biological agents.
    Now let me shift to what can be done. A few points, and 
again I support what has been said before, so I can be brief. 
We must not expect much from arms control but we must not trash 
every arms control treaty in this connection. I have argued 
against what I consider a deeply mistaken attempt to make a 
Biological Weapons Convention verifiable with the so-called 
Protocol, which the administration has now said that the United 
States would not proceed on.
    But I am prepared to argue the value, the limited value, of 
the two treatises that do prohibit biological warfare. The 1925 
treaty which is one of the best arms control treatises, only 
half a page long--the Geneva protocol that prohibits biological 
warfare as well as prevents gas warfare. And then the 1972 
treaty, the Biological Weapons Convention.
    I took that treaty to the--I submitted that treaty on 
behalf of the Ford administration in 1974 to this committee, 
then chaired by Senator Fulbright. The committee debated about 
it for 2 minutes. And I did mention that it was not verifiable, 
but recommended without qualification that it would be a useful 
treaty to have. I still feel that is the correct point to make.
    The other need is remedial measures. Many have been 
discussed and the ideas are around; but action on it has been 
hesitant. I think we should realize (a hint has been made to 
this effect) that not much will happen till we have experienced 
a disaster of this kind, that our country and our society has 
to take this in two stages.
    We try to do what we can do now, but we surely must be 
prepared that if something happens and we have the shock and 
then the willpower, and also the experience what ought to have 
been done before, to do more after the first, hopefully not so 
large attack. We must be ready to surge ahead immediately, 
prepared to pick up on the things we knew we should be doing; 
but for some reason couldn't get the budget, couldn't get the 
will power, or couldn't get the organization to do it.
    So now if I talk to people in government on this issue I 
recommend a two-stage approach. Do what you can put together 
now, but in particular work on the surge capability so you have 
taken care of the long lead items and you can then respond at a 
time when obviously public anxiety would be much greater but 
probably also the danger would be greater because the fire 
break has been crossed.
    The last point I will make is on the question of legal 
authority, posse comitatus,  etc. I have a small piece of good 
news; CSIS had a study going, and an excellent lawyer has 
worked on this. That senior lawyer happens to have now a very 
senior position in the administration. I'm trying to get the 
publication finished in the next few weeks. Given that it's the 
thinking that is represented in the administration and will be 
made public, I think it will have an impact.
    I think it will once and for all dispose of this phony 
problem of posse comitatus and related legal restrictions. The 
legal powers that the U.S. Government has under the 
Constitution are sufficient to cope with all the emergencies 
that have been discussed. So we'll have the publication to you 
as soon as possible.
    Senator Biden, you had to step out.
    The Chairman. I apologize.
    Dr. Ikle. One piece of good news, we had the publication 
prepared by senior competent lawyers on the legal authority. 
And the punchline is there's enough legal authority existing 
under the Constitution to cope with all these situations. The 
posse comitatus question is a phony argument.
    [The prepared statement of Dr. Ikle follows:]

                Prepared Statement of Hon. Fred C. Ikle

              coping with the threat of biological attacks
    Mr. Chairman, thank you for the opportunity to testify before your 
committee. The previous witnesses have reminded us of the horrible 
suffering, deaths, and disease that might be inflicted with biological 
weapons. I will address how the United States should cope with this 
threat, and I will focus on the danger of such attacks on the territory 
of the United States, rather than on U.S. forces deployed overseas. The 
threat to our military forces that are deployed overseas is a vital 
concern for the Defense Department, and it has received more attention 
than the risk of biological attack somewhere within U.S. territory.
    During the last ten years a great many studies about biological 
attacks have been produced, Congressional committees have held 
hearings, and increased funding has been provided to cope with this 
risk. Also, the Clinton administration has taken some organizational 
steps. Doubtless, the present administration will seek to advance our 
preparedness further.
    First, let me start with the problem of anticipating the effects of 
biological attacks--the medicinal, psychological and social effects. 
Exercises, like the one on which you were briefed this morning, warn us 
of the horror and social chaos that might result from such an attack. 
The difficulties of predicting these effects are greater than for 
nuclear weapons. In the 1950s, our government published thick handbooks 
on the effects of nuclear weapons, based on extensive tests and 
scientific calculations. A nuclear detonation is a physical event of 
brute force with many predictable consequences. The dispersal of 
biological agents that might spread illness or death among a population 
is much less predictable, in terms of the area into which effective 
doses of the agent would spread, as well as in terms of the actual 
medical effects. And very few scientific tests have been conducted that 
shed much light on these gruesome possibilities.
    Second, how can we know the capabilities for such attacks in 
potentially hostile hands, can they be discovered by our intelligence 
community? We have learned from the United Nations inspection effort in 
Iraq how difficult and unreliable the knowledge is likely to be about 
hostile bio-capabilities in a tightly controlled dictatorship. And that 
UN inspection effort initially benefited from an unusual degree of 
access within Iraq. No international inspection effort in North Korea 
was ever given that much access. Furthermore, in the future, our 
intelligence assessments will probably face growing uncertainties 
regarding new agents that could be bio-engineered to cause even greater 
havoc than natural agents, such as anthrax or smallpox.
    Third, what can be done to avert or to cope with this awesome 
danger? Basically, our government has four types of tools: 
intelligence, the threat of retaliation to deter, diplomacy (including 
arms control), and remedial measures to mitigate the impact.
    (A) Intelligence is, of course, critical, to intercept an attack 
that's in progress and to render it harmless. It helps if the enemy 
makes mistakes, by giving us advance warning or by stumbling in the 
attempted execution of the attack. And some good luck helps us, too, as 
was the case with the terrorist high explosive attacks that had been 
planned to hit the celebrations for the new millennium, January 1, 
2000.
    (B) Deterrence cannot work, unless the perpetrators fear that our 
intelligence capabilities might succeed in identifying them, at least 
after the attack, if not before. An unknown perpetrator cannot easily 
be destroyed. Also, if our intelligence leaves too much room for doubt 
as to the ultimately responsible perpetrators, and if the tentatively 
accused are not easy to reach, such uncertainties might dissuade us 
from trying to retaliate. We all have heard much speculation about 
Osama bin Laden who allegedly was responsible in recent years for 
nearly every foreign terrorist act against U.S. interests. According to 
the last public reports, he is still alive and well somewhere in 
Afghanistan.
    (C) The usefulness of additional arms control measures is even more 
uncertain than the success of deterrence. I say ``additional'' arms 
control because two treaties are in force that ban biological warfare--
the 1925 Geneva Protocol and the Biological Weapons Convention of 1972. 
The latter treaty, as you know, also prohibits the development and 
stockpiling of such weapons. Both treaties have been violated 
repeatedly, always with total impunity. There has been no enforcement 
of these treaties, none at all, and the so-called ``Protocol'' to the 
Biological Weapons Convention (that the previous administration 
supported) would have made matters worse. It was prudent for the Bush 
administration to withdraw support for this misconstrued enterprise.
    (D) That leaves the fourth type of measures--the remedial 
measures--steps that can usefully be taken after a biological attack 
has occurred. Obviously, to count on remedial measures, our federal 
government has to set up an effective organization beforehand and must 
prepare effective tools. The State and Federal public health 
authorities, the hospitals, fire departments, and police, can't be 
asked to fight a biological weapons attack with their bare hands. 
Increased funding is needed for work on vaccines that could routinely 
and safely be administered to the whole population (like the smallpox 
vaccinations of the past) and for other medical counter measures that 
could help contain the disaster after an attack had begun.
    Let us take note of a significant difference here between nuclear 
and biological weapons. Once a nuclear detonation has been started 
within a bomb, there is nothing that can protect people from the 
immense energy that will instantly escape, except being at a safe 
distance or in a deep underground shelter. But biological agents, once 
they have been released, might be vulnerable to sun light and other 
factors, might be kept out of buildings by special air-conditioning 
filters or over-pressure systems, be sufficiently diluted by simple 
face masks, and finally be made less harmful (or even harmless) by 
medical interventions.
    To close, I want to make an organizational recommendation that is 
of utmost importance. We need to recognize a spectrum of possibilities 
regarding biological threats, from domestic terrorism, terrorist acts 
in the United States by a foreign organization, and attacks within the 
United States in time of war by enemy powers. Until now, U.S. military 
planning has been based on the implicit assumption that U.S. territory 
would remain a sanctuary (except in a large-scale nuclear war). Hence, 
the Defense Department has stayed on the sidelines. While the Justice 
Department with the FBI are correctly designated as the lead agency for 
terrorism, DOD will have to prepare to take the lead to defend U.S. 
territory against biological attacks in a warlike situation.\1\

----------------
    \1\ To address this issue, the Center for International and 
Strategic Studies has published the report: Defending the U.S. 
Homeland, Strategic and Legal Issues for DOD and the Armed Services 
(1999).

    The Chairman. Thank you very much.
    Dr. Henderson, thank you for being here.

STATEMENT OF DONALD A. HENDERSON, MD, MPH, DIRECTOR, CENTER FOR 
    CIVILIAN BIODEFENSE STUDIES, JOHNS HOPKINS UNIVERSITY, 
                         BALTIMORE, MD

    Dr. Henderson. Thank you very much. In all, I spent 11 
years in eradicating smallpox and have some feel for the 
disease. I can say that the scenario in ``Dark Winter'' which 
some have suggested may have exaggerated the risk, is based on 
a rather conservative set of estimates that were provided and a 
conservative set of assumptions--that, indeed, the tragedy of 
``Dark Winter'' could be every bit as bad as depicted and in 
fact far worse.
    There are of course other organisms which we are concerned 
about, anthrax, plague, many others. There is certainly a 
likelihood of biological terrorism or use of biological weapons 
now that is different from what we were experiencing not 10 
years ago or what we were concerned about when I was in the 
White House as advisor to the President. We perceived it very 
differently then.
    What I think is not appreciated at this time is that the 
21st century, as we move into it, is a quite different era with 
regard to biology and our concern about the threat of 
microorganisms.
    Fifty years ago the science of nuclear physics dominated. 
Now I think everyone would agree that this is the era of 
biology, with a great deal of research going on, with enormous 
promise for treatment and prevention; but at the same time we 
are experiencing potentially some of the greatest international 
security threats that we have ever known.
    This is not yet understood. We are only beginning to get 
some comprehension of this.
    The fact is that the threat of new and emergent epidemics 
is very real. Let us recall that AIDS was discovered only 20 
years ago. It is devastating Africa. It is a real threat 
globally of a magnitude we have not experienced in a very long 
time.
    In 1918 we had the swine-flu epidemic which killed 
somewhere between 20 and 40 million people. The death rate for 
that flu was approximately one to two percent. Just in the last 
few years we have dealt twice with a strain of flu in Hong Kong 
called H5 and N1 in which there were six deaths among the 18 
infected--a death rate of 33 percent and understandably a 
tremendous concern on the part of all of us that this might 
spread beyond the bounds of Hong Kong.
    Drastic measures were taken to try to control it. We will 
see many more new diseases, as this past year we have seen foot 
and mouth disease.
    But there's another problem which is also complicated. With 
the advancements that we have seen in biology, scientists are 
doing many different things with many different organisms than 
they have done before. And they are able to do it with a 
facility that we had not appreciated before.
    Only within the past month the Imperial College in London 
was fined 50,000 pounds for combining hepatitis C virus genes 
with those of Ebola virus and working with the product without 
any particular protection.
    There are other activities of this sort going on in many 
places. Why? Because in the course of trying to understand the 
pathogenesis of organisms--for example, how they infect--many 
experiments that are done for good, scientific reasons have a 
potential dark side. At this time we have no mechanisms in 
place for looking at this and monitoring it. We wonder what 
would happen if an organism escapes. That certainly is a real 
problem.
    Senator Nunn has indicated very clearly where we are at 
this point in time. Our Center is now some 3 years old. We've 
have been working diligently, looking at a lot of problems. 
It's quite clear that the weakest points in our system are: No. 
1, the public health system which is greatly understaffed, very 
weak, very unprepared (and the $77 million being provided by 
the Federal government averages a little more than a million 
dollars a state--it isn't even a respectable Band-Aid, I'm 
sorry to say); and No. 2, our hospitals have very little 
flexibility. One can't appreciate how little flexibility until 
you realize that in Baltimore our hospitals are on ambulance 
bypass regularly now. It's doubled this past year. The year 
before it doubled again. And that is occurring----
    The Chairman. For the record, Doctor, explain what 
ambulance bypass means.
    Dr. Henderson [continuing]. It means that the hospital is 
full up. It cannot take any more patients, and if you have an 
emergency patient, you will need to bypass the hospital and go 
somewhere else.
    The Chairman. In my little state of Delaware, in our 
largest city, not a week has gone by that at least one major 
hospital has not been on ambulance bypass; in some weeks, all 
the major hospitals were on bypass at the same time.
    Dr. Henderson. This is not generally understood by the 
public, nor is there a plan to address this. We also looked at 
the question of dealing with casualties in the city of 
Baltimore when we had the recent problem with the tunnel, and 
pretty much concluded that 75 acute patient casualties would 
overwhelm the capacity of the city of Baltimore, so short are 
we of beds and facilities.
    This is true across the country. So these are two major 
areas where we are not in a position to even cope with 
casualties should they occur. To rectify this will require a 
major input of resources. Senator Nunn has also spoken 
eloquently of the need to put money into research and 
development. Certainly this is true.
    If we have new organisms that appear, we want to be 
prepared immediately to move quickly to develop vaccines and/or 
antibiotics. We are not now prepared to move quickly.
    In fact right now we are using an influenza vaccine 
production method that is 30 years old. If we get a new strain 
today, it would take us 9 months before we could produce a new 
vaccine. By that time the epidemic would be over. We've got a 
lot of work to do.
    Clearly the important thing is to identify new disease 
threats as quickly as possible. The global surveillance system 
obviously would make a great difference if we could make that 
much better. Efforts are now being made and Dr. Heymann has 
certainly played an important role. There are elements in our 
own government who are contributing to it. Again, though, very 
little is yet being done compared to what needs to be done.
    It's going to be very difficult from everything we've 
looked at to determine how we can deal with biologic weapons. 
They are not nuclear. They are not chemical.
    That which we learned from dealing with nuclear weapons 
seems to have little if any applicability with regard to 
controlling the biological weapons. For production, for 
example, the technology is dual use, so that one cannot monitor 
specialized production equipment. You can't see production 
facilities from the air. Monitoring is a real problem.
    One thing that we feel is important is a strong moral 
commitment on the part of the science community to condemn 
anyone and any laboratory involved in offensive weapons 
development. We are exploring with the American Medical 
Association and the World Medical Association what can be done 
in terms of a very strong official statement. Is it going to be 
effective? Nothing is going to be 100 percent effective, but it 
is a step.
    The bottom line is that we are in a new era dealing with 
biologic threats of a very different character than we have 
dealt with in my 40 years in public health. We are not prepared 
for this. We haven't really thought about it very carefully.
    As we've looked at bioterrorism, it illuminates the 
problems we have with the new and emerging infections, the 
problems we are going to face with scientists using different 
organisms as recombinants. In that sense the bioterrorism 
threat is helpful but we really have to take it very seriously. 
And we have not done so as yet. Thank you.
    [The prepared statement of Dr. Henderson follows:]

            Prepared Statement of Donald Henderson, MD, MPH

    Mr. Chairman, distinguished Members of the Committee, thank you for 
the opportunity to appear before you today to discuss the realities of 
the threat posed by biological weapons, our capabilities to secure an 
early warning of an attack, our potential for response and, finally, 
measures that might be taken nationally and internationally to lessen 
the probability of an attack.
    It is generally agreed that the 21st century brings with it a new 
era in the biological sciences with advances in molecular biology and 
biotechnology that promise longer, healthier lives and the effective 
control, perhaps elimination of a host of acute and chronic diseases. 
The prospects are bright but there is a dark side--the possibility that 
infectious agents might be developed and produced as offensive weapons; 
that new or emergent infections, like HIV/AIDS, might overwhelm 
available preventive and therapeutic measures or that laboratory 
scientists, perhaps inadvertently, might create and release a new and 
lethal agent. These concerns are as relevant to Europe, to Africa, to 
Asia as they are to America, In today's world of rapid travel and large 
migrant populations, epidemic disease, wherever it occurs and of 
whatever origin, threatens the security of all nations. We are, today, 
ill-prepared to deal with these challenges.
    Throughout the 45 years of my professional career, my principal 
concern has been the control of infectious diseases both in the United 
States and abroad. My experience has included 20 years with the Centers 
for Disease Control, including assignments as Chief of Surveillance and 
Chief of the Epidemic Intelligence Serve; 11 years with WHO as Director 
of the Smallpox Eradication Program; and 16 years as Chairman of the 
Pan-American Health Organization's Technical Advisory Group which 
counseled PAHO experts on the design and development of the polio 
eradication program. Enormous strides in epidemic disease control have 
been made over the past quarter century and more is promised. Four 
years ago, however, it became apparent to me that these accomplishments 
and more were jeopardized by the growing threat of biological weapons 
as well as by new and emergent infections. This led to our founding 
three years ago of the Hopkins Center for Civilian Biodefense Studies. 
Our energies are directed ultimately toward preventing biological 
disasters that potentially could become global in scope, such as 
epidemic smallpox could readily be and which AIDS is rapidly becoming.
The Threat from Biological Weapons
    Nothing in the realm of natural catastrophes or man-made disasters 
rivals the complex problems of response that would follow a bioweapons 
attack against a civilian population. The consequence of such an attack 
would be an epidemic and, in this country, we have had little 
experience in coping with epidemics. In fact, no city has had to deal 
with a truly serious epidemic accompanied by large numbers of cases and 
deaths since the 1918 influenza epidemic, more than two generations 
ago.
    Senators Hart and Rudman, chairs of the United States Commission on 
National Security in the Twenty-first Century, singled out bioweapons 
as perhaps the greatest threat that the U.S. might face in the next 
century. Admiral Stansfield Turner pointed out that, besides nuclear 
weapons, the only other weapons with the capacity to take the nation 
past the ``point of non-recovery'' are the biological ones.
    The Dark Winter scenario dramatizes the catastrophic potential of 
smallpox as a weapon. It is, of course, not the only possible organism 
that might be used. In 1993, the Office of Technology Assessment 
estimated that 100 grams of anthrax released upwind of a large American 
city--the model being Washington, DC--could cause between 130,000 and 3 
million deaths, depending on the weather and other variables. This 
degree of carnage is in the same range as that forecast for a hydrogen 
bomb. Although there is legitimate concern as well about the possible 
use of chemical weapons, they are far less effective pound for pound 
and extremely difficult to deploy over large areas. Ten grams of 
anthrax can produce as many casualties as a ton of a chemical nerve 
agent.
    The insidious manner by which a biological attack would unfold is 
itself alarming. The fact of an attack using an explosive or chemical 
weapon would be recognized immediately and resources summoned quickly 
to deal with the consequences and to begin to remediate the situation. 
A biological agent would, in all probability, be released clandestinely 
as an aerosol spray, odorless and invisible, which would drift slowly 
throughout a building or across a city. Not until days to weeks later 
would people begin to fall ill; new cases would continue to occur over 
a period of one to several weeks. Some of those exposed, in all 
likelihood, would be hundreds of miles away when they develop 
symptoms--in other cities, in other countries. Thus, the consequence of 
the attack would extend well beyond the immediate area of release.
    Biological weapons have not been used since WWII but this is not 
because of concern that they might not work. The U.S. program was 
abandoned in 1969 not for technical but for political reasons. As 
Gradon Carter has pointed out, the utility of bioweapons had been 
demonstrated by all possible means short of war. By the 1960s, the U.S. 
knew how to grow and process many microorganisms in a form usable for 
mass casualty biological weapons. Trials that modeled dispersion of 
simulant agents as aerosols were conducted in many cities and scores of 
tests with live biological agents using animals as targets were 
performed at the Johnson Atoll from 1963 to 1969. There is now no doubt 
and there was then no doubt, of the capacity of these weapons to cause 
widespread casualties. A World Health Organization (WHO) analysis, now 
30 years old, supported the belief that biological weapons are 
strategic, population-destroying weapons. Since then, the technology 
needed to create and disperse these weapons has advanced significantly.
    The year 1972 was a significant one in the history of bioweapons. 
That year, the Biological Weapons Convention was agreed upon, calling 
for all signatory countries to cease research on biological weapons and 
to destroy existing stocks. The Soviet Union and Iraq were both parties 
to the Convention. The Soviet Union, however, began immediately to 
greatly expand and modernize its existing biological weapons program 
and to develop genetically engineered pathogens and other organisms 
that could serve as strategic weapons. A new organization was created 
called Biopreparat. Ostensibly a civilian operation, it recruited some 
of the most capable of Russian biologists. At its peak, it employed 
over 30,000 persons. There was also a military program of at least 
15,000 people and an agricultural program making crop pathogens that 
employed 10,000 people. The overall complement of staff was equivalent 
in size to that of its nuclear program. Biopreparat's agenda included 
the manipulation of viruses and micro-organisms to render them capable 
of surviving delivery on missile warheads; the development of 
particularly virulent strains of organisms that are resistant to 
vaccines and antibiotics; the creation of peptides that could alter 
moods and heart biorhythms; and the manufacture of tons of anthrax, as 
well as smallpox virus and antibiotic-resistant strains of plague.
    Although the Soviet program was of prodigious size and 
sophistication, the infrastructure that is actually necessary to make a 
biological weapon is, in fact, comparatively simple and inexpensive, 
especially compared to that required to make a nuclear weapon. To make 
one kilogram of plutonium requires 100 tons of uranium ore; a 
substantial quantity of specialized equipment; and an enormous facility 
readily visible from the air. A biological weapon can be produced with 
the same equipment one uses to produce an ordinary vaccine; it can be 
readily housed in a building the size of a two-car garage; nothing on 
the exterior would identify its use. Moreover, the room and the 
equipment could be sufficiently cleansed within 24 hours so that no 
one, on inspection, would be able to determine whether it had been used 
to make vaccines or biological weapons.
    The intelligence agencies have estimated that at least a dozen 
states possess or are actively seeking an offensive biological weapons 
capacity. Most of these states are those named by the State Department 
as sponsors of terrorism. Expertise for operating these facilities is 
readily available from now poorly funded laboratories of the Russian 
biological weapons complex. For these countries, biological weapons 
have a special appeal. They are inexpensive, they occupy little volume, 
they are readily transportable from place to place and they are capable 
of being disseminated covertly so that attribution may be impossible.
    It is also important to appreciate that the technologies needed to 
build biological weapons are available in the open literature and on 
the Internet. This is not knowledge that is limited to a few hundred 
scientists isolated in a laboratory in the western desert. There are 
many scientists who have this knowledge and are capable of putting 
together a biological weapon. Some have argued that preparing a 
biological weapon is complicated and have been mistakenly reassured by 
the failure of Aum Shinrikyo's efforts to aerosolize anthrax throughout 
Tokyo. In fact, although the sect did include some with experience in 
microbiology, those who actually worked on the project were not well-
trained microbiologists. Nonetheless, they came very close to 
succeeding.
Implications of Advances in Biotechnology
    A key reason for being concerned about biological weapons is the 
remarkable progress now being made in biotechnology and genomics 
research. Bioscience is moving at a much faster pace than did physics 
in the 1950s, partly because of computers and the more ready 
accessibility of knowledge, and partly because of the money that is 
being invested by large corporations in the biological sciences. In 
1998, the U.S. biotechnology industry employed 150,000 people and had a 
market capitalization of $97 billion with product sales of $13.4 
billion. Last April, the Harvard Business Review predicted that the 
ability to manipulate the genetic codes of living things will dwarf the 
business transformation propelled by the Internet. Indeed, it is 
generally acknowledged that the life sciences will be the most 
important technology of this century.
    But, as the understanding of molecular biology increases and as we 
develop the ability to manipulate cellular processes, we are also 
creating the tools and knowledge for building more powerful and more 
diverse weapons. When we discover why a particular virus or bacteria is 
especially virulent or why it has become resistant to antibiotics, we 
create an opening for building a new drug or a new vaccine. At the same 
time, we facilitate the creation of tools needed to build more virulent 
weapons.
The Effects of a Biological Weapons Attack
    The consequences of a biological weapon attack would be an 
epidemic, most likely following an unannounced attack. In all 
probability, we would know that something had happened only when people 
started appearing in the emergency rooms and doctors' offices with 
strange maladies. Depending on the biological agent and its incubation 
period, it could be days or weeks after release of the organism before 
people first became ill. Identification of the cause could be 
problematical. American physicians today are not trained to diagnose 
illnesses due to the pathogens thought to be the ones most likely to be 
used as bioweapons. Few physicians have ever seen cases of anthrax or 
smallpox or pneumonic plague.
    It is difficult to imagine how the public might respond in today's 
world to a fast-moving lethal epidemic. In recent decades, there have 
been few such epidemics in industrialized cities. One of the more 
recent occurred in India in 1994. Plague broke out in the diamond-
polishing district of Surat. It was reported by the media as a deadly, 
mysterious fever, possibly plague. Within hours, panic reigned. People 
began streaming from the city. Many in the medical community were among 
the first to leave. Eventually half a million fled, leaving the city a 
ghost town. It is estimated that India lost some two billion dollars in 
lost trade, embargoes, and production as a consequence of this 
outbreak. How many actually died of plague is still not clear but the 
total was not more than 50.
    Epidemics have the potential to spread internationally as we have 
observed with the HIV/AIDS epidemic. The disease is contagious but it 
is not easily transmitted from one person to another. Nevertheless, it 
spread across the globe and is changing the population demographics in 
some African countries to a degree comparable to that caused by the 
Black Death of the 1300s, which killed a third of the European 
population.
Addressing the Biological Weapons Threat
    The status of national preparations to deal with bioterrorism is 
difficult to summarize. The diverse initiatives taken by different 
agencies of government are not well coordinated, even within the 
agencies themselves and many have been designed with little 
comprehension of what is implied for the civilian population when a 
biological weapon is used. Beginning in 1995, when the first 
Presidential Decision Directive was issued, preparations to respond to 
terrorism focussed almost exclusively on training and equipping ``first 
response'' teams to counter the effects of a nuclear or conventional 
explosive device or a chemical attack. Training programs in 120 cities 
were targeted to include police, fire and emergency rescue personnel in 
a ``lights and sirens'' type of response and special full-time units of 
the National Guard were constituted whose function is not clear but 
certainly have little to do with bioterrorism.
    Not for several years was there a beginning comprehension that the 
consequences of use of a biological weapon would be an epidemic and 
that those first detecting its presence and those primarily responsible 
for controlling the disease would be public health personnel and 
physicians. Accordingly, in most cities, public health, medical and 
hospital personnel were not included either in planning or training. 
Finally, in FY 99, significant funds began to be made available to the 
Department of Health and Human Services, primarily the Centers for 
Disease Control (CDC), whose traditional responsibility, with state and 
local health departments, has been the surveillance and control of 
infectious diseases. Some two years ago an Office dealing with 
Bioterrorism was established at CDC; modest funds began to be made 
available to the states for development of programs both for response 
and surveillance; stockpiles of antibiotics were procured; smallpox 
vaccine was ordered; and a national network of laboratories was 
established that is capable of diagnosing the organisms of principal 
concern. Unfortunately, little has yet been done to provide for the 
training of public health and medical professionals and hospitals 
remain woefully unprepared.
Current Vulnerabilities
    We are today ill-prepared to deal with an epidemic of any sort. 
There is, as yet, no comprehensive national plan nor an agreed strategy 
for dealing with the problem of biological weapons. There is little 
inter-agency coordination at the federal level and nationally funded 
programs appear to be as often competitive as cooperative. Particularly 
serious are the vulnerabilities in our medical health care system and 
our public health infrastructure.
Hospitals
    When Americans are seriously ill, they expect to be cared for in 
hospitals. If the hospitals became overwhelmed and were paralyzed by 
chaos, it would have serious implications for public morale and for the 
potential for containing an epidemic, let alone treating those who were 
already sick. The likelihood of public anxiety rising to civil disorder 
would rise substantially.
    Hospitals are under serious pressure today. Of the 5000 hospitals 
in the U.S., 30% are losing money; over the last decade, 1000 have 
closed because of financial reasons. They face a host of regulatory 
issues including those dealing with health insurance portability, safer 
needles, medical and medication error reduction, limits on medical 
device reuse, ergonomic standards for employees, requirements for 
patient restraints and seclusion, and many more. At the same time, the 
numbers of the uninsured are increasing and the population is aging and 
in need of more medical services. The hospitals have struggled to 
become ever more efficient but, in their quest to eliminate 
inefficiencies, they have basically wiped out their surge capacity. 
Even minor increases in patient demand, such as that of the 1999 brief 
and mild flu season strained most hospitals.
    This lack of elasticity is also seen in the pharmaceutical field as 
companies have focussed on just-in-time production and delivery. The 
result is that reserve supplies are few and temporary problems in 
production are regularly manifested in country-wide spot shortages of 
such as antibiotics and other critical drugs.
    There is an increasing shortage of emergency rooms what with the 
loss of a thousand hospitals in the past decade and a desire on the 
part of hospitals to close ERs, if possible, because of their drain on 
resources. The amount of time that Baltimore's hospitals have been on 
``diversion'' of ambulances because of over crowding has doubled every 
year for the past three years. Ventilators to aid respiration are in 
short supply. Baltimore, home to two major medical centers and medical 
schools, could not handle an acute situation that produced as many as 
50 casualties requiring ventilators. A handful of highly contagious 
patients would cause havoc, there being in the Baltimore-Washington 
area, no more than 100 beds in negative pressure rooms that could 
handle highly contagious patients.
    However, the most intractable problem for hospitals is likely to be 
staffing. As we have been told, only half of all nurses work in 
hospitals and the average age of a nurse in America is 53. More are now 
retiring than are being recruited to the field. Hospital administrators 
report that, even if they had more open beds, they doubt that they 
would have staff to care for the patients.
The Public Health System
    The public health system is in even worse shape. Public health is a 
long-neglected stepchild to modern medicine. It is a sector that has 
been understaffed and under funded for several decades.
    It is believed that, in most states, there is ample authority for 
public health officials to respond aggressively and effectively to 
protect the public health. However, many of the relevant laws were 
written between the time of the Civil War and the 1930s. A more 
critical problem is knowing what to do and how to do it. With sharp 
reductions in the number of cases of the major infectious diseases, 
processes and knowledge about when and how to use quarantine and 
isolation procedures, how to organize large scale vaccination programs 
and how to communicate effectively with a concerned public have been 
lost.
    A major problem is that there really is no public health ``system'' 
for dealing with infectious diseases in this country, but, rather, a 
fragmented pattern of activities. The federal system, which for the 
most part is in the federal Centers for Disease Control and Prevention 
is itself comprised of a number of Centers and activities that are 
themselves independent fiefdoms. State and local health departments 
reflect a similar pattern and there is a major disconnect between the 
public health and medicine. Doctors rarely communicate with local 
public health officials and often, when they try to do so, they find no 
one with needed competence. In New York City, a city with one of the 
best public health departments in the country, the report of two eases 
of encephalitis to the health department led to the unraveling of the 
West Nile epidemic. This was a laudable and important response. 
However, it was later discovered that at the time the first two cases 
were reported, there were 20 other patients already hospitalized with 
encephalitis, a clearly recognizable and legally reportable disease.
    In most areas, public health is not treated as an emergency service 
as are police, fire and utilities. The concept of a 24 hour per day, 7 
day per week ``hot line'' is little known. Yet, public health officials 
will be the ones who will be obliged to organize a response to an 
epidemic, to communicate with the public and to orchestrate a city and 
state's response resources
Increasing Preparedness
    What can be done to diminish our vulnerability to bioweapons.
    First, we have got to better prepare our public health and medical 
care services to respond to outbreaks and epidemics and to mass 
casualty situations whatever their origin. They are at the core of any 
response and yet, only recently have they even begun to be involved in 
the necessary planning and training activities. Significant resources 
will be required for this purpose, perhaps one billion dollars per year 
or more. Although a large sum, this would represent less than 10% of 
government expenditures for counter-terrorist activities. This 
investment, however, would serve a far broader utility than bioterroism 
alone.
    Second, we need to mount a robust research and development program 
for bio-defense. It would seem logical for this to be a joint DOD-DHHS 
effort. We need to engage the genius of the universities, the 
pharmaceutical firms and the biotechnology companies, few of whom are 
now involved. The bioscience community does not have a history of 
engagement with defense projects and, by and large, they have not been 
eager to work with government in this field. For this to happen will 
require inventive structures and incentives. Three areas of research 
and development would be especially important: (1) More definitive, 
rapid, automated means of diagnosing major pathogens, basically 
building microchips that could identify specific pathogens by 
deciphering the molecular genomes. (2) Mechanisms for being able to 
rapidly develop and produce new antibiotics and antiviral drugs for new 
and emergent diseases. (3) Mechanisms for enhancing the immune response 
generally, so as to get beyond the one organism-one drug approach.
    Third, public health has to identify those critical capacities that 
are needed to fight epidemics of contagious disease. These include 
surveillance and reporting systems, particularly the ability to track 
an epidemic once it occurs. But what we must do, even in normal times, 
is to track outbreaks once they arc identified. Communications systems 
that connect health care providers and the public health system are 
critical.
    Fourth, in cooperation with WHO and other countries, we need to 
strengthen greatly our intelligence gathering capability. A focus on 
international surveillance and on scientist-to-scientist communication 
will be necessary if we are to have an early warning about the possible 
development and production of biological weapons by rogue nations or 
groups and, likewise, to have the earliest possible warning and longest 
possible lead time to develop drugs and vaccines to deal with new or 
emergent organisms.
    Fifth, a concerted effort by the medical, public health and, 
broadly, the biological sciences community to condemn participation in 
research or development of biological weapons is clearly indicated. 
Such a response would provide no certain guarantees that misbehavior 
would not occur but then, there is as yet no other satisfactory 
deterrent to deal with these troublesome weapons.
Summary
    Biological weapons are a significant threat, and because of the 
rapidly growing power of biotechnology and biological knowledge, the 
urgency and the diversity of this threat will only increase. The nature 
of biological weapons and the epidemics that they could create is such 
that preventing them will be far more challenging than preventing the 
catastrophic use of chemical or nuclear weapons. It is going to be hard 
to detect biological weapons production facilities, it is going to be 
hard to track the weapons before they are used, and it is going to be 
very hard to interdict them before they are released.
    If we do nothing more than strengthen the public health and medical 
care systems, we can significantly decrease the suffering and death 
that would follow a bioweapons attack. By being able to mitigate the 
consequences of such an attack, we can make ourselves less attractive 
targets to would-be perpetrators. As important, we could improve the 
everyday functioning of the health care and the public health system 
for the general good.

    The Chairman. Thank you, doctor.
    Dr. Heymann.

    STATEMENT OF DAVID. L. HEYMANN, MD, EXECUTIVE DIRECTOR, 
   COMMUNICABLE DISEASES, WORLD HEALTH ORGANIZATION, GENEVA, 
                          SWITZERLAND

    Dr. Heymann. Thank you, Mr. Chairman. I have provided a 
written statement that I would appreciate being put in the 
record.
    The Chairman. The entire statement will be placed into the 
record. You are welcome to bring that all the way up here if 
you would like, if that's good, or wherever is convenient.
    Dr. Heymann. As you said earlier, Mr. Chairman, and as Dr. 
Henderson has just emphasized, naturally occurring outbreaks 
can cause equal amounts of havoc as can intentionally caused 
outbreaks. We have seen this in outbreaks in India with plague 
and with various other outbreaks throughout the world.
    This map [see Figure 1 on page 81.] shows a selection of 
the over 800 outbreaks which have occurred between 1996 and 
2001. They occur on every continent. But what's very important 
is that they occur with such frequency that it's almost 
impossible to keep the map up to date.
    In the United States, for example, here in August just last 
month West Nile fever occurred in humans now in Florida and in 
Georgia. And at the same time, Canada reported to WHO that they 
had just isolated the West Nile virus from birds in that 
country.
    Three days after we received the report from Canada we see 
the report from Venezuela whose President announced a national 
health emergency after confirmation of more than 24,000 cases 
of dengue which is also a mosquito-borne virus.
    So we can see that infectious diseases are a very important 
issue today. And as you noted, their phenomenal increase is due 
to travel and trade which is increasing in the world today.
    These diseases spread in apparently healthy humans around 
the globe. They spread in food, in animals, in cargo, or in 
insects stowed away in cabins and luggage holds of jets.
    Because of our world's growing interconnectedness, 
outbreaks of infectious diseases in any country today are a 
health security risk for us all. This has been clearly said by 
Dr. Hughes from CDC many times. It's clear that this is the 
case.
    One of the strategies to protect populations against the 
international spread of outbreaks is the WHO global network of 
alert and response. This poster [See Figure 2 on page 82] 
illustrates the geographical distribution of haemorrhagic 
fevers, that is Ebola, Lassa and Marburg, just one of the 
category of diseases which are watched over and reported 
through this network.
    The Global Outbreak Alert and Response Network is actually 
a network of 72 different networks that have spread throughout 
the world and continuously report outbreaks to WHO. The 
laboratories

and the regional surveillance networks of the Centers for 
Disease Control and Prevention in Atlanta are major members of 
this network as is the U.S. Department of Defense Global 
Emerging Infections Surveillance and Response Network. A unique 
member in this global network----
    The Chairman. Excuse me. On that chart, does the red 
indicate those states where the fever has been reported or are 
they the----
    Dr. Heymann [continuing]. Reported.
    The Chairman. Are they the members of the global 
surveillance system?
    Dr. Heymann. Those are countries from which the disease was 
reported.
    The Chairman. How many countries are members of this global 
surveillance system?
    Dr. Heymann. We estimate that most countries are in some 
way involved because we have 141 WHO offices in countries. And 
those offices sit in Ministries of Health and are a source of 
information for us.
    The Chairman. Thank you.
    Dr. Heymann. In addition to the networks that are occurring 
from industrialized countries, there are also WHO networks. But 
a unique member of this network is the Global Public Health 
Intelligence Network, called GPHIN which has been developed by 
Health Canada for WHO.
    This network is constantly crawling the Web looking at all 
open sites such as news wires, public health and e-mail 
services, electronic discussion groups including the U.S. based 
Pro-MED discussion group, and local on-line newspapers for 
information about outbreaks.
    At the close of each day, Health Canada packages the 
information that they have obtained and sends it over to WHO in 
Geneva. And in the morning that information is reviewed by the 
outbreak verification team and verification on the ground is 
done through the network of networks.
    This system has been very effective. And as you can see on 
the next poster [See Figure 3 on page 83] 56 percent of all the 
reports to the WHO network are coming from in the GPHIN, the 
Global Public Health Intelligence Network, while 27 percent 
come to WHO through our usual country reporting mechanisms.
    The verification done each day at WHO is therefore 
extremely important, because improperly handled information can 
have disastrous economic consequences for tourism and trade.
    An example of how information can be mishandled is shown in 
an article in the Bangkok Post. A single death from a pulmonary 
embolism on a tourist travelling from Thailand to Vienna was 
inaccurately reported in the press as due to an infectious 
disease.
    It was only through verification through the network that 
we were able to inform the press that this death was not due to 
an infectious disease.
    A more recent example of the importance of the network was 
during the largest reported outbreak of Ebola which began in

Uganda in October of last year. The WHO network was informed as 
soon as the first suspected cases were detected by Uganda, and 
the WHO coordinating containment team--of which CDC was a 
predominant member--began to arrive within 24 hours to contain 
the outbreak over the next 5 months.
    The containment exercise in Uganda is just one of many such 
activities in the alert and response network since 1998. Others 
are shown on the next poster [See Figure 4 on page 84] and 
occurred in Afghanistan, Bangladesh, Egypt, Ethiopia, Kosovo, 
Saudi Arabia, Sierra Leone, Sudan and Yemen.

    It's very important on this map to note that although 
outbreaks occur on every continent that you saw in the first 
map, and in every country, it is those in Africa and southern 
Asia which require an international response in most instances. 
As we speak today, Mr. Chairman----

    The Chairman. Why is that?

    Dr. Heymann [continuing]. Because they have the weakest 
public health infrastructure. As we speak today, WHO 
coordinated teams are working to stop outbreaks in South Asia 
of a disease which has not yet been identified (this is the 
second outbreak this year) an outbreak of urban Yellow Fever in 
West Africa in Abidjan, and in the Horn of Africa where another 
yet unidentified infectious disease is causing high mortality.

    To facilitate and better coordinate the work of the 
network, WHO has developed protocols for containing outbreaks 
of known and unknown cause, including protocols for the 
infections shown on the next poster [See Figure 5 on page 85] 
that names the biological agents of feared intentional use by 
terrorists or in warfare. These names have been provided to us 
by the protocol group meeting in Geneva on the Biological 
Weapons Convention.

    These protocols are against diseases, and all the protocols 
have been used in outbreaks recently. So far all such outbreaks 
that we have investigated have been of natural cause. But these 
outbreaks could be intentionally caused as well. The WHO 
network we feel is clearly well placed as one of the global 
mechanisms for detection and containment of intentionally 
caused outbreaks.

    WHO will soon be issuing an updated edition of its standard 
guidelines for health aspects of chemical and biological 
weapons shown on this poster. In view of the devastating impact 
on the populations that such weapons could have, the guide 
urges governments to strengthen public health infrastructure 
and develop nationally response plans for a biological attack 
as an integral part of existing national emergency plans.

    With this in mind, WHO's 191 member states adopted in May 
of this year a consensus resolution on global health security.

    During the debate that preceded the adoption of this 
resolution, developing countries continually emphasized the 
weakness of their public health systems and the need for more 
input to these systems. Mr. Chairman, the U.S. Government and 
many other agencies are valuable partners in helping us 
strengthen the infrastructure in developing countries.
    This of course is at the basis of good global surveillance 
and response. In addition to the annual assessed contribution 
to WHO that the United States gives each year and which has 
been referred to here, the United States also contributes to 
WHO in global surveillance and response through USAID, through 
CDC, through the National Institutes of Health, the Departments 
of Defense and Agriculture, NASA Goddard Space Flight Center, 
and the many U.S. universities from which we draw both 
technical and in some cases financial support.
    As you can see from this wide range of agencies, the world 
today must draw on a broad base of agencies in order to support 
global surveillance and response. Infectious diseases are a 
threat to our national and global security. And the battle 
lines must include defense through strong public health in all 
countries. Thank you very much.
    [The prepared statement of Dr. Heymann follows:]

               Prepared Statement of Dr. David L. Heymann

         strengthening global preparedness for defense against
                       infectious disease threats
    By their very nature, infectious diseases have the potential to 
spread internationally. Throughout most of human history, isolation and 
quarantine were the only measures available for protection. As a 
result, the course of human history was frequently altered by epidemics 
that swept unchecked across continents, claiming more lives and 
creating more social devastation than wars.
    With the development of vaccines and the discovery, during the 
previous century, of potent classes of antimicrobial drugs, humanity 
could, for the first time in history, prevent many infectious diseases 
and cure many others. The risk that epidemics might again sweep across 
continents seemed remote. The defenses were in place, the threat was 
considered under control, and the world relaxed its guard.
The Magnitude of the Problem
    The microbial world is complex, dynamic, and constantly evolving. 
Microbes proliferate rapidly, mutate frequently, and adapt with 
relative ease to new environments and hosts. They will also eventually 
develop resistance to the drugs used to treat them. Numerous factors, 
including those linked to human activities, can accelerate and amplify 
these natural phenomena, as has happened in recent years. Moreover, 
when a complacent world relaxes its vigilance and lets down its 
defenses, the consequences can be dramatic as well as rapid. Microbes 
are quick to exploit new opportunities to spread, adapt, and resist.
    As a result of several recent trends, the world now finds itself in 
a situation where epidemics are again spreading around the globe 
unchecked, but this time at unprecedented speed. New or newly 
recognized diseases are being reported at the rate of approximately one 
per year. AIDS emerged as an important infectious disease in the early 
1980s and is now entrenched on a scale that threatens global security. 
Other emerging diseases, such as Ebola haemorrhagic fever and new 
variant Creutzfeld-Jakob disease, illustrate the severe damage caused 
by lethal new agents that cannot currently be curbed by vaccines or 
drugs. In 1997 and 1999, when influenza viruses previously confined, 
respectively, to birds and swine suddenly appeared in humans, experts 
voiced fears of a pandemic on the scale of the deadly Spanish Flu of 
1918, which some believe was caused by an avian virus that first 
crossed the species barrier to swine before jumping to humans. 
Altogether, over 30 new infectious diseases have emerged over the past 
25 years.
    The phenomenal recent increase in global travel and trade has given 
microbes multiple opportunities to spread around the global in novel 
ways and with unprecedented speed. Microbes can incubate in apparently 
healthy travellers, hide in food, animals, or cargo, or be carried by 
insects stowed away in the cabin and luggage holds of jets or in the 
pots of exotic plants. In the UK alone, 1,128 cases of malaria were 
imported into the country by travellers in 2000. Cases of ``airport 
malaria,'' in persons who live or work near international airports yet 
have not travelled, are detected regularly in cities such as London, 
Paris, Brussels, Geneva, and Oslo as well

as in the United States and Canada. In just the past two years, 
unexpected outbreaks of relatively new or previously rare diseases have 
taken populations on every continent by surprise. Legionellosis and 
leptospirosis in Australia, Lassa fever, yellow fever, hantavirus, 
listeriosis, and new variant CJD in Europe, and yellow fever, West Nile 
fever, cryptococcosis, and E. coli O157 in the U.S. are just some 
examples. In the face of such highly mobile, microscopic, and easily 
disguised threats, national borders are porous. An outbreak anywhere in 
the world must now be considered a threat everywhere else.

    Once an infectious disease, or the insects and animals that carry 
it, invades a new country or continent, it can prove difficult--if not 
impossible--to control. This has been the case with West Nile fever, 
which made its initial appearance on the American continent in 1999 and 
is now firmly entrenched and spreading, and with Rift Valley fever, 
which crossed the Red Sea from East Africa to the Arabian peninsula for 
the first time in 2000. The aggressive tiger mosquito, capable of 
spreading dengue, yellow fever, LaCrosse encephalitis, and other 
diseases, and able to breed in any container large enough to hold 
water, entered the U.S. in a shipment of used tires in 1985 and has 
since spread to 25 states.

    Apart from the need to cope with the emergence and spread of new 
diseases, public health infrastructures are further burdened by the 
dramatic resurgence of older epidemic-prone diseases such as malaria, 
dengue, tuberculosis, cholera, and yellow fever. Cholera, for example, 
is now causing epidemics in parts of Latin America where it had 
previously been quiescent for over 100 years. The global spread of 
dengue, which began in Southeast Asia in the 1950s, has intensified 
dramatically, showing a four-fold increase with unprecedented numbers 
of its deadly haemorrhagic form. On 23 August 2001, Venezuela's 
President declared the country's current dengue epidemic, with more 
than double the number of cases seen in the previous year and over 600 
cases of its potentially lethal form, a national emergency.

    The costs can be enormous. In recent years. wealthy nations have 
been stunned by outbreaks of foodborne disease causing economic losses 
in the billions of dollars. Some experts place losses associated with 
the emergence of mad cow disease in Europe at close to $38 billion. In 
New York in the early 1990s, the emergence of multidrug-resistant 
tuberculosis, with a death rate of up to 80%, incurred costs associated 
with the failure to prevent its spread estimated at over $1 billion. In 
the Russian Federation, the re-emergence of tuberculosis, including 
multidrug-resistant forms, is estimated to have cost over $4 billion in 
1999 alone. Initial costs associated with cases of West Nile fever in 
New York have been placed at almost $100 million.

The Spectre of a ``Post-Antibiotic'' Era

    As yet another especially serious and costly problem, resistance to 
inexpensive and effective antimicrobial drugs is emerging and spreading 
era at an alarming rate. The bacterial infections which contribute most 
to human disease are also those in which emerging resistance is of most 
concern: diarrhoeal diseases such as dysentery, respiratory tract 
infections, including common pneumonia and multidrug-resistant 
tuberculosis, sexually transmitted infections such as gonorrhoea, and a 
host of hospital-acquired infections that are notoriously difficult and 
expensive to treat. Among the other major infectious diseases, the 
development of resistance to drugs commonly used to treat malaria is of 
particular concern, as is the emerging resistance to anti-HIV drugs.

    The development of resistance is a natural phenomenon that occurs, 
sooner or later, with every antimicrobial. In the past, medicine and 
science were able to stay ahead through the discovery of potent new 
classes of antimicrobials, a process that flourished from 1930-1970 and 
has since slowed markedly, partly because of misplaced confidence that 
infectious diseases had been conquered, at least in the industrialized 
world. In just the past few decades, the emergence of resistant 
microbes has been greatly accelerated due to several concurrent trends. 
These have worked to increase the number of infections and thus expand 
both the need for antimicrobials and the opportunities for their 
misuse. Important trends include urbanization with its associated 
overcrowding and poor sanitation; pollution, environmental degradation 
and changing weather patterns, which can affect the incidence and 
distribution of infectious diseases and the habitats of the insects and 
animals that carry them; and a growing proportion of elderly people 
needing hospital-based treatments and thus at risk of exposure to 
highly resistant pathogens found in hospitals.

    Additional trends include the resurgence of malaria and 
tuberculosis, causing millions of infections each year, and the AIDS 
epidemic, which has greatly enlarged the population of 
immunocompromised patients at risk of opportunistic infections and thus 
in need of treatment. Moreover, the enhanced food requirements of an 
expanding world population have led to the widespread routine use of 
antimicrobials as growth promoters or preventive agents in food-
producing animals and poultry flocks. In North America and Europe, an 
estimated 50% in tonnage of all antimicrobial production is used for 
these purposes. Such practices have contributed to a rise in resistant 
microbes which can be transmitted from animals to humans.

    The associated costs are high. For example, treatment costs for 
tuberculosis can vary between $15 and $40 per person to achieve a 
complete cure, whereas treatment costs for multidrug-resistant 
tuberculosis can be up to $3,000 per person. Most alarming of all are 
microbes that have accumulated resistance genes to virtually all 
currently available drugs and have the potential to cause untreatable 
infections, thus raising the spectre of a post-antibiotic era. Even if 
the pharmaceutical industry steps up efforts to develop new drugs 
immediately, current trends suggest that some diseases may have no 
effective therapies within the next ten years. Moreover, if current 
trends continue, many important medical and surgical procedures, 
including cancer chemotherapy, bone marrow and organ transplantation, 
and hip and other joint replacements, could no longer be undertaken out 
of fear that the associated compromise of immune function might place 
patients at risk of acquiring an untreatable and ultimately fatal 
infection. Opportunistic infections in AIDS patients would likewise be 
untreatable.

The Need for Global Solutions

    Antimicrobial resistance is a global problem requiring a global 
solution. No single nation, however effective it is at containing 
resistance within its borders, can protect itself from the importation 
of resistant pathogens. The enormous growth of global trade and travel 
means that a resistant microbe can spread from its place of origin to 
almost anywhere else in the world within 24 hours.

    Taken together, the threats posed by emerging and re-emerging 
infectious diseases, and by the emergence and spread of antimicrobial 
resistance are serious, steadily growing, and universally costly. Their 
nature is inherently global, with causes related to the world's growing 
interconnectedness, and with consequences that must be addressed by 
global solutions, ideally aimed at prevention.

WHO's Capacity for Alert and Response

    As an international health agency with over 50 years of experience, 
and the World Health Organization is well placed to gather global 
disease intelligence and coordinate the rapid, multifaceted response 
needed to contain outbreaks quickly and prevent their international 
spread.


    <bullet> Privileged access. WHO staff, consultants, and expert 
advisers have privileged access to all countries. This privilege allows 
WHO, in the interest of safeguarding international health, to transcend 
the prevailing political reality in which access to critical expertise 
might be denied because of one country's political relationship with 
others. On many occasions, the Organization's ability to secure 
laissez-passer status has proved decisive in getting CDC and other U.S. 
experts quickly and smoothly into countries where, for diplomatic 
reasons, entrance might otherwise be delayed if not denied. This 
ability to obtain privileged status is extended to all of the many 
security-cleared partners who may be needed to mount an effective 
international response.


    <bullet> Geographical resources. WHO has unique and permanently 
positioned geographical resources. These include six regional offices 
and an additional 141 country offices, located within or in close 
proximity to ministries of health, and concentrated in areas where 
epidemics are most frequent and new diseases are most likely to emerge. 
Although the size of these offices varies according to the disease 
situation in the country concerned, all offices are staffed with 
medical experts and often with epidemiologists, and all have the 
essential logistic equipment, including vehicles mid local 
communications, needed for the prompt on-the-scene investigation of a 
suspected outbreak. When outbreaks occur, country offices facilitate 
the arrival of international assistance by arranging flights, customs 
and immigration clearance, and accommodations. All offices are now 
linked electronically to WHO and thus to its global network of 
institutional resources and collaborators.


    <bullet> Collaborating centres. WHO's disease control activities 
are supported by a network of over 250 laboratories and institutions 
formally designated as WHO Collaborating Centres. These centres provide 
the expertise and facilities needed to conduct field investigations, 
handle dangerous pathogens, test samples, identify unknown agents, and 
confirm the diagnosis of cases. Many additional laboratories and public 
health institutes also collaborate with WHO on a regular basis. The 
ability to draw assistance from top experts and facilities is vital 
given the fact that most previously unknown and highly lethal diseases, 
including Ebola and other viral haemorrhagic fevers, tend to emerge in 
those countries that lack the requisite laboratory and epidemiological 
capacity to detect an unusual disease event and identify its causative 
agent. Apart from its close working relationships with CDC, which 
includes the direct secondment of staff, WHO draws considerable 
technical support from agencies such as USAID and from overseas 
laboratories included in the U.S. Department of Defense Global Emerging 
Infections Surveillance and Response System (DoD-GEIS) as well as their 
counterparts in other WHO member states. Such collaboration with 
leading experts and institutes lends added authority to WHO's efforts 
to identify and track outbreaks accurately and keep the world reliably 
informed.


    <bullet> Surveillance networks. WHO coordinates a large number of 
electronic ``detective'' systems and databases for keeping experts 
alert to changes in the volatile infectious disease situation. These 
networks, most of which now operate in real time, keep watch over 
disease-related events ranging from new strains of influenza virus, 
through outbreaks of salmonellosis and dengue, to the emergence of 
drug-resistant pathogens. Most of these networks also include quality 
assurance and training components to ensure that data submitted from 
all parts of the world are comparable and conform to established 
standards. The oldest of these, FluNet, was established over 50 years 
ago and has served as the prototype for the design and implementation 
of subsequent systems. It now draws support from 110 collaborating 
laboratories in 84 countries. The sensitivity of FluNet has recently 
proved vital in the early detection of cases where influenza virus 
strains have crossed the species barrier from animals, such as swine 
and poultry, to infect humans.

    These surveillance networks all operate within the framework of the 
International Health Regulations, which provide the only international 
legally-binding instrument, implemented by WHO, governing the reporting 
of epidemic-prone diseases and the application of measures to prevent 
their spread.


    <bullet> Welcomed assistance. WHO is politically neutral, and often 
greatly needed in the developing world. Ministries of health in such 
countries have repeatedly gone on record to state their reliance upon 
WHO as their single most important source of authoritative advice and 
technical assistance, particularly in matters pertaining to the control 
of infectious diseases. As a result, direct assistance from WHO to 
control infectious diseases is frequently requested and warmly welcomed 
with the best support the country can offer.


    <bullet> Deep experience. WHO has over 50 years of experience in 
coordinating the field operations needed to control infectious 
diseases. Current campaigns, which include global initiatives aimed at 
eradicating or eliminating eight diseases, build on the epidemiological 
approaches and logistic infrastructure that contributed to the 
successful global eradication of smallpox. These mechanisms, which have 
been refined over time, have proved robust and effective even under 
difficult conditions. The successful containment of the largest 
recorded outbreak of Ebola, which began in Uganda in October 2000, was 
coordinated by WHO and involved over 500 local staff and volunteers, 
supported by some 120 international staff from 22 institutions and 
agencies, including CDC. WHO coordinated the considerable efforts and 
logistics needed for the identification and confirmation of 425 eases 
and the surveillance of approximately 5,600 contacts in an area in 
which 70% of the population was internally displaced because of civil 
disturbances. As part of the drive to eradicate polio, mass 
immunization campaigns have been successfully conducted in the midst of 
complex emergencies and considerable civil unrest, with CDC providing 
strong and needed support.

          the framework for disease surveillance and response

A Three-Pronged Approach

    As WHO maintains only a small number of staff at its headquarters 
in Geneva and its six regional offices, the framework for global 
disease surveillance and response is based on the use of a large number 
of partners, including government agencies, non-governmental 
organizations, the private sector, and industry. Such partnerships 
allow WHO to magnify the impact of its efforts considerably.

    The framework relies on a three-pronged approach, with different 
strategies for combatting known risks and unexpected events, and for 
improving both global and national preparedness.


    <bullet> Containing known risks. Epidemic-prone diseases, such as 
cholera, dengue, influenza, measles, meningitis, shigellosis, and 
yellow fever, and foodborne diseases pose a constant threat to human 
populations. They are well adapted to transmission in human populations 
either directly from person to person, through transmission by insects 
and other disease vectors, or by contamination of the environment or 
food. These diseases are generally well understood and, in most cases, 
effective measures are available for their control.

    WHO maintains numerous programmes for the monitoring and control of 
these well-known and almost constant risks to public health. Disease-
specific networks of partners help WHO mount a rapid response when 
outbreaks occur, at times following a breakdown in standard public 
health control measures in the country concerned. Established 
protocols, based on extensive experience, facilitate prompt, 
coordinated action. For some of these infections, such as epidemic 
meningitis, influenza, and yellow fever, WHO also collaborates with 
researchers and industry to anticipate future outbreaks and ensure that 
adequate emergency vaccine supplies are available when needed. Other 
known risks monitored by WHO include those caused by foodborne diseases 
and the emergence and spread of drug resistance.


    <bullet> Responding to the unexpected. Unexpected or unusual 
disease events can be caused by previously unknown infectious agents, 
agents that have crossed the species barrier from animals to humans, 
agents appearing in a new geographical area, and agents that may be 
deliberately engineered and introduced by acts of bioterrorism. Novel 
pathogens are usually poorly understood in terms of their source and 
mechanisms of transmission, and many have the potential to cause large 
outbreaks. Fortunately, some of these pathogens are not well adapted to 
human populations and lack the potential for sustained, epidemic 
spread. As experiences with the AIDS epidemic have demonstrated, 
however, sustained epidemic spread is a distinct possibility that can 
have a major impact on societies and economies as well as on the life 
expectancies of countries. While novel pathogens may not always cause 
major outbreaks, they are often associated with high death rates, as 
they are poorly understood as they emerge, and initial prevention or 
treatment strategies are absent or ineffective. Examples include 
hantavirus infections, Ebola and, most recently, Nipah virus.

    WHO has recently established innovative mechanisms for responding 
to previously unknown diseases and unexpected or unusual disease 
events. These mechanisms take full advantage of the powerful new 
opportunities for heightened vigilance and rapid response that have 
been created by the widespread use of electronic communications. To 
heighten vigilance, WHO takes advantage of a semi-automatic electronic 
system, developed for WHO by Health Canada, that continuously and 
systematically crawls Web sites, news wires, public health e-mail 
services, electronic discussion groups, including the US-based Pro-MED, 
and local online newspapers for rumours of outbreaks. In this way, WHO 
is able to scan the world for informal news that gives cause for 
suspecting an unusual disease event. A WHO team responsible for 
outbreak verification investigates suspicious reports each morning to 
determine whether they pose a threat of international health concern. 
When appropriate, WHO uses its technical and geographical resources to 
verify the presence of an outbreak. Since 1998, WHO has used this 
system to verify over 800 outbreaks of potential international 
importance.

    To ensure that heightened vigilance is accompanied by a rapid 
response, WHO enlarged and formalized its procedures for outbreak 
detection, verification, and response in April 2000, when the Global 
Outbreak Alert and Response Network was formed. The Network draws 
together 72 existing networks, including several maintained by agencies 
such as CDC and DoD as well as those operating under WHO's 
responsibility. The Network reports and verifies information, on a 
daily basis, from a wide range of formal sources, including ministries 
of health, national institutes of public health, government and 
military health facilities and laboratories, and nongovernmental 
organizations, such as the Red Cross, having a strong presence in 
epidemic-prone countries. When an outbreak is judged to require 
international assistance, as agreed upon in confidential consultation 
with the affected country and with experts in the Network, WHO uses the 
latest electronic communication tools to coordinate quick and 
appropriate assistance. Since early 2000, the network has launched 
effective international responses in Afghanistan, Bangladesh, Egypt, 
Ethiopia, Kosovo, Saudi Arabia, Sierra Leone, Sudan, Uganda, and Yemen.

    The work of coordinating large-scale international assistance, 
which can involve many agencies from many nations, is facilitated by 
operational protocols, developed by WHO, which set out standardized 
procedures for the alert and verification process, communications, 
coordination of the response, emergency evacuation, research, 
evaluation, monitoring, and relations with the media. WHO has also 
issued guidelines for the behaviour of foreign nationals during and 
after field operations in the host country. By setting out a chain of 
command, and imposing order on the containment response, such protocols 
help protect against the very real risk that samples of a lethal 
pathogen might be collected for later provision to a terrorist group.


    <bullet> Improving preparedness. WHO conducts a number of 
activities aimed at helping countries strengthen their laboratory and 
epidemiological capacity and take advantage of new tools such as 
HealthMap (an interactive information and mapping system), and remote 
sensing data from NASA and other satellites. In collaboration with CDC, 
WHO formed the Training Programmes in Epidemiology and Public Health 
Interventions network (TEPHINET), another global network utilized by 
the Global Outbreak Alert and Response Network, which seeks, through 
shared resources and expertise, to enhance the effectiveness of 
national training programmes. In February 2001, WHO opened a new office 
in Lyon, France, to provide two-year specialized training for 
epidemiologists and laboratory specialists from developing countries 
where the epidemic risk is greatest. The training, which includes a 
six-week course in Lyon, is followed by specially tailored field work 
and support in the home country, supervised by Lyon-based staff. In so 
doing, the new programme is working to strengthen disease detection and 
response activities in those countries where epidemics and unexpected 
disease events are most likely to occur.

    As another example, a working group on long-term preparedness for 
outbreak response was recently established to help ensure that the 
energy and resources that are provided to a country for the 
investigation and containment of an outbreak do not vanish after 
containment, but are instead harnessed in the form of long-term 
technical assistance. During 1998 and 1999 major epidemics, including 
outbreaks of haemorrhagic fever, cholera, and meningitis, caused a 
significant increase in morbidity and mortality in southern Sudan and 
necessitated major international assistance. In 1999, a WHO-coordinated 
international team responding to an outbreak of relapsing fever set up 
an Early Warning and Response Network (EWARN) in partnership with 
nongovernmental organizations present in the field. With support from 
several sources, EWARN has been expanded to cover seven diseases and a 
wide geographical area, and now ensures that epidemics are rapidly 
detected and investigated while responses are launched quickly using 
prepositioned materials. This international partnership in the field 
has already saved thousands of lives and is sustained by systematic 
capacity building among the local communities.

    Capacity building for national epidemic detection and response is 
far more cost-effective than mounting an international response. During 
the Ebola outbreak in Uganda, containment activities left behind 
permanent improvements in the form of isolation wards at two hospitals 
in Gulu district, a community-based early warning surveillance and 
response system for priority infectious diseases, and sustained 
improvements in civil administration through the establishment of a 
community registry of births and deaths. In June 2001, a new focus of 
three suspected cases of haemorrhagic fever was detected by local staff 
within three days of onset, patients were immediately isolated in the 
recently established ward, and specimens were despatched for testing at 
the WHO Collaborating Centre in South Africa, where results fortunately 
proved negative, in this case, strengthened national capacity made it 
possible to defend global health security through local vigilance, 
without the need for costly international assistance.

Preparedness for a Bioterrorist Attack

    WHO will soon be issuing an updated edition of its standard guide 
to health aspects of chemical and biological weapons, initially 
published in 1970. In view of the devastating impact on civilian 
populations that use of such weapons could have, the guide urges 
governments to prepare response plans as an integral part of existing 
national emergency plans. The strengthening of public health 
infrastructure, particularly for surveillance and response, is singled 
out as a major contribution to preparedness. The establishment of 
routine, sensitive, and near real time disease surveillance systems 
enhances preparedness for deliberate as well as natural outbreaks. 
National systems are important as experience has shown that many 
region-wide and global systems are inadequately sensitive to pick up 
local outbreaks quickly.

    National surveillance systems need to be in place well in advance 
of possible intentional use of a biological weapon, as adequate data on 
the prevalence of background diseases are needed to aid recognition of 
an unusual and possibly deliberately caused disease. Moreover, the 
epidemiological techniques needed to investigate deliberate and natural 
outbreaks are the same. Since many of the agents that can be used as 
bioweapons cause disease in animals, countries also need to establish 
mechanisms for the routine exchange of information between the public 
health and veterinary sectors.

    Within the context of its outbreak alert and response activities, 
WHO has developed protocols for containing outbreaks of diseases, such 
as anthrax and viral haemorrhagic fevers, which could result from the 
intentional use of biological agents. As part of its official mandate 
for dealing with smallpox-related issues in the post-eradication era, 
WHO is responsible for ensuring the security of the remaining stocks of 
smallpox virus and overseeing their final fate.

A More Proactive Role for WHO

    Traditionally, one of the main factors undermining the 
effectiveness of infectious disease surveillance has been the 
reluctance of countries to report outbreaks due to fear of the negative 
impact this news would have on travel, trade, and tourism. This 
traditional reluctance is now beginning to change. In line with the 
growth of electronic media, approximately 65% of the world's first news 
about infectious disease events during the past four years has come not 
from official country notifications but from informal sources, 
including press reports and the Internet. Transparency about outbreaks 
and prompt reporting have therefore become increasingly important: 
unverified rumours of an outbreak or unusual disease can have a 
negative impact on travel and trade in the country and its neighbours 
even though the rumour may be totally unjustified or grossly 
exaggerated.

    In May 2001, the World Health Assembly, the supreme governing body 
of WHO, adopted by consensus a resolution on global health security 
that considerably strengthens WHO's capacity to act in response to 
outbreaks and epidemics. WHO is now in a position to investigate and 
verify rumoured outbreaks even prior to receipt of an official 
notification from the government of the country concerned. Though WHO 
continues to confer, in confidence, with governments and secure their 
agreement to mount an international response, this strengthened 
capacity allows WHO to act with unprecedented speed.

    In the new order of the electronic era, countries are increasingly 
aware of the advantages of prompt outbreak reporting and official 
verification, accompanied by prompt international aid when needed, and 
prompt advice from WHO to the international community concerning the 
associated risks and the realistic need for restrictions on travel and 
trade. For example, during the Ebola outbreak in Uganda, WHO was 
informed as soon as the first suspected cases were detected, and a WHO-
coordinated investigative team was on the spot within 24 hours. 
Throughout the five-month long epidemic, WHO issued 42 updated reports 
on the epidemic via its Web site. The country's borders were never 
closed.

    During the May debate that preceded adoption of the resolution on 
global health security, delegations from developing countries 
repeatedly urged WHO to help them strengthen the laboratory and 
epidemiological capacities needed to detect outbreaks quickly, identify 
their cause, monitor their spread, and introduce containment measures. 
Both the need to act and the will to do so are present. The risks are 
known, immediate, alarming, and relevant to every country in the world. 
WHO and its many partners and member states know what needs to be done.

    Mechanisms for monitoring and containing these risks exist, but 
need to be strengthened. Above all, the multiple threats posed by 
infectious diseases--whether well known or unexpected have global 
causes and consequences that can only be addressed through global 
solutions. Strengthening of national capacities and public health 
infrastructures represents one of the surest, most sustainable, and 
most cost-effective measures for preventing the international spread of 
diseases and thus defending global health security for the benefit of 
all.

U.S. Support

    The U.S. government is a valuable partner for WHO in building up 
global alert and response capabilities for combatting the threat posed 
by infectious diseases. Various U.S. government agencies have 
contributed to this effort, in line with the multifaceted nature of the 
threat. Most extensive is WHO's long tradition of reliance on the 
practical experience, technical expertise, and staff resources of CDC 
to conduct a range of fundamental activities needed to contain the 
international spread of epidemics. This collaboration has become even 
closer and more vital as the number of outbreaks requiring an 
international response continues to escalate. At times, such as during 
the simultaneous outbreaks of Ebola and Rift Valley fever in 2000, the 
resources of both agencies have been stretched to the limit. As with 
the strengthening of national capacities and infrastructure elsewhere, 
any U.S. decision to strengthen CDC benefits WHO as well as a large 
number of countries where populations and governments have been 
weakened by repeated outbreaks and epidemics. Any decision to 
strengthen CDC would likewise count as a sure, sustainable, and cost-
effective measure for defending world security against the mounting 
threat of infectious diseases. The recent establishment of DoD-GEIS is 
another especially welcome resource for expanding essential laboratory 
capacity.

    U.S. contributions extend to many other fronts. WHO draws support 
from USAID, whose financial assistance contributed greatly to the 
development work and expert consultations needed to reach consensus on 
the first Global Strategy for Containment of Antimicrobial Resistance, 
which will be officially launched on 11 September 2001. Ongoing efforts 
to uncover what triggers an Ebola outbreak, and thus help anticipate 
future outbreaks, are being conducted in collaboration with the NASA-
Goddard Space Flight Center, the National Centers for Environmental 
Prediction, DoD-GEIS, and other U.S. agencies. The National Institutes 
of Health, through its Fogarty International Center, provides training 
aimed at helping laboratory scientists and public health workers, in 
developing countries and the U.S., conduct research on emerging and re-
emerging infectious diseases and strategies for their prevention and 
control. Further NIH and CDC support comes in the form of grants to WHO 
Collaborating Centres and other U.S. institutions included in the 
Global Outbreak Alert and Response Network.

    As yet another notable example, the U.S. State Department's Bureau 
of Population, Refugees and Migration (PRM) has funded WHO malaria 
control activities in complex emergencies. PRM is considering expanding 
this support to cover additional diseases that can complicate the 
management of complex emergencies. The establishment of strong 
mechanisms for the surveillance and control of infectious diseases in 
countries affected by conflict is of particular importance, as such 
situations provide both ideal conditions for natural epidemics and a 
likely setting for epidemics of deliberate origin.

Conclusions

    The resurgence of infectious diseases and the emergence and spread 
of antimicrobial resistance have unleashed threats whose magnitude is 
almost certain to grow. Epidemics are again sweeping across continents. 
The tools needed to control emerging diseases are, in many cases, non-
existent. The control of re-emerging and epidemic-prone diseases 
likewise suffers from the spread of resistance to inexpensive first-
choice drugs. Nonetheless, today's world is better equipped to protect 
itself, through preventive measures, than in the past, when isolation 
and quarantine comprised the sole measures for control. Aided by 
powerful electronic communication tools, key defense strategies now 
include early alert, through sensitive global networks for realtime 
outbreak detection and verification, and rapid national and 
international responses once outbreaks are confirmed. The strengthening 
of infrastructure in epidemic-prone countries is vital to the 
successful and cost-effective implementation of both strategies.

    In a world that is now closely interrelated in matters of health as 
well as in economics and trade, defense against the threats posed by 
infectious diseases requires a collaborative, multifaceted, global 
response. WHO wishes to express its gratitude for the support provided 
on so many fronts by the U.S. and its agencies as part of this global 
response. WHO also wishes to express its strong desire to stay in close 
dialogue with the U.S. as we continue to track the evolving infectious 
disease situation, sound the alarm when needed, share expertise, and 
mount the kind of response needed to protect us all from the 
consequences of epidemics, whatever and wherever their origin might be.


    [The figures referred to in Dr. Heymann's testimony 
follow:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 5

    The Chairman. Thank you very much.
    Mr. Cilluffo.

 STATEMENT OF FRANK J. CILLUFFO, SENIOR POLICY ANALYST, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Cilluffo. Mr. Chairman, Senator Lugar, thank you for 
the opportunity to appear before you today and to discuss such 
an important matter. A major terrorist incident inside our 
borders involving conventional explosives, chemical weapon, or 
most glaringly biological warfare agents, would undoubtedly put 
our emergency management response to the test at the local, 
state and Federal levels.
    There's a real danger of being overwhelmed. Two 
simultaneous bombings of the magnitude of Oklahoma City or a 
large-scale release of sarin or VX nerve gas, could strain our 
current system to the point of bursting.
    In both cases, however tragic, there would be an immediate 
explosion or toxic effect to respond to. As Senator Nunn 
brought up earlier, not necessarily so for a covert attack in 
which biological weapons were used.
    In the case of a biological attack, the first responder, 
the very tip of the spear, is likely to be your primary care 
physician, your veterinarian, your agricultural services 
inspector or perhaps even an entomologist.
    Given the unheralded nature of these silent killers, it 
would fall upon the public health and medical communities to 
detect the attack, contain the incident, and ultimately treat 
the victims. Biological weapons can be delivered through 
several different means, ranging from using people as carriers 
of the disease, covert dissemination such as aerosolization, or 
via missile.
    As the recent ``Dark Winter'' exercise illustrated, a 
successful BW attack of major consequences could be a 
transforming event. It potentially threatens our American way 
of life, tearing at the very fabric of our society.
    According to a recent report on biological warfare by the 
National Intelligence Council, over a dozen states are known to 
possess or are actively pursuing offensive BW capabilities. 
Perhaps not surprisingly, a majority of the rogue nations 
populate this list.
    By way of example, during the gulf war, Iraq had warheads 
containing biological weapons produced and ready for use. I'm 
sure we'll be hearing a lot more about that from Judy Miller's 
book which will be coming out in the not-so-distant future.
    Also according to a forthcoming book by arms control 
analyst, Jonathan Tucker, the Soviet Union deploy warheads with 
smallpox weapons on at least four ICBMs. These missiles as 
gruesome as it may sound, were intended to kill off any 
remaining survivors after a nuclear attack in the United 
States.
    One cannot over generalize about the intentions and 
possible use and of course delivery of BW capabilities which do 
differ from state to state. And research and development vary 
greatly in terms of pathogen type, associated virulence, 
toxicity, stability, resistance to detection and/or treatment, 
quantity of agents, and of course the sophistication of 
delivery.
    For states not inclined to cause mass casualties, and with 
more discriminate aims, namely to wreak economic havoc, we must 
also consider agro-terrorism against our Nation's livestock 
and/or crops. And I look to Senator Lugar and applaud his 
efforts in this area.
    But just imagine the consequences in your home state if 
wheat, corn, citrus fruit, potatoes, tobacco, livestock, just 
to name to a few, were the target of a BW attack. As the recent 
European hoof and mouth outbreak demonstrated, pathogens that 
target agriculture not only cause massive losses to the cattle 
industry and to farmers, but also disrupted tourism and the 
entire economy for that matter.
    And certainly our borders are porous to bacteria, fungi, 
viruses, and insects, all of which could be used to attack our 
food supply.
    While bullets and bombs, not bugs and gas, will remain the 
weapon of choice for most non-state actors, some, including 
Osama bin Laden, had expressed interest in acquiring or 
developing a BW capability.
    And while it is more likely to be a crude device and means 
of delivery, non-state actors may not be overly concerned about 
retaliation, making them more likely to actually use biological 
agents. After all, it's hard to retaliate to a bomb actor with 
no address.
    While the likelihood of a catastrophic BW attack on the 
U.S. homeland, whether committed by state or non-state actors, 
whether delivered covertly or by missile, remains relatively 
low in the foreseeable future, the consequences are simply too 
high to be ignored.
    Though I say all of this in terms of threat and the like, 
that I believe since the end of the cold war, political 
forecasting and threat forecasting for that matter has made 
astrology look respectable.
    While there is general consensus that we are inadequately 
prepared to deal with bioterrorism, we are not starting from 
scratch. We now need to ask ourselves what policies, programs, 
and procedures have worked to date. What are the centers of 
excellence that can be built upon and leveraged.
    What has not worked. And what are the major gaps and 
shortfalls that have not been adequately addressed at all. This 
in turn lays the groundwork to proceed to the next step of 
crafting an effective national strategy to defend against 
bioterrorism.
    Although Federal, state and local governments have made 
some impressive strides, regrettably the whole remains less 
than the sum of its parts. Let me very briefly explain.
    We are now at a crossroads. While credit must be given 
where it is due, the time has come for cold-eyed assessment and 
evaluation to get to Mr. Helms' point earlier. We must 
recognize that we don't have a comprehensive strategy for 
countering this threat or the larger challenges of homeland 
defense. And I commend the chairman for tackling this issue in 
its entirety.
    As things presently stand, there is neither assurance that 
we have a clear capital investment strategy nor a clearly 
defined end-state, let alone a clear sense of the requisite 
objectives needed to reach this goal.
    Notably, no single Federal agency owns this strategic 
mission completely. For the moment, however, many agencies are 
acting independently in what needs to be a coherent response. 
My vision of a comprehensive strategy incorporates a full 
spectrum of activities from prevention and deterrence, our 
first objective should always be to get there before the bomb 
goes off, to interdiction and prosecution, to domestic response 
preparedness and retribution.
    All too often these elements of strategy are treated in 
isolation. This is a cross-cutting issue, yet we are still 
organized along vertical lines. This to me is the greatest 
challenge from the organizational standpoint.
    Any strategy must incorporate both marshaling of domestic 
resources and the engagement of international allies and 
assets. It requires monitoring and measuring the effectiveness 
or benchmarking of the many programs that implement the 
strategy so as to lead to common standards, practices, and 
procedures.
    In short, our capabilities and organizations must be 
strengthened, streamlined, and then synergized so that 
effective prevention will enhance domestic response 
preparedness and vice versa.
    I'm not going to get into what the prevention side as I had 
planned, because I think Mr. Woolsey addressed those issues 
very, very well. But multi-disciplinary intelligence collection 
is crucial to provide indications and warning of a possible 
attack, and also to illuminate key vulnerabilities that can be 
exploited and leveraged to disrupt an attack before they occur.
    We need to be able to tap in, the IC, the intelligence 
community, needs to be able to tap in to the scientific and 
biomedical research communities, something they have been 
having some troubles with. Indeed some of most critical 
intelligence related to bioterrorism may be derived through 
organizations such as the WHO which aren't really though of as 
intelligence collectors.
    Clearly our first line of defense should not be at our 
shores or at our water's edge which is why I'm happy this 
committee is taking on this issue. If you just look at the pre-
empted bombings during the millennium celebrations by the 
Jordanians, endless American lives were saved. The discussion 
we'd be having today would likely be very different if those 
bombings had succeeded.
    Let me just turn briefly to domestic response preparedness. 
We must expand the national security planning table to include 
the medical, public health and human services communities. They 
must have a front row seat at this table as this is both a 
matter of national security and public health.
    Yet to be blunt, as we have already heard, these 
communities are under-equipped, under-informed and ill prepared 
for the threat. And in our recent report we had a veritable 
laundry list of recommendations which I won't bore you with, 
but I'm just going to touch on three general priorities.
    In these priorities as a backdrop I think it's important to 
ensure that we receive a national security return on 
investment, a counterterrorism bang for our counterterrorism 
buck. It's not just throwing money at these issues but making 
sure there is an ROI.
    First we must capitalize the public health structure. Core 
public health functions, disease surveillance and laboratory 
capability will be the foundation of detection, investigation, 
and response for bioterrorist threats. This targeted approach 
would also have secondary and tertiary benefits to the public 
health community as a whole.
    Second, we must develop a national bioterrorism 
surveillance capacity. Surveillance is the touchstone of public 
health and organizes the other capacities within the public 
health sector that allows public health and emergency managers 
to monitor the general health status of their population, to 
track outbreaks and serve as an alerting vehicle for a 
bioterrorist attack.
    Third, we need to expand the provisions on biological 
terrorism in the Terrorism Annex of the Federal Response Plan. 
It is absolutely critical we lash up emergency management with 
public health, most notably to build a strong FEMA-HHS 
partnership.
    Further, and with specific regard to the private sector who 
I believe are at the leading edge of technology, we need to 
incentivize them to pull them into this war.
    Much of the forgoing discussion centers on the organization 
of the Federal, state and local governments. It is applicable 
whether a biological weapon is delivered covertly by terrorists 
or by missile. Unfortunately, somewhere in the course of 
discussions, these two distinct issues became mutually 
exclusive.
    It is not an issue of either or, rather we can and I feel 
must defend against both. The U.S. cannot be like the 
proverbial ostrich with its head in the sand and act surprised 
when we get kicked in the most obvious place. Moreover, if we 
concentrate on only one method of delivery at the expense of 
another, we merely displace risk and may even encourage attack 
in those other areas.
    I think it's clear that President Bush has made this one of 
his priorities. I think we need to give him and Vice President 
Cheney time to come up with their plan as well as to see how 
the Office of National Preparedness comes together.
    But I think if we look at it backwards, the President must 
never turn to the cupboard and find it bare. He should never be 
placed in a position where he must step up to the podium and 
address the American people to explain what he could have, 
should have, would have, but did not because this or that 
inside the beltway debate.
    And, yes, policy without resources is rhetoric. Despite the 
magnitude of the challenge, there is no doubt that our great 
country can rise to it. But to do so requires not only vision 
but also political will.
    Presidential and congressional leadership and follow-
through are needed to marshal our wherewithal in order to turn 
concepts into capabilities, to move from nouns to verbs, as you 
ably addressed earlier, Mr. Chairman.
    Developing and implementing and sustaining such a strategy 
and plan must be one of the highest priorities for U.S. 
national security.
    Thank you for the opportunity to share my thoughts with you 
today. As a carrier of foot-in-mouth disease, I've rarely had 
an unspoken thought. I'd be pleased to try to answer any 
questions you may have at this point. Thank you.
    [The prepared statement of Mr. Cilluffo follows:]

                Prepared Statement of Frank J. Cilluffo

    Chairman Biden, Senator Helms, distinguished committee members, it 
is a privilege to appear before you today to discuss this important 
matter. I would like to commend you for squarely facing this complex 
challenge.
    Although there is no way to predict with certainty the biological 
warfare threat to the homeland in the short-term or the long-term, it 
is widely accepted that unmatched U.S. power (economic, cultural, 
diplomatic, and military) is likely to cause America's adversaries to 
favor ``asymmetric'' attacks over direct conventional military 
confrontations. These strategies and tactics aim to offset our 
strengths and exploit our weaknesses. Against this background, military 
superiority in itself is no longer sufficient to ensure our nation's 
security.
    A major terrorist incident on U.S. soil involving chemical weapons, 
conventional explosives or most glaringly, biological warfare (BW) 
agents, would put our emergency management response to the test at the 
local, state, and federal levels.
    There is a real danger of being overwhelmed--two simultaneous 
bombings of the magnitude of Oklahoma City or a large-scale release of 
sarin or VX nerve gas--could strain our current system to the point of 
bursting. In both cases, if no advance warning was available, local and 
state emergency responders such as firefighters, police, and paramedics 
would arrive on the scene first. They would be followed by federal 
assets hours or perhaps days later. It would be a race against time to 
turn victims into patients. In the case of a chemical attack the window 
is likely small, the so-called ``golden hour,'' to administer life 
saving antidotes. It may take months to complete decontamination, 
recovery and reconstitution efforts, and decades for the community to 
come to grips with the tragedy and begin healing. In both cases, 
however tragic, there would be an immediate explosive or toxic effect 
to respond to, not necessarily so for a covert attack in which 
biological weapons were used.
    It could take days, or even weeks, for the symptoms of a biological 
agent to begin to manifest themselves. In the case of a BW attack, the 
first responder, the very tip of the spear, is likely to be a primary 
care physician, healthcare provider, veterinarian, agricultural 
services inspector, or perhaps an entomologist. Given the unheralded 
nature of these silent killers, it would fall upon the public health 
and medical communities to detect the attack, contain the incident, and 
treat the victims. The delayed onset of symptoms, coupled with the fact 
that it is difficult to discern a deliberate BW attack like smallpox 
from a naturally occurring infectious disease outbreak, makes 
attribution and identification of the perpetrators exceedingly 
difficult. Moreover, this type of attack can wreak havoc with the 
public, which must confront fear of the unknown.
    Biological weapons can be delivered through several, different 
means, ranging from using people as carriers of the disease (including 
person to person infections), covert dissemination such as 
aerosolization, or via missile.
    As the recent ``Dark Winter'' exercise illustrated, a successful BW 
attack on the United States, could be a transforming event. Beyond the 
physical damage and the loss of life, a major BW attack could shake the 
confidence of our citizens in our government to the core. It 
potentially threatens our American way of life, tearing at the very 
fabric of our society. We must grapple with difficult issues such as 
whether we are protecting America or Americans. Ideally, we are 
defending both, but no matter how robust our defenses, we will never be 
able to protect everything, everywhere, all the time, from every 
potential adversary.
    In a recent report on biological warfare by the National 
Intelligence Council, it is stated that over a dozen states are known 
to possess or are actively pursuing offensive BW capabilities. Perhaps 
not surprisingly, a majority of the ``rogue nations'' populate this 
list.\1\ States have a variety of reasons for developing biological 
weapons: to augment conventional war fighting capabilities, for 
blackmail, for deterrence/compellence, and/or for prestige.
---------------------------------------------------------------------------
    \1\ As many BW agents can be developed clandestinely, detection of 
BW programs and/or acquisition of BW capabilities is vexing. 
Furthermore, given the dual-use nature of biotechnology it is possible 
to cloak offensive BW efforts to appear to be legitimate research. 
Nations engaging in camouflage, concealment and deception programs 
could ramp up a BW capability with little or no warning to U.S. 
intelligence collection efforts.
---------------------------------------------------------------------------
    By way of example, during the Gulf War, Iraq had warheads 
containing biological and chemical agents produced and ready for use. 
Also, according to a forthcoming book by arms control analyst Jonathan 
Tucker, the Soviet Union deployed warheads with smallpox biological 
weapons on at least four ICBMs--the SS-11, SS-13, SS-17, and SS-18. 
These missiles were intended to kill off any American survivors in the 
aftermath of a nuclear attack.
    One cannot over-generalize about state intentions and possible use 
and delivery of offensive BW capabilities (research and development 
vary greatly in terms of pathogen type and associated virulence, 
toxicity, stability, resistance to detection/treatment, quantity of 
weaponized agents, and sophistication of means of delivery), which 
differ from state to state. While the resources available to states to 
develop biological weapons are much greater than those available to 
non-state actors, they remain constrained to an extent by the 
possibility of retribution and retaliation.
    For states not inclined to cause mass human casualties and with 
more discriminate aims, namely to cause economic havoc, we must also 
consider agricultural bioterrorism (agroterrorism) against our nation's 
livestock and/or crops.
    Imagine the consequences in your home state if wheat, corn, citrus 
fruit, potatoes, tobacco, or livestock (to list a few) were the target 
of a BW attack. As the recent European hoof-and-mouth outbreak 
demonstrated, pathogens that target agriculture not only cause massive 
losses to the cattle industry and farmers, but also impact a nation's 
ability to feed its citizens and disrupt the economy. In addition it 
upsets free travel and tourism, which are secondary effects, but 
equally costly. Certainly U.S. borders are porous to bacteria, fungi, 
viruses, and insects, all of which could be used to attack the nation's 
food supply.
    While bullets and bombs, not bugs and gas, will remain the weapon 
of choice for most non-state actors or terrorist organizations, some 
have expressed interest in seeking to acquire from other states or 
develop their own offensive BW capability. In my eyes, this represents 
more of an evolving threat, and although much has been written on the 
subject, the scientific sophistication needed to sustain and deliver BW 
agents, if not insurmountable, is substantial, nonetheless the 
fabrication of a crude BW device and means of delivery, on the other 
hand is very realistic and difficult to detect or preempt at any time. 
Moreover, conventional explosives continue to become more lethal and 
for the most part have been effective in achieving their terrorist 
aims.
    But unlike their state sponsored counterparts, non-state actors are 
much freer from the constraints of retaliation, making them more likely 
to use biological agents. After all it is hard to retaliate against an 
actor if there is no return address. Modern terrorism trends also 
highlight a propensity toward indiscriminate violence and greater 
casualties. For example, a hamas training manual expounds that it is 
foolish to hunt a tiger when there are plenty of sheep to be had. And 
Osama bin Laden has publicly pronounced that acquiring weapons of mass 
destruction, chemical, biological, radiological, and nuclear (CBRN), is 
a religious duty. Whereas traditionally terrorism was a political 
tactic, an attempt to get to the negotiating table, some of today's 
groups motivated by radical religious or nationalist beliefs, no longer 
seek a seat at the table, but rather want to blow the table up 
altogether and build their own in its place.
    While the likelihood of a catastrophic BW attack on the U.S. 
homeland, whether committed by state or non-state actors, whether 
delivered covertly or by missile, remains relatively low in the 
foreseeable future, the consequences are too high to be ignored.
    As a general matter, we need to approach this problem holistically. 
We must strike the proper balance between protecting our citizens and 
preserving our liberties and must not destroy our way of life in an 
effort to save it. Achieving this balance demands clearheaded 
prioritization of interests and resources, and thinking the unthinkable 
while we have the time to work out the problems that may arise.
    While there is general consensus that the United States is 
inadequately prepared and under-equipped and resourced to deal with 
bioterrorism, we are not starting from scratch. In determining how to 
proceed as a nation to defend against bioterrorism, we must ask 
ourselves what policies, programs, and procedures have worked to date 
(what are the centers of excellence that can be built upon)? What has 
not worked? And what are the major gaps and shortfalls that have not 
been adequately addressed? This in turn, lays the groundwork to proceed 
to the next step of crafting an effective national strategy for 
defending against bioterrorism.
    Although federal, state, and local governments have made impressive 
strides to prepare for bioterrorism, regrettably the whole remains far 
less than the sum of its parts. Let me briefly explain.
    The United States is now at a crossroads. While credit must be 
given where it is due, the time has come for cold-eyed assessment and 
evaluation, and the recognition that we do not presently have--but are 
in genuine need of--a comprehensive strategy for countering the threat 
of bioterrorism and the larger challenges of homeland defense. It is 
important to remember that defense against bioterrorism is but one 
plate in our counterterrorism armor.
    As things presently stand, however, there is neither assurance that 
we have a clear capital investment strategy nor a clearly defined end-
state, let alone a clear sense of the requisite objectives to reach 
this goal.
    Make no mistake, though. The dimensions of the challenge are 
enormous. The threat of bioterrorism by states and non-state actors 
presents unprecedented planning challenges to American government and 
society.
    Notably, no single federal agency owns this strategic mission 
completely. For the moment, however, many agencies are acting 
independently in what needs to be a coherent response, a goal that is 
not out of reach.
    To the contrary, we now possess the experience and knowledge for 
ascertaining the contours of a comprehensive strategy, a coherent 
response, and a future year program and budget to implement the 
strategy. It also bears mentioning that strategy must be a precursor to 
budget.
    In my view, effective organization is the concept that not only 
lies at the very heart of a comprehensive national counterterrorism 
strategy but also underpins it--from start (meaning pre-event 
preventive, preemptive and preparedness measures), to finish (meaning 
post-event crisis and consequence management, and response).
    My vision of a comprehensive counterterrorism strategy incorporates 
a full spectrum of activities, from prevention and deterrence to 
retribution and prosecution to domestic response preparedness. All too 
often, these elements of strategy are treated in isolation. Any 
strategy must incorporate both the marshaling of domestic resources and 
the engagement of international allies and assets. And it requires 
monitoring and measuring the effectiveness (``benchmarking'') of the 
many programs that implement this strategy so as to lead to common 
standards, practices, and procedures.
    In a recent CSIS report on combating CBRN terrorism that was 
developed from a panel I chaired, we set out a roadmap of near-term and 
long-term priorities for senior federal officials to marshal federal, 
state, local, private sector, and non-governmental resources in order 
to counter the terrorist threat. Our findings and recommendations speak 
not only to ``the usual suspects'' at each level of government but also 
to new actors, both public and private, that have taken on added 
salience in the current security environment.
    In our view, a complete CBRN counterterrorism strategy involves 
both (1) preventing an attack from occurring (our first priority should 
always be to get there before the bomb goes off; or better yet, prevent 
it from being built in the first place), which includes 
nonproliferation, counter-proliferation, preemption, and deterrence, 
and (2) preparing federal, state, local, private sector and non-
governmental capabilities to respond to an actual attack. In short, our 
counterterrorism capabilities and organizations must be strengthened, 
streamlined, and then synergized so that effective prevention will 
enhance domestic response preparedness and vice versa.
    With respect to prevention, a multifaceted strategy is in order. 
The common thread underpinning all of these, however, is the need for a 
first rate intelligence capability. The breadth, depth, and uncertainty 
of the terrorist threat demands significant investment, coordination, 
and retooling of the intelligence process across the board for the pre-
attack (warning), trans-attack (preemption), and post-attack 
(``whodunit'') phases.
    Several steps to strengthen the IC need urgent examination and may 
require significant changes to intelligence programs and budgets. These 
include:

  <bullet> Investing in all-source intelligence capabilities. Multi-
        disciplinary intelligence collection is crucial to provide 
        indications and warning of a possible attack (including 
        insights into the cultures and mindsets of terrorist 
        organizations) and to illuminate key vulnerabilities that can 
        be exploited and leveraged to disrupt terrorist activities 
        before they occur.

    To date, signals intelligence has provided decision makers with the 
lion's share of operational counterterrorism intelligence. National 
technical means cannot be allowed to atrophy further. While a robust 
technical intelligence capability is important, enhancing our human 
intelligence capability is even more so.

  <bullet> Invest in intelligence analytical capabilities. The 
        intelligence community, including the FBI, must invest in 
        expertise--linguists, BW experts, and regional specialists--to 
        buttress and synthesize its analytical ability to track 
        terrorists considering using biological weapons. This also 
        requires tightening coordination among the non-proliferation, 
        counter-proliferation and counterterrorism communities . . . 
        not only interagency, but also intraagency.

  <bullet> Tap the scientific and biomedical research communities. 
        Develop relationships between the IC and the scientific and 
        biomedical research communities, whose knowledge of emerging 
        capabilities and of other information gleaned from the open 
        scientific literature, international scientific collaborations, 
        and conferences could prove invaluable to the IC with respect 
        to the bioterrorism threat.

    Indeed, some of the most critical intelligence related to 
bioterrorism may be derived through the ongoing and open-source 
practice of international public health and surveillance activities, 
such as those run by the World Health Organization.
    In the same vein greater attention to nonproliferation and 
counterproliferation efforts provide the much-needed stitch in time. We 
need to think about ways to reassess arms control measures to limit the 
proliferation of BW agents, material, and expertise. This cannot be 
monitored like a START agreement or via traditional international 
conventions, but the United States should take the lead in building 
international support for multinational activities, while maintaining, 
and perhaps even codifying, the right to take action, including 
military action, against violators.
    In so doing, though, it must be kept in mind that traditional arms 
control measures--which assume large state efforts with detectable 
weapons production programs--are less effective in monitoring smaller 
proliferation efforts, or even large efforts, as the development of BW 
capabilities lend themselves to covert production. These will also be 
more effective vis-a-vis state-sponsors of terrorism than non-state 
actors. However, by focusing on state actors, we may also capture non-
state actors swimming in their wake.
    Along with some foreknowledge of the actions of hostile parties, 
the U.S. should strengthen its partnerships with foreign countries. 
Bearing in mind the transnational characteristic of the threat, the 
U.S. would be remiss in trying to address the problem alone.
    Diplomacy plays a major role in combating terrorism. Considering 
the shift away from political terrorism and towards ideologically based 
terrorism, many countries, the U.S. included, find themselves more at 
risk. An international interest exists in learning about and dealing 
with terrorism and there are many states that have already acquired a 
breadth of knowledge on the subject. The U.S. could draw on many of 
these countries' experiences, thereby flattening its learning curve.
    Moreover, engagement with these nations is critical for 
antiterrorism and counterterrorism endeavors, where cooperation and 
understanding provide the keys to success. Most importantly, 
cooperation works. The Jordanian authorities saved countless American 
lives during the millennium celebrations by preventing planned attacks 
on American tourists in the region. Clearly our first line of defense 
should not be on our shores at the water's edge.
    No matter how robust our intelligence capabilities and efforts, we 
cannot prevent 100 percent of the threat 100 percent of the time. Our 
emergency responders--those first on the scene of a ``no warning'' 
event--are state and local personnel: police, firefighters, and 
medics--not federal workers. With that in mind, I want to focus on 
domestic response preparedness because that is where the matter of 
effective organization figures most prominently.
    Organization must come from the bottom up as well as from the top 
down. This requires that policymakers address the current ``crazy-
quilt'' of doctrine, legal authority, equipment, and training for 
emergency responders. Bridge-building also involves reaching out to 
relative newcomers to the national security field--in particular, the 
medical, public health, and human services communities--who need to be 
integrated into our counterterrorist effort and our (comprehensive) 
national strategy. This is simultaneously a national security and a 
public health concern. In addition, the value of training and 
exercising must not be underestimated. Hopefully, it will be the 
closest we get to the real thing. And if not, it allows us to make the 
big mistakes on the practice field and not on Main Street, U.S.A.
    The medical, public health, and human services communities are 
especially critical to bioterrorism preparedness and response, as they 
would play a prominent role in detection, management, containment and 
medical treatment of victims. Here again, however, the need for 
effective organization stands in marked contrast to the present state 
of affairs, which is sub-optimal at best. Smart shoppers will want more 
accountability along the lines of defined core public health capacities 
for bioterrorism preparedness that deliver functional capabilities. 
This activity should be expanded and coordinated with other agencies 
involved in national preparedness.
    Put bluntly, the biomedical, public health, and human services 
communities are under-equipped, under-informed, and ill prepared for a 
biological attack and for infectious disease in general. Accordingly, 
our recommendations on the public health/medical side read like a 
veritable ``laundry list.''
    Even without reiterating our full complement of suggestions, the 
extensive and sweeping character of what is needed is evident in but a 
partial list: capitalize the public health structure; develop a 
national bioterrorism surveillance capacity (epidemiological monitoring 
capability); develop and distribute rapid and more reliable diagnostic 
capabilities and systems; develop a comprehensive strategy for assuring 
surge capacity for healthcare; streamline national pharmaceutical 
stockpiling efforts; and increase research and development for new 
pharmaceuticals, vaccines and antidotes.
    First we must capitalize the public health structure. Core public 
health functions (disease surveillance and laboratory capability) will 
form the foundation of detection, investigation, and response for 
bioterrorist threats. In implementing these solutions, we should focus 
on the terrorist threat. We need to ensure that we receive 
counterterrorism bang for our counterterrorism buck, and that we do not 
simply throw money at the public health sector.
    This targeted approach would have valuable secondary and tertiary 
benefits. Strengthening the ability to deal with extraordinary, and 
especially catastrophic, events provides tools and capabilities that 
are equally valuable in dealing with ``ordinary'' situations, e.g; 
natural outbreaks. Thus preventive measures, designed for the stuff of 
nightmares, also have utilitarian, day-to-day, functions and benefits.
    Second, we must develop a national bioterrorism surveillance 
capacity. Surveillance is the touchstone of public health and organizes 
the other capacities within the public health sector. An effective 
national bioterrorism surveillance system allows public health and 
emergency managers to monitor the general health status of their 
population (human, livestock, and crops); track outbreaks, monitor 
health service utilization; and serve as an alerting vehicle for a 
bioterrorist attack.
    Third, we need to expand the provisions on biological terrorism in 
the Terrorism Annex of the Federal Response Plan. The current U.S. plan 
for an organized response must be updated to include preparedness for a 
biological attack, which presents a host of unique and complicated 
challenges and requires a re-examination of the lead agency roles and 
missions. For example, the National Disaster Medical System (NDMS), 
composed of FEMA, the Departments of Defense, Health and Human 
Services, and Veterans Administration, has no strategy to rapidly 
augment medical resources at the state and local levels in the event of 
a bioterrorist attack. The NDMS has never been properly resourced, or 
properly focused on the issue of bioterrorism response.
    To these (and other) ends, the medical, public health and human 
services communities must work in greater partnership with each other--
and must coordinate more effectively with the larger national security 
community. Instead, however, we currently have a series of 
``disconnects.''
    Within the federal government alone, for instance, we have yet to 
develop (for counterterrorist purposes) smooth channels of inter-agency 
and intra-agency coordination and cooperation. Many agencies have had 
little past experience working together, such as the intelligence 
community and the Departments of Defense, Justice, Health and Human 
Services, Agriculture, and Energy as well as the Federal Emergency 
Management Agency and the National Institutes of Health (NIH). 
Certainly, we need to envisage a better FEMA-HHS partnership, one 
capable of galvanizing the public health and medical sector in response 
to bioterrorism.
    Indeed, the core capacity for public health and medical care needs 
to be greatly enhanced with respect to detection and treatment of 
infectious disease. Further, and with specific regard to the private 
sector, the expertise of the commercial pharmaceutical and 
biotechnology sectors has yet to be genuinely leveraged. This situation 
must change, and new funding strategies must be explored to 
``incentivize'' engagement of the private sector as a whole in the task 
of preparedness planning and capability-building.
    The United States needs to develop integrated surge capability for 
the entire health care system. We must first identify all existing 
assets and how they could be mobilized. Next, we need working 
strategies to be able to balloon care-giving efforts, at both the 
regional and national levels.
    Again, the United States also needs to look internationally. The 
United States ought to work with the World Health Organization (WHO) to 
monitor global infectious disease trends and outbreaks of disease, 
strengthen international surveillance efforts, and provide advance 
warning for a bioterrorist attack. Here too is an example of where 
immediate strengthening of resources for national and international 
security purposes would have immediate secondary and tertiary benefits.
    Once clear recommendations are made and a national strategy exists, 
the Defense Production Act of 1950 (DPA) provides policymakers with the 
means of marshaling and mobilizing the resources that would be crucial 
in the event of a terrorist attack with CBRN weapons. In addition to 
helping the United States prepare, the DPA provides some necessary 
authority to implement policies and procedures.
    The act's two-fold objective is: to ensure the availability of 
national defense products, materials, and services that are required to 
maintain national defense and emergency preparedness requirements, 
without overly disrupting the normal course of business and to provide 
U.S. industry with the necessary structure and framework to provide an 
inclusive response to a national security emergency. Thus the act 
facilitates both emergency and non-emergency preparation and planning.
    It could provide the necessary tools to put programs and people in 
position to prevent disaster. While proper previous planning prevents 
poor performance, it may also deter malfeasants, preempting their plans 
and providing greater security.
    However, the DPA must not be used to interfere with the free market 
and the ebb and flow of commerce. While our nation's security is of 
great importance to its citizens, fundamental principles of openness 
and freedom from restraint supersede even that. A dynamic balance 
exists between the need for defense preparedness and unfettered 
capitalism. This balance needs to be scrutinized before the government 
invokes the DPA to ensure that undue weight is not given to one side or 
the other, and avoid destroying what we hold dear in an effort to 
protect it.
    Much of the foregoing discussion centers on the organization of the 
federal, state, and local governments. It is applicable whether the 
delivery of a biological weapon is delivered covertly by terrorists or 
by missile. Unfortunately, somewhere in the course of discussions these 
two distinct issues became mutually exclusive. The debate became a 
question of either defending against bioterrorism or missiles. We can 
and must defend against both threats. The United States does not have 
the luxury of treating these two threats as an either/or proposition. 
They must each be monitored, deterred, and defended against through 
different mechanisms. We cannot escape the reality that they both 
exist. The United States cannot be like the proverbial ostrich with its 
head in the sand, and be surprised when it is kicked in the most 
obvious place. Moreover, if we concentrate only on one method of 
distribution at the expense of another, we merely displace risk and may 
even encourage attack in the other areas.
    The President and Vice President's laudable work in this area, 
creating the Office of National Preparedness and working towards 
formulating a national strategy, demonstrate that the administration 
understands the dangers and is actively working to lessen them. The 
President must never turn to the cupboard and find it bare. He should 
never be placed in a position where he must step up to the podium and 
address the American people to explain what he could have, should have, 
or would have done, but did not because of this or that. After all, 
policy without resources is mere rhetoric. Formulation of this strategy 
is a necessary first step in the process.
    Despite the magnitude of the challenge, there is no doubt that our 
great country can rise to it. To do so requires not only vision but 
also political will. Presidential and Congressional leadership will 
therefore be needed to marshal our wherewithal in order to turn 
concepts into capabilities. Developing, implementing, and sustaining 
such a strategy and plan must be one of the highest priorities for U.S. 
national security.
    Thank you for the opportunity to share my thoughts with you today. 
I would be pleased to try and answer any questions that you might have.

    The Chairman. Thank you. Thank you all for your testimony. 
I'm going to try to be as pointed as I can here. Dr. Henderson, 
we've discussed two problems. One is diseases that naturally 
occur, that are not a consequence of some maniacal plot on the 
part of an individual or individuals.
    But I'd like to focus on the biological threat as it 
relates to a conscious decision on the part of an individual, 
group, a nation state or any subordinate thereof to generate 
this problem, whatever the problem, smallpox or whatever.
    As a scientist, what are those dangerous infectious 
diseases that have the capacity to spread rapidly and do great 
damage that are most easily able to be manufactured, produced, 
stored, and transmitted by bad actors? We heard about smallpox. 
We've heard about anthrax.
    I'd like you to speak to two things. What else is in that 
group of biological weapons? And what is the degree of 
difficulty in manufacturing that substance and transporting it 
for the purposes intended?
    Dr. Henderson. Thank you, Mr. Chairman. We actually were 
very concerned about just this question as we formed the 
centers some 3 years ago. In fact, one could use any organism 
that could infect as a weapon. But in fact we really aren't 
concerned about many of them as major threats to the health of 
the community at large.
    What we are really concerned about are organisms that could 
threaten civil security and the integrity of the government. 
And we came up with five and a group: smallpox; anthrax; 
plague; tularemia, or rabbit fever, as it's called, which can 
spread in an aerosol and cause quite a number of deaths; 
botulinum toxin which is a poison usuallyproduced in food; and 
finally, the group of diseases causing hemorrhagic fever--
primarily the Lassa fever, Ebola, Marburg--all of which would 
be treated in a similar manner.
    It was our feeling that what we needed was to focus on a 
small enough group that one could educate physicians about to 
look out for, what specifically would be problems, because most 
physicians have seen none of these diseases at all.
    Second, what do we do in terms of a response in terms of 
vaccines, in terms of antibiotics. We focused on a relatively 
few organisms.
    The Chairman. Now again, I want to make sure I understand. 
The organisms you have focused on, you indicated why you 
focused in that, as most physicians haven't seen them, although 
you theoretically or practically have the ability to deal with 
them if you are prepared by vaccine, et cetera.
    I want to make sure that I understand that it also meets 
the first criteria. If I am the terrorist, what is that 
disease, what is that pathogen that is most easily accessible 
to me and most able to be transported by me with the most 
devastating impact? Are they the same diseases?
    Dr. Henderson. No. They are not the same diseases. For 
example, anthrax is not spread from person to person but it's 
really quite readily available and rather easily produced in 
fairly large quantity.
    The Chairman. How is it spread?
    Dr. Henderson. It is spread, well, let's say in a 
biological terrorist event it would be by aerosol. You would 
dry it and distribute it as a spray and let it drift over a 
community.
    It's found in soil and infects animals. It does not 
normally infect man or, if it does, it infects him on the skin, 
but inhaled, it can cause very serious problems and a very high 
death rate.
    Now, in looking at this group, we are looking at several 
things; one, the lethality, the fear of the public to such as 
plague or anthrax or Ebola. We know that panic is common when 
these diseases occur. We assessed how easily it would be to 
disseminate these organisms. By taking all of these different 
things into account, we eventually reached the list I cited.
    Far and away the worst of this group is smallpox, with 
anthrax probably a cut below and the others coming along 
behind. But any of them would be a real problem.
    The Chairman. It seems to me that based on what I have been 
exposed to, taught, listened to, proselytised about--Dr. Ikle 
knows a great deal about this--is that in order for a terrorist 
to implement policies, their purpose to be achieved, it has to 
be something they can take credit for, incredibly take credit 
for generally speaking.
    It is possible we have some group just deciding to do great 
damage to the United States or somewhere else and never take 
credit and make it appear as though it occurred naturally in 
the environment. But that's usually not the way.
    Osama bin Ladin and others, that would not be their modus 
operandi to do that. It's possible that happened. So that's why 
I asked the question in terms of what the focus is here.
    Dr. Ikle, what I wanted to ask you is in your report you 
speak to a number of these concerns. What is it that you think 
is the place if you were heading up, and I know this is not 
your form or function, but I know you know a great deal about 
it, if you were heading up the intelligence community what 
would you be looking at and for? Where would you be focusing if 
your focus was biological threats?
    Dr. Ikle. I would first start with the recommendations that 
Jim Woolsey made about opening up the opportunities for 
collecting the information.
    The Chairman. I got that. What kind of pathogen would you 
be focusing on?
    Dr. Ikle. What kind of pathogens? One would have to be 
entirely advised by the life scientists like Dr. Henderson. It 
gets you into a delicate situation. I was thinking about that 
as we were talking a few minutes ago.
    If you explain all this in public, you may give guidance to 
the perpetrators. If you go back to the Aum Shinrikyo story, 
they obviously didn't invent all this themselves. They read 
about it and then proceeded to produce these agents.
    So there's in this area a delicate boundary between secrecy 
and public information. I'm basically always in favor of 
minimized secrecy, because it's used to cover up mistakes.
    But this ties in with your previous observation that the 
perpetrator would want to be known. I could imagine a situation 
where we are at war overseas, in the Gulf region or what have 
you, and that country's doing rather badly against our tanks 
and our fighter aircraft and so on. The enemy may at that point 
want to weaken the United States with such an attack without 
being known as the country that caused it for fear of 
retaliation. So we have to figure in the possibility of 
clandestine attack.
    The Chairman. I wasn't suggesting that it wasn't a 
possibility.
    Dr. Ikle. Sure. I realize that.
    The Chairman. It takes me back to the point made by Mr. 
Cilluffo that none of these potential, if you will, delivery 
systems should be viewed as mutually exclusive. I agree, except 
that we have a problem up here, Mr. Cilluffo; and that gets 
down to money.
    It gets down to prioritizing, it gets down to making 
judgments about what is the most likely thing that is to 
happen. It is in the best of all worlds we can spend--if you 
take a look at a layered missile defense--you are talking 
somewhere between $100 billion and $.5 trillion depending how 
layered it's going to be, maybe more.
    If you are talking about dealing with public health 
infrastructure here, we can't even pass a bill introduced by 
Senators Kennedy and Frist $125 million. Instead, we arrived at 
the final result of $1 million for the public health 
infrastructure.
    One of the things I'm going to need your help on as we go 
down the road here, and please do not view this as an 
introductory opportunity for the committee and we'll thank you 
and goodbye. The bad news is that it's like contributing to a 
charity. We have your number and we'll be back.
    But all kidding aside, one of the things I have to do if I 
do my job properly as chairman here, and this committee has to 
do, excuse me for this digression but all committees are 
intended to do the in-depth look at the policy questions that 
the entire Senate can't do and make recommendations to the 
Senate as a whole.
    It seems to me part of my responsibility is as I've 
undertaken this task, and I'm not sure it may be more than I 
should have undertaken but I've undertaken this task is I 
eventually have to attach numbers to these initiatives.
    The World Health Organization and the global surveillance 
system to make it work as well as you would like, how much 
money do you need? I know we say there's a lot of things we can 
solve without money. There are. But you can't provide more 
emergency rooms and hospital beds without more money.
    You can't deal with the problems that some of you have 
identified for the research without more money, and so on. So 
we are going to have to attach some numbers along the line here 
that are reasonable expectations of cost, which takes me to 
this.
    When I hear--and I'd like any one of you to respond to 
this--when I hear Senator Nunn say, and I've just explained the 
whole second rate policymaker here. I'm not a scientist but 
I've been doing this a long time. And I hear people say, like 
Senator Nunn and the group that put on the exercise, that we 
didn't have enough vaccine as they went through this to deal 
with the crisis.
    Well, a logical thing to say would be, OK, if that's a real 
possibility, why don't we stockpile the vaccine? The reason I 
asked you the question, Dr. Henderson, that I did, as to what 
are the most likely agents that if this were to occur would be 
the easiest and the most devastating pathogens, do we stockpile 
vaccines or whatever medical response would be required? Do we 
do that?
    In order to do that, we have to identify what we are 
stockpiling and for what purpose. I know it's obvious why I 
asked the question. Because eventually we have to get to the 
point beyond curtailing the availability of those who have the 
technology and the scientific background to produce these 
things from going on the free market out there.
    We have to begin to figure out how to get our arms around 
this in terms of policy. And so my question is, does anyone 
have any sense of what the cost is of what you would list as 
the first or second most important thing we should be doing?
    If I said to each of you the good Lord Almighty came down 
and sat in the middle here and said, OK, guys, each one of you 
get to have fully implemented one or two of your 
recommendations, what would it be that you recommend? Because 
that's how this place works.
    I mean, we could be honest about it. We don't have a 
holistic approach here. We don't come up and sit down and go 
through this for a year and say here's the plan and we 
introduce the entire plan. What is it? What are the first 
things each of you would do in order to deal with either the 
intentional spread of or the natural spread of any of these 
serious diseases which can wreak havoc upon a society?
    Maybe I'll start with you, doctor. And I know that's an 
unfair question but that's essentially what guys like me end up 
having to do.
    Dr. Ikle. It is a key question, Mr. Chairman. And my 
inclination would be to look at this as a two-stage approach. 
And I think I mentioned (just while you had to step out) we 
must work on long lead items to have a surge capability after 
we had experienced a triggering event that focuses the public 
and the political consensus on it.
    And to that end I would think most of the work would be in 
the area of preparing vaccines and other pharmaceutical 
countermeasures, engaging the pharmaceutical industry. And to 
give you a guess, you asked us properly for a guess of a 
number--$300 million, $500 million over a spread of the next 
few years.
    The Chairman. Thank you. Mr. Cilluffo.
    Mr. Cilluffo. And this is not to duck the question, but I 
really do think there's a need to turn and to look to three 
criteria which need to be met. And that's authority, 
accountability coupled with the resources.
    Right now we don't know what we are spending on. Right now 
we don't know how we could leverage other programs that are out 
there that can be brought into this war.
    So I think we really do need some fiscal accountability and 
responsibility. And it's not only at the Federal level, it's at 
the state and local levels. And the NGOs and the private sector 
and then we need to look abroad.
    So I think it's a challenge. This doesn't fit in any 
particular agency's line item. This cuts across everyone's 
budget. I think intelligence is clearly in my eyes the first 
area of priority. But again, it's not just an issue of throwing 
money.
    We all know terrorists don't frequent the cocktail circuit. 
These aren't good people. But we need to have the will to be 
able to do certain things. I would recommend though that the 
NDMS, the National Disaster Medical, that there are some 
capabilities that will need to be brought to bear which need to 
be leveraged and need to be capable in the time of an event.
    This is where the lashing up of FEMA and HHS is crucial, 
because it's better to make the mistakes through training and 
exercising on the practice field and not on Main Street, U.S.A.
    I would also say in terms of our RDT&E efforts, we should 
look at a 5-year RDT&E effort as DOD goes through. There's not 
much, again, accountability. Some of it is with DOD, some of it 
is here and some of it is there. It's scatter shot. We need to 
put our arms around this.
    The Chairman. As you have pointed out, and all of you may 
find this at least interesting if not instructive, for the last 
30 years, once a year I get together all the volunteer and paid 
fire services and emergency responders in my state for a 
conference.
    It's become an event that is taken very seriously 
throughout my small state, able to get them all together, 
literally 150 or so people, max. And you know what, they 
figured this out. They figured out that they are the ones that 
are going to be the ones that are going to have to be dealing 
with this problem.
    They are begging now, begging the state and Federal 
Government. These are mostly blue collar guys and women who are 
volunteer fire service people or paid fire service people who 
understand; for example, they just had a little old fire at a 
place called Motiva relating to sulfuric acid.
    They weren't equipped to deal with it. Then they had a 
little problem with a trailer carrying medical waste material 
that was very dangerous. They had no idea how to go about it; 
nobody to call. They had no 911 number.
    There's no 911 number that will immediately be on the 
scene. So it's interesting that this is beginning to seep down 
to the place where--practically speaking, as the old joke 
goes--the rubber meets the road, down to these normal people. 
There's not any sort of celestial body up here of big time 
Federal folks that is going to come down and say, here's your 
answer.
    But what would you do, Dr. Heymann? What would you have us 
do if you sat in this seat?
    Dr. Heymann. Maybe, Mr. Chairman, I could put in 
perspective a little bit the need for vaccines and for other 
items which are important today for public health. Today out of 
Geneva we'll announce that there's an outbreak of urban Yellow 
Fever in Abidjan, in Cote d'Ivoire.
    The last outbreak of urban Yellow Fever occurred in Nigeria 
in the 1970s and killed over 24,000 people. We have no money to 
buy the vaccine necessary to vaccinate the 3.5 million people.
    The Chairman. Is there a vaccine?
    Dr. Heymann. There is a vaccine. It's 17 cents a dose, and 
we are right now going out to the usual extra budgetary WHO 
donors to mobilize the money that's necessary to buy these 3.5 
million doses of vaccine at the request of the government.
    If you look at the major infectious diseases today, AIDS, 
TB and malaria, there's no vaccine that's effective in any of 
these. So we have to balance the needs today with the needs 
that might occur from the intentional use which makes it an 
even more difficult problem.
    As we look over the situation though, there's one thing 
that's clearly needed. And that is an investment in public 
health infrastructure. That means in public health 
laboratories, in epidemiology training, in various activities 
within countries. There are investments which will deal both 
with those diseases which are occurring today and the ones that 
might be caused intentionally.
    If we were to look at what it would cost to strengthen the 
weakest countries that we have now by strengthening their 
public health laboratory, by starting epidemiology training 
with their senior level health staff, and by coordinating this 
outbreak response network until countries can do the job on 
their own, we estimate about $15 million a year for the next 5 
years.
    The Chairman. Fifteen? One-five?
    Dr. Heymann. Yes, no more than $75 million over 5 years. 
But even that is very difficult to mobilize.
    The Chairman. Dr. Henderson.
    Dr. Henderson. Just a parenthetical note that you may be 
unaware of, Mr. Chairman. There has been smallpox vaccine 
contracted for--some 40 million doses--by the Centers for 
Disease Control. This will be delivered some 3 years hence. And 
there are stocks of antibiotics which have now been provided 
for that would be immediately available for use for certain of 
these other diseases.
    There is research going on to develop anthrax vaccine which 
would provide us perhaps a two-dose schedule for protection.
    The thing that we are most concerned about, as we look at 
the whole picture, is that we do not have a national strategy. 
There are large amounts of money now being spent for programs 
I'm not going to cite, which are not productive for this 
program at all.
    I believe the national strategy issue is very critical and 
having an accounting of appropriated funds and how they are 
being used. If I were to look at selecting only one thing, with 
your criteria, I'd go back to the public health piece again. 
The key is that we need an alarm to get at the problem and we 
need it quickly.
    We don't have that now. I think if I were going to invest 
right now, I would be putting a lot more resources into public 
health both nationally and internationally in surveillance, in 
investigation, in laboratories so we get on top of these 
outbreaks.
    The Chairman. I have many more questions. Unfortunately, 
I'm supposed to be at a policy meeting at 1 o'clock; although, 
it's not as important as this. I would like to ask you if you 
are willing to stay in contact with this committee. Because I 
have a number of questions I would like to submit.
    I'm not trying to make work. And if the questions we submit 
to you you think aren't worth answering, say so. You are the 
experts. I'm not being facetious when I say that.
    To the extent that you can give us additional guidance, if 
you were sitting here, how would you proceed to do exactly what 
you have just said, Dr. Henderson, how do we come up with a 
national strategy? What should be the locus of that?
    I don't know how any of this ever happens without a 
specific initiative--no matter if it's a Democratic, Republican 
or Presidential initiative--moving these kinds of things. But 
how would you go about it? What would you suggest we do?
    For example, when we talked about the issue of chemical 
weapons, we had a Commission that you may--I know you are 
familiar with, Dr. Ikle, you may have even participated in it. 
I'm embarrassed to say I don't know.
    But it's headed by Senator Baker and Mr. Cutler, among many 
others. They came back with this very concrete report full of 
recommendations. For example, with these loose weapons lying 
around in Russia, they showed us pictures of a clapboard 
buildings--they looked like old outhouses--with padlocks on 
them, with enough chemical material in there that if disbursed 
wouldn't take a missile or anything else to cause devastation 
to tens of thousands, hundreds of thousands of people.
    They came back with a hard recommendation. They said we 
should be investing $30 billion on very specific initiatives as 
to how to begin dealing with this. Eventually, this Nation has 
to come up with a strategy that is, in a sense, bite-sized, 
that can be translated to policymakers and justified to our 
folks back home as to why we just voted to spend $X million or 
billion to do this thing.
    And so, we've got to figure out how to get some of this 
down to that level. This is not the purpose of today's hearing. 
The purpose of today's hearing is to investigate and to begin a 
cursory look at what the potential threat is out there. We are 
going to be having the intelligence community and others come 
up and tell us about the likelihood of that threat based upon 
their assessments.
    We are going to be having four more hearings relating to 
chemical and nuclear weapons and so on. So this is the 
beginning of the process. I don't want you to think that we are 
foolish enough to think that this is where we are going to be 
able to come up with a solution or an answer based upon this 
first hearing.
    Part of this is to make my colleagues and myself, beginning 
with myself, aware of the nature of the problem. Because unless 
we understand that first, we are not going to get our hands 
wet.
    You all have forgotten more about these issues than we are 
going to learn. My hope is that you can communicate enough to 
us and your colleagues in other areas that we can begin to 
generate a consensus about the willingness to expend money.
    The idea that we are unwilling in this environment to spend 
$125 million on beefing up the public health sector in a 
bipartisan effort by two Senators, Kennedy and Frist, and we 
are only able to get a consensus to spend $1 million on it, 
illustrates the degree of the education that needs to be 
undertaken here.
    So I want to thank you all very, very much, and warn you 
that, like I said, it's like contributing to a charity. We know 
where you are. We've called on you Dr. Ikle many, many times, 
and we will continue to do so as long as you are willing.
    But I would like very much to pursue some of this and the 
specific questions with the other three panelists as well. 
Thank you all. Sorry to trespass on your time so late, but I 
appreciate it very much.
    Senator Feingold's statement--he was unable to be here--
will be placed in the record, and Senator Frist's statement as 
well.
    We are adjourned.
    [The statements referred to follow:]

              Prepared Statement of Senator Russ Feingold

    I want to thank the Chairman for convening this important hearing, 
and all of the witnesses for their time and their insights. Taking a 
serious look at the U.S. capacity to prevent or respond to a 
bioterrorist attack is an important part of this committee's broader 
effort to take a sober look at the varied threats before us and to 
identify rational policy priorities accordingly.
    But as a longtime member and current Chairman of the Subcommittee 
on African Affairs, I particularly appreciate the second phase of this 
hearing, which recognizes that Americans' epidemiological security is 
not guaranteed even in the absence of malicious, deliberate biological 
threats. As populations shift and international travel increases, 
people all over the globe are coming into contact with new 
microorganisms--and, sometimes, new diseases. In fact, according to the 
General Accounting Office, over the past three decades, more than 
thirty previously unknown diseases have been identified. I know that 
this committee will hold hearings focusing on the HIV/AIDS pandemic in 
the weeks ahead. But whenever I meet with African leaders I am reminded 
of the devastating effects of other infectious diseases, and of the 
potential for mutations and treatment-resistance to wreak havoc around 
the globe. A recent GAO report, which I joined with Senators Frist, 
Leahy, and McConnell in requesting, reveals that existing international 
surveillance networks are ill-equipped to alert us to these emerging 
threats. These critically important issues that affect a core element 
of national security--our national health.
    U.S. policy choices and priorities should reflect that reality. 
International disease prevention and control initiatives are important 
investments in Americans' security, and well-managed, responsible 
development assistance programs can help governments and civil 
societies abroad to prevent new outbreaks and conquer persistent 
scourges. The GAO report indicates that laboratory capacity in the 
developing world is inadequate, and that investment in infrastructure 
is desperately needed to help overworked public health professionals 
function effectively.
    This hearing will bring much-needed attention to these issues as 
the United States considers how best to allocate scarce resources. I 
look forward to the testimony and to working with my colleagues to make 
sound investments in improving global epidemiological security.
                                 ______
                                 

                Prepared Statement of Senator Bill Frist

    I want to thank Chairman Biden for calling this hearing today on 
one of the most pressing and disturbing issues of our time--the threat 
of bioterrorism. I welcome the testimony from our two panels.
    Not only will the discussion today focus on steps that have been 
taken to improve our response to bioterrorist threats, but it will also 
look at lessons learned from ``Dark Winter,'' an exercise designed to 
simulate a terrorist attack on the American people with smallpox--a 
contagious virus that could devastate our country. This exercise taught 
us about the potential damage such an attack could have on the health, 
economy and security of our cities, communities and country.
    Any threat to the security of the people of the United States from 
a weapon of mass destruction, even those with low probability of 
occurrence but high potential consequence, including biological 
weapons, must be taken seriously through adequate preparation. As we 
all know, the Bush Administration is committed to a coordinated 
national effort to deal with terrorist threats. Furthermore, Vice 
President Cheney will soon be reporting to Congress about the program 
needs to deal with biological and other weapons of mass destruction. I 
eagerly await his recommendations.
    Whether past or present, bioterrorism remains a significant threat 
to our country. Exposed individuals will most likely show up in 
emergency rooms, physician offices, or clinics, with nondescript 
symptoms or ones mimicking the common cold or flu. Most likely, 
physicians and other health care providers will not attribute these 
symptoms to a bioweapon. If the bioagent is communicable, such as 
smallpox, many more people may be infected in the interim, including 
our health care workers. Experts say it may take as long as 24 to 48 
hours after a bioterrorist attack occurs before federal assistance can 
arrive, making it the critical time for preventing mass casualties.
    To better prepare America, I introduced the ``Public Health Threats 
and Emergencies Act of 2000.'' This critical legislation, which became 
law last November, provides a framework for coordinating efforts within 
the Department of Health and Human Services (HHS) and the Department of 
Defense to examine our preparedness for a bioterrorist attack. It also 
requires HHS, the Federal Emergency Management Agency, and the United 
States Attorney General to review the medical consequences of an 
attack, and authorizes the National Institutes of Health (NIH) and the 
Centers for Disease Control (CDC) to develop new vaccines for 
biological weapons. Funding is authorized to support public health 
agencies, hospitals, and health care facilities to detect, diagnose, 
and respond to bioterrorism.
    The second panel today will help place bioterrorism in the broader 
context of preparing for the spread of naturally occurring diseases, 
such as influenza and West Nile, a flavivirus that primarily relies on 
migratory birds and mosquitoes for transmission to humans.
    Arms control negotiators have used the term ``dual use'' to refer 
to biologic production facilities that have the potential to be used by 
some countries to produce vaccines for children one week and then 
produce bacteria or viruses for biologic weapons the next. But we can 
also use the term ``dual use'' differently: The same infrastructure 
investments used to prepare our public health communities, doctors and 
federal agencies to detect, diagnose and respond to smallpox epidemic 
resulting from a biologic attack can also be used to detect and respond 
to outbreaks of natural occurring diseases like West Nile.
    In addition to strengthening our defenses against a bioterrorist 
event, the improved public health capacities resulting from preparation 
and planning will lead to substantial health benefits in dealing with 
inevitable natural occurrence of emerging infectious diseases.
    Last week the GAO released a report, ``Challenges in Improving 
Infectious Disease Surveillance Systems,'' requested by Senators Leahy, 
McConnell, Feingold, and myself. It concludes that global disease 
surveillance, especially in developing countries, is woefully 
inadequate to provide advance warning about newly emerged diseases, 
including antibiotic-resistant tuberculosis, or the suspected use or 
testing of dangerous organisms as bioweapons. Not only would improving 
international surveillance networks and capacities help poor countries 
meet their health care needs, it is in our own security interest to 
know about emerging threats if we are to appropriately respomd quickly 
and effectively.
    Just this week, a New York Times article provided a summary of a 
recent study documenting strong evidence that HIV/AIDS was a zoonotic 
disease in chimps that entered the human population around 1930. If we 
had had the appropriate international public health and surveillance 
infrastructure in place then, perhaps we could have avoided the 
epidemic which currently results in 15,000 new cases each day and a 
death from AIDS every six seconds.
    Despite significant medical breakthroughs, our nation faces grave 
new health threats that could imperil the great medical progress made 
in the past century. Whether it's biological weapons, microbes 
resistant to antibiotics, or emerging infectious diseases, a strong 
front line defense is critical to America's public health 
infrastructure. By taking steps now to improve our basic capacities to 
address all public health threats, we ensure our investment in a public 
health system that keeps our nation safe. The ``Public Health Threats 
and Emergencies Act of 2000'' provides a sound policy framework upon 
which additional measures can be built, and the legislation should be 
adequately funded.
    Biological weapons are but one of the ``weapons of mass 
destruction'' for which we must be prepared. And let me be clear, we 
must adequately fund programs to deter and respond to each of these 
threats--be they biologic, chemical, or nuclear. All are real. All 
deserve our attention, our best thinking, and preparation. We must be 
assured that we are doing all we can to prevent the use of weapons of 
mass destruction, stop their spread, prevent their delivery by whatever 
means, and ultimately mitigate their impact should they be used.

    The Chairman. We are adjourned.
    [Whereupon, at 1:20 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                   - 
</pre></body></html>
